Semiannual Report to Congress
 Office of Inspector General for the U.S. Department of Labor




Volume 62                                April 1 - September 30, 2009
          A Message from the Acting Inspector General
 I am pleased to submit this Semiannual Report to Congress, which highlights the most significant
 activities and accomplishments of the U.S. Department of Labor, Office of Inspector General
 (DOL-OIG), for the six-month period ending September 30, 2009. During this reporting period,
 our investigative work led to 214 indictments, 221 convictions, and $123.1 million in monetary
 accomplishments. In addition, we issued 22 audit and other reports.


OIG audits and investigations continue to assess           benefits after they were able to return to work or after
the effectiveness, efficiency, economy, and integrity of   their compensation could have been reduced.
DOL’s programs and operations. We also continue to
investigate labor racketeering and/or organized crime      Our investigations continue to combat organized crime
influence against unions, employee benefit plans, and      and/or labor racketeering involving the monies in union-
workers.                                                   sponsored benefit plans, internal union corruption, and
                                                           labor-management relations. A major OIG investigation
From an audit perspective, the OIG is highly engaged       disclosed more than 30 years of organized crime control
in ensuring the integrity of DOL activities related to     of the International Longshoremen’s Association Local
the American Recovery and Reinvestment Act of              1235, which represents port workers in New Jersey.
2009 (Recovery Act) funding. During this reporting         In another investigation, the business manager for
period, we issued five reports to that end. Among          the Electrical Workers Local Union No. 3, who was a
our findings are that DOL implemented procedures           former New York State assemblyman, was sentenced
for the accounting of Recovery Act financial activity,     to 10 years’ imprisonment on racketeering, bank fraud,
acted quickly to implement the premium-assistance          and false statement charges involving a number of
provisions for workers who temporarily maintain their      schemes carried out for personal gain.
health insurance at group rates after losing their jobs,
and effectively implemented the temporary program          OIG investigations also identified vulnerabilities and
for additional unemployment compensation for eligible      fraud in DOL programs, such as the foreign labor
recipients. We also identified areas for improvement       certification (FLC) program. One OIG investigation
related to financial and performance reporting and         led to the recent sentencing of Viktar Krus and his
programmatic coordination with states.                     co-conspirators to various periods of incarceration
                                                           for fraudulently obtaining visas for more than 3,800
An audit found shortcomings with DOL’s new iCert           foreign nationals and defrauding the government of
system, which is designed to identify inaccuracies in      $7.4 million in payroll taxes. Because of our investigative
H-1B labor condition applications (LCAs) for foreign       expertise, the OIG is a member of the International
workers. We found that, because of missing electronic      Organized Crime (IOC) strategy headed by the U.S.
checks, manual reviews of the LCAs by analysts are         Attorney General. The IOC is committed to combating
necessary. However, increases in the volume of             crime by international organized groups.
applications may result in analysts not being able to
perform a 100 percent review. This increases the risk      Finally, I would like to express my sincere gratitude to
of LCAs being improperly certified.                        former DOL Inspector General Gordon S. Heddell, who
                                                           is now serving as the Inspector General at the U.S.
Our audits also continue to reveal that some Job Corps     Department of Defense. During his leadership of more
centers do not comply with requirements for reporting      than eight years, the DOL-OIG consistently achieved
performance for student attendance and accountability.     significant results similar to those presented in this
We also found that, at three centers, a contractor had     report. As Acting Inspector General, I look forward
not ensured compliance with procedures to address          to continuing to work with the Secretary of Labor and
student misconduct.                                        her management team in ensuring the effectiveness
                                                           of DOL in delivering services and protecting the rights
An audit of the handling of injured Federal employees’     and benefits of American workers and retirees.
reemployment status at two Federal workers’
compensation district offices found that the Department
did not ensure that consistent intervention actions
were taken toward removing cases from the periodic
roll. This increased the risk of claimants continuing                                             Daniel R. Petrole
to receive full Federal Employee’s Compensation Act                                       Acting Inspector General
           Selected Statistics ..................................................................1
           Significant Concerns...................................................................2


Contents   American Recovery and Reinvestment Act............................11

           Employment and Training Programs
           Foreign Labor Certification Programs.........................................17
           Workforce Investment Act............................................................22
           Job Corps.....................................................................................23

           Worker and Retiree Benefit Programs
           Office of Workers’ Compensation Programs..............................27
           Employee Benefits Security Administration ..............................31
           Unemployment Insurance Programs..........................................32
           Wage and Hour Programs.........................................................36

           Worker Safety, Health, and Workplace Rights
           Occupational Safety and Health Administration..........................41

           Labor Racketeering
           Internal Union Investigations......................................................46
           Benefit Plan Investigations.........................................................49
           Labor-Management Investigations..............................................54

           Departmental Management......................................................59
           Legislative Recommendations................................................65
           Appendices................................................................................71




                                                                Semiannual Report to Congress, Volume 62
                                                                  Selected Statistics
                                   Investigative recoveries, cost-efficiencies, restitutions,
                                   fines and penalties, forfeitures, and civil monetary action .................$123.1 million

                                   Investigative cases opened ................................................................................174

                                   Investigative cases closed ..................................................................................235

                                   Investigative cases referred for prosecution .......................................................131

                                   Investigative cases referred for administrative/civil action....................................65

                                   Indictments .........................................................................................................214

                                   Convictions .........................................................................................................221

                                   Debarments ..........................................................................................................18
SELECTED STATISTICS




                                   Audit and other reports issued..............................................................................22

                                   Outstanding questioned costs resolved during this period ...................$19.2 million
                                      Allowed1 ... ......................................................................................$10.2 million
                                      Disallowed2 .......................................................................................$9.0 million




                                    1   Allowed means a questioned cost that DOL has not sustained.
                                    2   Disallowed means a questioned cost that DOL has sustained or has agreed should not be charged to the
                                        government.




                      1
                          Semiannual Report to Congress, Volume 62
                               Significant
                                 g         Concerns
    The OIG works with the Department and Congress to provide information that will be useful in
  their management or oversight of the Department. The OIG has identified areas that we consider
  vulnerable to mismanagement, error, fraud, waste, or abuse. These issues form the basis for
  our annual Top Management Challenges report required under the Reports Consolidation Act
  of 2000. This recently issued report is found in its entirety on pages 73-84 of this report. The
  following is a synopsis of our specific concerns in each area.


                      Implementing the American Recovery
                         and Reinvestment Act of 2009
  T     he Recovery Act provided the Department with approximately $45 billion and mandated that these
        funds be spent expeditiously while ensuring transparency, accountability, and results. The funds will
be used to provide extensions of unemployment benefits and to fund a new temporary Federal Additional




                                                                                                                         SIGNIFICANT CONCERNS
Compensation (FAC) program. Funds were also allocated for Workforce Investment Act (WIA) programs,
most of which will be expended through non-Federal entities, rather than directly by the Department.
   The Recovery Act also created new or increased requirements impacting many of DOL’s ongoing
programs. Moreover, it requires Federal agencies, such as DOL, to implement an unprecedented level
of transparency and accountability to ensure that the public can see where and how its tax dollars are
being spent.
   DOL has taken a number of actions to implement its responsibilities under the Recovery Act. For
example, the Department reassigned staff to address the Recovery Act workload and launched a hiring
initiative to meet its expanded program responsibilities. In addition, individual agencies have taken steps
to address their specific increased responsibilities under the Recovery Act.
   However, the Department faces several challenges in implementing the Recovery Act. The risk for waste,
fraud, and abuse grows when large sums of money are being disbursed quickly, eligibility requirements
are being established or changed, or new programs are being created. Our past audits involving the
DOL’s WIA programs have demonstrated serious problems with respect to grant accountability and our
investigations have documented the proliferation of fraud schemes under similar circumstances. Also a
challenge to the Department will be meeting the performance reporting requirements of the Recovery Act.
Consistent with its oversight role, the OIG completed several audits in fiscal year (FY) 2009 assessing the
Department’s progress under the Recovery Act. These audits are discussed in the body of this report.




                                                                                                                         2
                                                                              Semiannual Report to C
                                                                                                   Congress, Volume 62
                              Protecting the Safety and Health of Workers
                                 T   he two DOL agencies primarily responsible for
                                     worker safety and health are the Occupational
                              Safety and Health Administration (OSHA) and the
                                                                                       employers who are indifferent to the safety of their
                                                                                       employees and which are most likely to have unabated
                                                                                       hazards and/or company-wide safety and health
                              Mine Safety and Health Administration (MSHA).            issues at multiple worksites. OSHA has established
                              Given the scope of their responsibilities, OSHA          an EEP Revision Task Force to design a new program
                              and MSHA are continually challenged to effectively       that will be able to identify and inspect recalcitrant
                              utilize their operating resources to meet mission        employers more effectively.
                              needs in all areas of responsibility.                       With regard to MSHA, the OIG’s reviews over the
                                 With more than 7 million workplaces nationwide        past several years revealed a pattern of weak oversight,
                              and with 5,071 fatal workplace injuries reported         inadequate policies, and a lack of accountability on
                              by the Bureau of Labor Statistics in 2008, OSHA’s        the part of MSHA, which were exacerbated by years
                              challenge is to target its limited resources to          of resource shortages. Historically, MSHA was
                              workplaces where they can have the greatest              not meeting its statutory responsibility to conduct
                              impact. To that end, in 2003, OSHA developed             inspections at the nation’s coal mines. Insufficient
                              the Enhanced Enforcement Program (EEP). The              resources during a period of increasing mining activity
                              EEP was designed to identify employers indifferent       made it difficult for the Department to ensure that it
                              to their obligations under the Occupational Safety       had enough resources in the right places to protect the
                              and Health Act in order to target their worksites with   safety of miners. As of April 30, 2009, MSHA reported
                              increased enforcement attention.                         that it had increased its enforcement personnel by
                                 Our recent audit of OSHA’s EEP found that             30 percent over 2006 levels. Additional hiring of
SIGNIFICANT CONCERNS




                              OSHA did not always properly identify employers          trainees, due to attrition of enforcement personnel, is
                              for enhanced enforcement. When it did, OSHA              an ongoing activity. In 2008, for the first time in its
                              did not always take proper action nor place the          history, MSHA reported that it completed 100 percent
                              appropriate management emphasis on compliance,           of all mandatory mine inspections. However, the
                              commit the necessary resources, and provide              OIG remains concerned that MSHA has improved its
                              clear policy guidance. The OIG made numerous             efforts in inspecting mines at the cost of not fulfilling
                              recommendations to OSHA with respect to forming          other statutory responsibilities, such as mine plan
                              a task force to improve program efficiency and           reviews.
                              effectiveness.     The Task Force would target




                       3
                           Semiannual Report to Congress, Volume 62
Improving Performance Accountability of Grants
  I  n FY 2008, the Department’s Employment and Training Administration (ETA) reported program costs
     totaling $3.2 billion for the WIA Adult, Dislocated Worker, and Youth programs. DOL is challenged in
ensuring that discretionary grants are properly awarded and that the Department receives the quality of
services that the taxpayers deserve. Successfully meeting the employment and training needs of citizens
requires selecting the best service providers, making expectations clear to grantees, ensuring that success
can be measured, providing active oversight, evaluating outcomes, and disseminating and replicating
proven strategies and programs. Past OIG and Government Accountability Office (GAO) audits have found
weaknesses in how ETA manages its grants to this end.
   Our audits also found that ETA is challenged in providing adequate oversight and monitoring of the grants
it awards, and the agency lacks reliable and timely performance data that would allow identification of
problems in time to correct them.
   The large increase in funding provided by the Recovery Act challenges the Department even more
in ensuring that grant funds are appropriately spent on activities that will yield the desired training and
employment outcomes.
   As a result of the audits by the OIG and GAO, ETA has indicated that it will increase the emphasis placed
on awarding discretionary grants competitively, develop procedures designed to better document decisions
and discussions that lead to grant actions, implement new procedures to ensure the proper justification of
any future noncompetitive awards, and provide training to agency grant officers on these new procedures.
ETA has also stated that future agreements for pilots and demonstration grants will require grantees to
obtain an independent evaluation of grant results. While these actions, if effectively implemented, should




                                                                                                                           SIGNIFICANT CONCERNS
help to improve performance accountability, ETA needs to focus its future efforts on determining how best
to prioritize its available resources to adequately monitor grant performance and how to evaluate grants to
ensure that desired results are achieved. In conjunction with our planned Recovery Act audit work, we will
review the Department’s stated progress in this challenge area.

         “. . . the Recovery Act challenges the Department even more in
        ensuring . . . the desired training and employment outcomes.”

Ensuring the Effectiveness of the Job Corps Program
  E     ducation, training, and support services are
        provided to approximately 60,000 students
at 122 Job Corps centers located throughout the
                                                             OIG audits have also found that weak controls
                                                          at centers have resulted in the overstatement and
                                                          misrepresentation of performance data. The OIG
United States and Puerto Rico. Job Corps centers          has found problems with the reporting of student
are operated for DOL by private companies through         outcomes, on-board strength, and attendance. This
competitive contracting processes, and by other           is a particular challenge for Job Corps when centers
Federal agencies through interagency agreements.          are operated by contractors through performance-
The program was appropriated nearly $1.7 billion in       based contracts, which tie cost reimbursement,
FY 2009.                                                  incentive fees, and bonuses directly to contractor
   The OIG’s work has consistently identified             performance largely measured by on-board strength,
challenges to the effectiveness of the Job Corps          attendance, and outcomes.
program. OIG audits have identified unsafe or                Job Corps continues to take actions such as
unhealthy conditions and a lack of required safety        strengthening policies and procedures, conducting
inspections at some centers. Unsafe conditions            periodic center assessments, and following up
affect the learning environment and could adversely       on issues identified in center assessments and
impact the overall success of the Job Corps program.      contractor assessments.         However, our audits
Further, Job Corps officials need to do more to address   continue to identify problems. Job Corps’s actions
the problems of centers not taking appropriate action     may not achieve the desired outcomes unless
for student misconduct, including illegal drug use and    proactive, consistent, and rigorous oversight of
violence. The lack of appropriate disciplinary action,    contractors and personnel is provided at all centers.
including termination of enrollment, may place the
remaining students at risk.
                                                                                                                           4
                                                                                Semiannual Report to Congress, Volume 62
                             Safeguarding Unemployment Insurance
                                 T   he Department partners with the states to
                                     administer unemployment benefit programs.
                              State Unemployment Insurance (UI) provides
                                                                                         The Department has taken some measures to
                                                                                      reduce and prevent overpayments. For example,
                                                                                      the Department stated that it is continuing to promote
                              benefits to workers who are unemployed and meet         the use of the National Directory of New Hires
                              the eligibility requirements established by their       (NDNH) by all states. DOL has issued guidance to
                              respective states. UI benefits are largely financed     the states to address the legislative requirements
                              through employer taxes imposed by the states and        of the Unemployment Compensation Integrity Act of
                              deposited in the Unemployment Trust Fund (UTF),         2008, which authorizes recovery of some UI fraud
                              from which the states pay the benefits.                 overpayments by offsetting Federal income tax
                                 Reducing and preventing overpayments by              refunds. Additionally, the Department frequently
                              improving controls over eligibility, timely detecting   interacts with and refers to the OIG potential criminal
                              and recovering overpayments, and combating fraud        matters to counteract fraud in the program. Despite
                              against these programs remain major challenges for      the Department’s efforts, the UI overpayment rate
                              the Department. In FY 2008, the Department reported     over the seven-year period from calendar year 2002
                              a total overpayment rate of 9.92 percent, which         to 2008 averaged 9.6 percent, an increase over
                              equates to more than $3.8 billion in UI overpayments    the previous 12-year period, which averaged 8.3
                              — an increase from the $3 billion reported in FY        percent.
                              2007. ETA estimates that about $1 billion of the           ETA plans to begin working with a selected group
                              $3.8 billion total overpayments resulted from willful   of SWAs each year to verify the existence and
                              misrepresentation by the claimant. Another challenge    reliability of their IT contingency plans, using the
SIGNIFICANT CONCERNS




                              involves ensuring that State Workforce Agencies         risk-based approach that was recommended by the
                              (SWAs) have adequate information technology (IT)        OIG.
                              contingency plans that provide for the continuation
                              of services in the aftermath of disasters.




                                    “Reducing and preventing overpayments by improving controls
                                  over eligibility, timely detecting and recovering overpayments, and
                               combating fraud against these programs remain major challenges for the
                                                               Department.”
                       5
                           Semiannual Report to Congress, Volume 62
Improving the Management of Workers’ Compensation Programs

  T    he Department has responsibility for managing the Energy Employees Occupational Illness
       Compensation Program Act (Energy workers’ program) and the Federal Employees’ Compensation
Act (FECA) program, both of which were designed to address the needs of employees who are injured on
the job.
   The Energy workers’ program was created to provide compensation to civilian employees who incurred an
occupational illness, such as cancer, as a result of their exposure to radiation while employed in the nuclear
weapons production and testing programs of the Department of Energy and its predecessor agencies. The
challenge for the Energy workers’ program centers on the number of claims that are denied for compensation
and on the timeliness of its claim decisions.
   In an audit we found that decisions involving the Energy workers’ program issued by the Department
complied with applicable laws and regulations and were based on the evidence provided by or obtained on
behalf of claimants. The OIG also found that the Energy workers’ program has made progress in reducing
the time it takes to adjudicate claims. However, we found that the claims process remained lengthy and
it could take up to two years or more to process and adjudicate a claim. In response to our audit, the
Department has recently implemented new procedures to reduce the time it takes to develop impairment
claims and is revamping its procedural guidance. Additionally, the Department is measuring its timeliness
performance from the point of application to final decision and payment.
   The challenge for the FECA program is the determination of continuing eligibility. All Federal agencies
rely upon the Office of Workers’ Compensation Programs (OWCP) to adjudicate the eligibility of claims,




                                                                                                                            SIGNIFICANT CONCERNS
to manage the medical treatment of those claims, to make compensation payments, and to pay medical
expenses. Ensuring proper payments while being responsive and timely to eligible claimants is a challenge
for OWCP. Among these challenges are moving claimants off the periodic rolls after they are able to return
to work or their eligibility ceases, preventing ineligible recipients from receiving benefits, and preventing
fraud by service providers. The OIG recognizes that it is difficult to identify and address improper payments
and/or fraud in the FECA program. This is further complicated by the fact that OWCP does not have the
legal authority to match FECA compensation recipients against Social Security wage records.
   In order to improve the administration of the program, the Department completed the roll-out of its new
FECA benefit payment system that is designed to track due dates of medical evaluations, revalidate eligibility
for continued benefits, use data mining to prevent improper payments, boost efficiency, and improve
customer satisfaction. The Department needs to continue its efforts to seek legislative reforms to the FECA
program to enhance incentives for employees who have recovered to: return to work; address retirement
equity issues; discourage unsubstantiated or otherwise unnecessary claims; and make other benefit and
administrative improvements.


Improving Procurement Integrity

  T     he Department contracts for many goods and
        services to assist in carrying out its mission.
In FY 2008, the Department’s acquisition authority
                                                           organization has not been in compliance with
                                                           this requirement, as the Assistant Secretary for
                                                           Administration and Management serves as the
exceeded $1.8 billion and included more than 9,300         CAO while retaining other significant nonacquisition
acquisition actions. Ensuring integrity in procurement     responsibilities. The OIG is concerned that until
activities is a continuing challenge for the Department.   procurement and programmatic responsibilities are
The OIG’s past audit work has identified violations        properly separated and effective controls are put
of Federal procurement regulations, preferential           in place, the Department will continue to be at risk
treatment in awards, procurement actions that were         for wasteful and abusive procurement practices.
not in the government’s best interest, and conflicts of    The new DOL leadership is considering its options
interest in awards.                                        regarding compliance with the requirements of
   The Services Acquisition Reform Act (SARA)              SARA.
of 2003 requires that executive agencies appoint
a Chief Acquisition Officer (CAO) whose primary
duty is acquisition management. The Department’s

                                                                                                                            6
                                                                                 Semiannual Report to Congress, Volume 62
                              Maintaining the Integrity of Foreign Labor Certification Programs

                                 T    he Department’s foreign labor certification (FLC) programs provide U.S. employers access to foreign
                                      labor to meet worker shortages under terms and conditions that do not adversely affect U.S. workers.
                              Maintaining the integrity of its FLC programs, while also ensuring a timely and effective review of applications
                              to hire foreign workers, is a continuing challenge for the Department.
                                 OIG investigations continue to uncover schemes carried out by immigration attorneys, labor brokers,
                              employers, and transnational organized crime groups, some with possible national security implications.
                              These schemes often involve fraudulent applications filed with DOL on behalf of fictitious companies, or
                              fraudulent applications filed using the names of legitimate companies without their knowledge, or complex
                              schemes involving fraudulent DOL FLC documents filed in conjunction with, or in support of, similarly falsified
                              identification documents required by other Federal and state organizations.
                                 From an audit standpoint, the OIG has looked at and found problems with the administration of the FLC
                              program. For example, a recent OIG audit of the iCert H1-B labor condition applications (LCAs) processing
                              system found that system improvements are needed to better identify incomplete and/or obviously inaccurate
                              LCAs. A prior OIG audit of the Permanent Electronic Review Management (PERM) system found that ETA
                              had discontinued certain types of audits of applications for permanent foreign labor certification. We also
                              found that ETA had not conducted audits of all the applications selected for audit. As a result, ETA may
                              have certified fraudulent applications or applications that did not meet required criteria. In response to our
                              audit, the Department began a review to determine the feasibility of reinstituting the audits it had previously
                              discontinued and is conducting audits as resources permit.
SIGNIFICANT CONCERNS




                              Securing Information Technology Systems and Protecting
                              Related Information Assets

                                 D    OL systems contain vital sensitive information
                                      that is central to the Department’s mission
                              and to the effective administration of its programs.
                              DOL systems are used to determine and house the
                              nation’s leading economic indicators, such as the
                              unemployment rate and the Consumer Price Index.
                              They also maintain critical data related to worker
                              safety and health, pension and welfare benefits,
                              job training services, and other worker benefits.
                                 Management of IT systems is a continuing
                              challenge for DOL, as it is for all Federal agencies.
                              Ensuring security, keeping up with new threats
                              and IT developments, providing assurances that
                              IT systems will function reliably, and safeguarding
                              information assets will continue to challenge the
                              Department today and in the future. While the
                              Department continues to take steps to improve
                              the security of its systems, the OIG continues to
                              recommend the creation of an independent Chief
                              Information Officer (CIO) to provide exclusive
                              management oversight of all issues affecting the IT
                              capabilities of the Department.




                       7
                           Semiannual Report to Congress, Volume 62
Ensuring the Security of Employee Benefit Plan Assets

  T     he Department is charged with overseeing
        the administration and enforcement of the
fiduciary, reporting, and disclosure provisions of
                                                             DOL is also challenged by EBSA’s inability to
                                                          assess the effectiveness of its enforcement program.
                                                          A recent audit found that EBSA could not determine
Title I of the Employee Retirement Income Security        whether its civil enforcement projects, such as the
Act (ERISA). As such, DOL is responsible for              Multiple Employer Welfare Arrangements project,
protecting the security of retirement, health, and        were increasing compliance with ERISA, or whether
other private-sector employer-provided benefits           the projects were decreasing the risk that workers
for America’s workers, retirees, and their families.      will lose benefits. We also found that EBSA could not
Benefit plans consist of approximately $5.6 trillion in   clearly demonstrate that it was directing its resources
assets covering more than 150 million workers and         to the enforcement areas with the most impact on its
retirees.                                                 mission to deter and correct ERISA violations.
   Protecting these benefit plan assets against fraud,       Moreover, an audit of EBSA’s Rapid ERISA Action
misconduct, and negligence is a challenge for the         Team (REACT) project has similar findings. Through
Department. OIG labor racketeering investigations         the REACT project, EBSA aims to respond in an
demonstrate the continued vulnerability of plan           expedited manner to protect the rights and benefits
assets to criminal activity. The Department is further    of plan participants when the plan sponsor faces
challenged by its restricted legislative authority to     severe financial hardship or bankruptcy and the
oversee plan audits, and by ERISA’s limited-scope         assets of the employee benefit plan are in jeopardy.
audit exemption. While the Department has sought          The audit concluded that EBSA does not have a
legislative changes, such as expanding the authority      comprehensive method for measuring the desired




                                                                                                                            SIGNIFICANT CONCERNS
of Employment Benefits Security Administration            activities and outcomes of the REACT project, and
(EBSA) to address substandard benefit plan audits         does not perform a national assessment to judge
and ensuring that auditors with poor records do not       the value of the REACT project in meeting its overall
perform additional plan audits, these changes have        enforcement mission.
not been enacted.

    “Benefit plans consist of approximately $5.6 trillion in assets covering
                more than 150 million workers and retirees.”




                                                                                                                            8
                                                                                 Semiannual Report to Congress, Volume 62
American Recovery and
  Reinvestment Act
                                                       American Recovery and Reinvestment Act
                                                  The American Recovery and Reinvestment Act of 2009 (Recovery Act) provided $45 billion to
                                               DOL in four areas: unemployment benefits; employment and training; Job Corps construction and
                                               rehabilitation; and departmental oversight.
                                                  The OIG has developed an oversight plan as follows:
                                                 • Phase One - Addresses how DOL is planning to administer and provide oversight of Recovery
                                                      Act funds and how grantees are planning to utilize funds. This includes assessing how
                                                      DOL will account for Recovery Act funds, provide guidance to states and grantees, establish
                                                      performance measures for Recovery Act activities, and develop required reporting.
AMERICAN RECOVERY AND REINVESTMENT ACT




                                                  • Phase Two - Focuses on how DOL awards funds to grantees and contractors.
                                                  • Phase Three - Reviews how grantees and contractors performed and what was accomplished
                                                      with Recovery Act funding.



                                            Procedures for Accounting and Reporting Financial Activity
                                            Under the Recovery Act

                                               T    he Recovery Act requires Federal agencies
                                                    to implement an unprecedented level of
                                            transparency to ensure that U.S. citizens can see
                                                                                                      due on October 10, 2009, for the quarter ending
                                                                                                      September 30, 2009.
                                                                                                         Our audit found that, generally, the Department
                                            where and how their tax dollars are being spent. We       had implemented procedures to account for
                                            conducted an audit to determine if DOL implemented,       Recovery Act financial activity as required by Federal
                                            or had plans to implement, procedures to account          law and OMB guidance and had reported on the
                                            for and report on Recovery Act financial activity as      use of Recovery Act funds in accordance with OMB
                                            required by applicable Federal law and Office of          guidance. DOL developed new accounting codes to
                                            Management and Budget (OMB) guidance.                     separately account for Recovery Act funds within its
                                                OMB established new reporting requirements for        existing general ledger system. The Department had
                                            Federal agencies and other recipients of Recovery         also modified the existing timekeeping system to
                                            Act funds, including that Federal agencies provide        capture staff time spent on Recovery Act functions.
                                            weekly financial data to the Recovery.gov Web site        This modification was originally scheduled to be
                                            on funds made available and expended. Agencies            completed by June 30, 2009, but completion was
                                            were required to submit these reports beginning           delayed until August 10, 2009. In the interim, the
                                            March 3, 2009, and reporting on expenditures on           Department issued guidance requiring its program
                                            April 6, 2009. As required by Section 1512 of the         agencies to manually track and report Recovery Act
                                            Recovery Act, each calendar quarter, recipients           time charges.
                                            of Recovery Act funds must submit a report to                The Department implemented procedures
                                            FederalReporting.gov, a government centralized            to prepare reports required by OMB, meeting
                                            web portal, containing: (1) the total amount of           all reporting deadlines. However, in one of the
                                            recovery funds received from the Department; (2)          weekly reports DOL had to restate its outlays by
                                            the amount that was expended or obligated; (3) a          $8.9 billion, which underscores the importance of
                                            list of all projects or activities funded with recovery   accurate Recovery Act funds reporting. At the time
                                            dollars, including completion status and their impact     of our audit, the Department had not yet provided
                                            on job creation and retention; and (4) detailed           policy guidance or instituted procedures to ensure
                                            information on any subcontracts or subgrants              that recipients accurately report the receipt and
                                            awarded. The first such report from recipients is         usage of Recovery Act funds. At the time of our


                                 11
                                         Semiannual Report to Congress, Volume 62
audit, the first report to OMB was not yet due;
however, timely establishment of procedures and
issuance of needed guidance is critical as part of
the Department’s ongoing efforts to fully implement
the Recovery Act.
   We communicated to the Department the
importance of accurate financial reporting on
Recovery Act funds and emphasized the importance
of establishing and issuing procedures for recipient
reporting on a timely basis. The Department agreed
with our assessment, and the Office of the Chief
Financial Officer has already implemented additional
financial controls. In addition, the Department
issued guidance on recipient reporting. (Report No.
18-09-001-13-001, August 28, 2009)




                                                                                                                          AMERICAN RECOVERY AND REINVESTMENT ACT
Performance Reporting Creates Challenges for the Department

  W      e conducted an audit to determine whether the Department implemented, or had plans to implement,
         OMB performance reporting requirements under the Recovery Act. OMB Memorandum M-09-15,
“Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009”, dated April
3, 2009, included five requirements pertaining to performance that the Department was to report on: major
communications; weekly financial and activity reports; agency-wide Recovery Act plans; program-specific
Recovery Act plans; and recipient reporting.
   Our audit found that the Department had taken effective actions in three of the five required performance
reporting areas, but needs to complete the remaining two requirements to increase the transparency and
accountability of its Recovery Act programs in the areas of program-specific Recovery Act plans and recipient
reporting.
   OMB requires Federal agencies to develop program-specific Recovery Act plans that include measures
for each program receiving Recovery Act funds. In its plan, which was approved by OMB, ETA stated that
the purpose of the program was to assist individuals by “increasing work readiness, educational attainment,
occupational skills, and connecting them to jobs in demand.” We found that the Department did not plan to
report or measure the use of Recovery Act funds to train or place participants in high-demand occupations.
Specifically, ETA limited WIA reporting under the Recovery Act to the existing common performance
measures: entered employment rate; employment retention rate; and average earnings. Without linking
training and employment to high-growth sectors, the Department cannot provide assurance that it is
achieving the purposes of the Recovery Act by reporting if participants were trained for and placed in high-
growth sectors.
   Finally, the Department could not demonstrate that the performance measures included in its program-
specific Recovery Act plans were developed with full consideration of program-specific risks. OMB required
that these plans include performance measures consistent with agency risk management plans. However,
four of seven component agencies submitted their performance measures prior to completing their risk
management plans.
   We made four recommendations to the Senior Accountable Official for the Recovery Act to improve
performance reporting. He agreed with the recommendations and has taken actions to address them.
Although the Department stated that it would report on the type of occupational training provided with
Recovery Act funds, the Department’s planned actions did not clearly articulate how it will report what
industry-specific training and related job placements WIA Adult and Dislocated Worker program participants
received. (Report No.18-09-002-01-001, September 29, 2009)
  “. . . the Department cannot provide assurance that it is achieving the
purposes of the Recovery Act by reporting if participants were trained for
                   and placed in high-growth sectors.”
                                                                                                                         12
                                                                              Semiannual Report to Congress, Volume 62
                                            EBSA Acted Quickly to Implement COBRA
                                            Premium-Assistance Provisions
                                               T   he      Consolidated      Omnibus
                                                   Reconciliation Act (COBRA), which was
                                                                                           Budget

                                            passed in 1986, gave workers who lost their jobs
                                                                                                       individuals to understand whether their appeals had
                                                                                                       been approved or denied.
                                                                                                          We recommended that EBSA increase outreach
                                            and health benefits the right to retain their group        efforts by improving coordination with ETA to ensure
                                            health coverage for up to 18 months by paying group        that Recovery Act COBRA premium-assistance
                                            rates. The Recovery Act helped eligible unemployed         materials are displayed and distributed at all One-
                                            workers by providing assistance in paying COBRA            Stop centers, use feedback from enforcement
                                            premiums. It provided that eligible individuals pay        investigations to help assess outreach efforts, develop
                                            35 percent of their premiums, with the remaining 65        a resource contingency plan, improve controls to
                                            percent covered by a tax credit to the provider. The       ensure that accurate dates are used on applicant
                                            assistance lasts for up to 9 months for those eligible.    determination letters, and redesign the letters sent to
                                            EBSA is responsible for providing outreach and             appellants. EBSA has planned or initiated action on
AMERICAN RECOVERY AND REINVESTMENT ACT




                                            education about premium assistance and reviewing           four of the five recommendations, but did not agree
                                            appeals of COBRA-covered private plans. The                with the recommendation to develop more detailed
                                            OIG conducted a performance audit to determine             resource contingency plans. (Report No. 18-09-003-
                                            whether EBSA provided outreach related to premium          12-001, September 30, 2009)
                                            assistance and established a system to timely review
                                            appeals of premium-assistance denials.
                                               The OIG found that EBSA quickly started numerous
                                            outreach activities related to the COBRA provisions
                                            under the Recovery Act and had established a
                                            system to timely review appeals. Specifically, EBSA
                                            responded to more than 110,000 telephone inquiries
                                            related to COBRA premium assistance in the first five
                                            months after Recovery Act passage; created model
                                            notices within 30 days of Recovery Act passage
                                            to help plan administrators provide notice about
                                            the premium assistance to individuals who have a
                                            COBRA-qualifying event; expanded the EBSA Web
                                            site within three days of Recovery Act passage to
                                            include COBRA premium-assistance information;
                                            disseminated information related to premium
                                            assistance and filing of appeals using methods such
                                            as webcasts, state agency Web sites, and direct
                                            mailings to 42 organizations that may have had
                                            high numbers of individuals with COBRA-qualifying
                                            events; and expanded enforcement investigations to
                                            include Recovery Act requirements to notify eligible
                                            individuals of the premium-assistance availability.
                                               We noted that several aspects of these efforts
                                            could be improved. Specifically, three of four DOL-
                                            funded One-Stop centers we visited did not have
                                            COBRA premium-assistance information available.
                                            EBSA did not use enforcement results to evaluate
                                            outreach efforts, and had not developed written
                                            contingency plans to ensure that the 15-day deadline
                                            is met for deciding COBRA appeals. In addition,
                                            electronic copies of determination letters contained
                                            unreliable issuance dates. Finally, EBSA’s appeal
                                            decision was not stated at the beginning of the
                                            determination letters, which could make it difficult for

                                 13
                                         Semiannual Report to Congress, Volume 62
Ten States Successfully Implemented the Federal Additional
Compensation Program
  T    he Recovery Act authorized a new temporary
       Federal Additional Compensation (FAC)
program that added a taxable $25 supplement to the
                                                             Our audit found that, overall, the implementation of
                                                          the FAC program had gone well. As of June 30, 2009,
                                                          the 10 states had paid about $1.3 billion in benefits to
weekly benefit allowance paid to eligible unemployed      FAC recipients. We also found that the states faced
recipients. This additional weekly benefit was made       continuing challenges in implementing the FAC
available for the period February through December        program in the areas of overpayment identification,
2009. ETA, which oversees the UI program, estimated       recovery capabilities, and tax withholding.
that the FAC program will cost about $8.7 billion.        Overpayments by states during the period February
   We conducted an audit of the FAC program to            2009 through June 2009 ranged from $160,000 to
determine whether 10 randomly selected states: (1)        $2.5 million. These challenges were caused by the
implemented the FAC program as authorized; (2)            short time frame the states had to implement the
paid the $25 weekly supplement in accordance with         program and difficulties in reprogramming existing




                                                                                                                             AMERICAN RECOVERY AND REINVESTMENT ACT
allowable methods identified in the Recovery Act; (3)     systems to meet FAC program requirements.
had adequately designed systems for implementing             We recommended that ETA ensure that the
the FAC program in compliance with Federal                affected states complete the required reprogramming
requirements; and (4) separately accounted for and        for withholding taxes and identifying and recovering
accurately reported financial and program data. The       overpayments, and recover and report FAC
10 states selected for review were California, Florida,   overpayments. ETA concurred with the findings and
Indiana, Minnesota, New Mexico, New York, Ohio,           said it will immediately address the recommendations.
Oklahoma, Vermont, and Virginia.                          (Report No. 18-09-004-03-315, September 30,
                                                          2009)



     “These challenges were caused by the short time frame the states had
    to implement the program and difficulties in reprogramming existing
               systems to meet FAC program requirements.”


YouthBuild Grantees Had Not Been Informed of the
Expanded Population Eligible to Be Served

  D       uring the course of conducting a performance audit of Recovery Act YouthBuild grants, we found
          a condition that warranted immediate corrective actions by ETA. Grantees, specifically those that
were awarded grants from a solicitation issued before the Recovery Act became law, were not made aware
that the Recovery Act expanded the population that could be served with YouthBuild program funds. The
Recovery Act contains language specifying that the YouthBuild program may serve individuals who have
dropped out of high school and reenrolled in an alternative school, if that reenrollment is part of a sequential
service strategy. YouthBuild grants awarded with Recovery Act funds under the pre-Recovery Act solicitation
should have notifications included in the grants regarding Recovery Act requirements.
   It is important that the Department notify Recovery Act YouthBuild grantees to ensure that they are aware
of the expanded population Congress authorized to be served under the Act. Accordingly, we recommended
that ETA immediately notify all YouthBuild grantees that received Recovery Act funds of the expanded
population of individuals eligible to be served. In response to the report, the Grant Officer sent a letter to
all YouthBuild grantees notifying them of the expanded eligibility criteria. (Report No. 18-09-005-03-001,
September 29, 2009)



                                                                                                                            14
                                                                                 Semiannual Report to Congress, Volume 62
Employment and Training
      Programs
                                                   Foreign
                                                        g Labor Certification Programs
                                                                                 g
                                          The Employment and Training Administration’s (ETA’s) foreign labor certification programs allow U.S.
                                       employers to employ foreign labor to meet worker shortages by filing labor certification applications
                                       through ETA’s foreign labor certification process. The H-1B visa specialty workers program requires
                                       employers who intend to employ foreign specialty occupation workers on a temporary basis to file labor
                                       condition applications (LCAs) with ETA stating that appropriate wage rates will be paid and workplace
                                       guidelines will be followed. The H-2B program established a means for U.S. nonagricultural employers
                                       to bring foreign workers into the United States for temporary employment. The Permanent Foreign
                                       Labor Certification program allows an employer to hire a foreign worker to work permanently in the
                                       United States.
EMPLOYMENT AND TRAINING PROGRAMS




                                            OIG audits and investigations continue to identify program weaknesses and schemes by
                                         unscrupulous attorneys, labor brokers, employers, and others to abuse the programs.


                                      Improved Controls Needed over iCert Processing System to
                                      Better Identify Incomplete and/or Obviously Inaccurate H-1B
                                      Labor Condition Applications

                                         T   he H-1B specialty (professional) worker
                                             program allows employers, or their
                                      representatives, to file an LCA, ETA Form 9035E,
                                                                                               strengthened. The eChecks controls in place failed
                                                                                               to identify 29 LCAs that were either incomplete and/
                                                                                               or contained obviously inaccurate information.
                                      with the Department if they intend to employ alien          According to OFLC, some missing eChecks were
                                      workers for a temporary period in professional or        not identified in the system’s original design. Other
                                      specialty occupations. ETA’s Office of Foreign           eChecks were not included because OFLC had
                                      Labor Certification (OFLC), by delegation through        not made a decision on the legal basis for denying
                                      the Immigration and Nationality Act, is responsible      the LCA. In addition to the missing eChecks, we
                                      for reviewing LCAs for completeness and                  also identified one eCheck that was not working as
                                      obvious inaccuracies and must certify or deny the        designed. OFLC has no formal written procedure
                                      applications within seven days of their filing.          for implementing improvements to the eChecks
                                         OFLC implemented iCert, a new system to improve       within iCert as they are identified.
                                      processing of H-1B LCA on April 15, 2009. Once              Because eChecks does not assess certain
                                      the LCA is submitted by the employer, iCert runs a       fields in the LCAs, the iCert system also relies on
                                      series of eChecks against the data. If any field fails   analyst reviews to identify incomplete or obviously
                                      a check, the case and specific field will be flagged     inaccurate LCAs. However, OFLC’s reliance on
                                      for review and verification by an OFLC analyst. We       analyst reviews of LCAs to catch errors that could
                                      performed an audit of the iCert processing system to     be caught through better-designed eChecks still
                                      determine if processing controls over the new iCert      does not fully mitigate the risk that LCAs could be
                                      H-1B LCAs are sufficient to identify incomplete or       improperly certified. For example, analyst reviews
                                      obviously inaccurate applications. During FY 2008,       may be reduced or discontinued in the future due to
                                      OFLC received approximately 400,000 H-1B LCAs            higher processing volumes. OFLC analysts at one
                                      for processing.                                          processing center stated that, as of August 2009,
                                         Through our review of 179 randomly selected           they would continue to review 100 percent of flagged
                                      LCAs, we found that OFLC’s iCert automated               LCAs, but review only 80 percent of the non flagged
                                      electronic checks (eChecks) need to be                   LCAs. The poorly designed eChecks and lack of


                           17
                                   Semiannual Report to Congress, Volume 62
analyst review increase the potential for LCAs to       anticipated increase in processing volume. ETA
be improperly certified, and could lead to petitions    agreed with the recommendations and stated that
being filed with the U.S. Department of Homeland        it has planned or initiated the necessary corrective
Security for H-1B visas that are not justified.         actions. (Report No. 06-08-004-03-321, September
   We recommended that ETA identify and implement       30, 2009)
improvements to iCert as they are identified and
incorporate the missing eChecks identified in our
audit. We also recommended that ETA develop a
contingency plan of action to address handling the


  “The poorly designed eChecks and lack of analyst review increase the
potential for LCAs to be improperly certified, and could lead to petitions
 being filed with the U.S. Department of Homeland Security for H-1B
                       visas that are not justified.”




                                                                                                                           EMPLOYMENT AND TRAINING PROGRAMS
Immigration Attorney and Construction Company Executive
Sentenced in Connection with Visa Fraud Scheme

  M      ichael Mitry Hadeed Jr., an immigration attorney who was previously convicted on charges of
         conspiracy to commit immigration fraud and making false statements, was sentenced on May 29,
2009, to 2 years’ probation, 3 months’ electronic monitoring, and fined $2,000. Hadeed’s conviction resulted
in the loss of his law license. Amine Coudsi, a former executive at Pillar Construction Company (Pillar), also
pled guilty to conspiracy to commit immigration fraud and was sentenced to 1 year of probation and ordered
to forfeit $20,000 in criminal proceeds.
   Through his large-scale immigration fraud scheme, Hadeed used a local business to sponsor foreign
nationals and undocumented workers for no-show jobs or jobs for which they were not qualified. In support
of visa petitions filed with the government, he assisted in the creation and submission to the government of
fraudulent “experience letters” that made false claims regarding the beneficiaries education, training, and
work experience. In one instance, Hadeed charged over $20,000 to help an immigrant fraudulently obtain
an immigrant visa.
   Pillar executives Maher Chalabi and Raja Khoury conspired with immigration broker, Mamoun Najib to file
DOL forms (ETA-750) and arrange for no-show jobs for undocumented workers. Najib brokered the fraud by
charging and collecting an average of $14,000 from each worker. Workers were periodically issued payroll
checks to be used as proof to the government that they were legitimately employed. In exchange for not
being reported as illegally working in the United States, the workers returned the full amount of each payroll
check to Najib plus the 7.5% FICA and Medicare tax paid by Pillar. Approximately $4,000 of the $14,000
that each worker paid was divided among Chalabi, Khoury, and Coudsi.
   This was a joint investigation with Immigration and Customs Enforcement (ICE) and the Federal Bureau
of Investigation (FBI). United States v. Michael Mitry Hadeed, Jr.; United States v. Mamoun Najib; United
States v. Maher Chalabi; United States v. Raja Khoury; United States v. Amine Coudsi (E.D. Virginia)




                                                                                                                          18
                                                                               Semiannual Report to Congress, Volume 62
                                      Kingpin and Conspirators Sentenced in Large-Scale
                                      Visa Fraud Scheme

                                         V    iktar Krus was sentenced on July 17, 2009, to 87 months in prison for operating a criminal conspiracy
                                              responsible for committing visa, asylum, and marriage fraud; making fraudulent statements under
                                      oath; and filing fraudulent documents to obtain employment-based visas for hundreds of foreign workers.
                                      On April 2, 2009, Krus pled guilty to committing visa and tax fraud, as well as to money laundering. Among
                                      various other assets, Krus was ordered to forfeit $11,044,239 and to jointly and severally pay restitution in
                                      the amount of $7.5 million with co-conspirators Dzmitry Krasautsau, Jekaterina Cerednicenko, and Vahe
                                      Harutyunyan. Krasautsau, Cerednicenko, and Harutyunyan were also sentenced during this reporting
                                      period. Additionally, Beth Anne Broyles, a former immigration attorney responsible for filing the majority
                                      of the labor certification petitions on behalf of the Krus criminal organization, pled guilty on September 17,
                                      2009, to conspiracy to commit visa fraud, for her role in the scheme.
                                         Since 2001, the Krus organization was instrumental in fraudulently filing labor certification applications with
                                      the Department to obtain visas for more than 3,800 individuals, defrauding the government of $7.4 million in
                                      payroll taxes, charging visa recipients exorbitant fees for visa-related services, and housing visa recipients
EMPLOYMENT AND TRAINING PROGRAMS




                                      in dirty, overcrowded stash houses that Krus owned and for which he charged excessive rent. Some visa
                                      petitions were submitted with the intent of bringing in substantially more workers than contracted for or
                                      needed by clients. Once in the United States, most of the workers were leased out to undisclosed hotels
                                      or businesses not listed on the clients’ visa petitions in states that were not identified in the applications.
                                      The workers were transported and shielded from detection for commercial advantage and private financial
                                      gain.
                                         Between July and August 2009, Krasautsau, Cerednicenko, and Harutyunyan were all sentenced for
                                      committing and conspiring to commit money laundering and visa fraud. Consequently, in addition to the
                                      $7.5 million restitution judgment, Krasautsau, Cerednicenko and Harutyunyan were, respectively, sentenced
                                      to 73, 78, and 78 months’ incarceration in Federal prison. Krasautsau, Cerednicenko, and Harutyunyan, like
                                      Krus, all have forfeiture orders of more than $11 million. Krasautsau and Cerednicenko will be immediately
                                      removed from the United States upon the completion of their prison sentences. Upon his release from
                                      prison, Harutyunyan will serve a three-year probation term.
                                         The DOL-OIG investigated this case as part of a task force that included the ICE; the Internal Revenue
                                      Service Criminal Investigation Division (IRS-CID); the U.S. Department of State (State) Bureau of Diplomatic
                                      Security (DS); the U.S. Department of the Treasury Financial Crimes Enforcement Network; the U.S. Postal
                                      Inspection Service (USPIS); the FBI; the Naval Criminal Investigative Service (NCIS); and the Virginia Beach
                                      (Virginia) Police Department. United States v. Viktar Krus, et al. (E.D. Virginia)




                                           “Since 2001, the Krus organization was instrumental in fraudulently
                                          filing labor certification applications . . . to obtain visas for more than
                                                                    3,800 individuals . . .”




                           19
                                   Semiannual Report to Congress, Volume 62
Man Pleads Guilty in Labor Certification Fraud Scheme
  L    adep N. Gwamzhi pled guilty on May 20, 2009, to a charge of labor certification fraud for his role to
       defraud and obtain money by filing fraudulent employment-based visa applications on behalf of foreign
nationals. On September 2, 2009, a co-owner of Immanuel Chambers, LLC, a company specializing in
immigration-related services, was indicted for his alleged role in the scheme. Beginning in 2005, Gwamzhi
and others allegedly submitted in excess of 150 fraudulent labor certification petitions for permanent
employment. Additionally, a fraudulent certification petition was electronically filed with DOL on behalf of
an individual who posed as someone who wanted to establish a local furniture business. The defendant
and other Immanuel Chambers employees purportedly registered the fictitious furniture business for the
individual and then prepared and subsequently filed a fraudulent permanent labor certification petition with
DOL for the fictitious employer. This is a joint investigation with the State OIG and ICE. United States v.
Nandang Ladep Gwamzhi (D. Maryland)


   “The defendant and other Immanuel Chambers employees purportedly
   registered the fictitious furniture business . . . and subsequently filed




                                                                                                                             EMPLOYMENT AND TRAINING PROGRAMS
   a fraudulent permanent labor certification petition with DOL for the
                              fictitious employer.”

RICO Indictment Charges 12 Individuals in $6 Million
Scheme to Employ Temporary Work Visa Holders and
Undocumented Workers at Businesses in 14 States

  E     ight Uzbek nationals were among 12
        defendants indicted on May 27, 2009, on
Racketeer Influenced and Corrupt Organizations
                                                          did not intend to employ.              The defendants
                                                          incorporated multiple businesses in the states of
                                                          Missouri and Kansas to disguise their criminal
Act (RICO) charges for activities which occurred          activities, including processing payrolls for both
in 14 states. Among the criminal acts alleged in a        temporary and undocumented workers, and evading
pattern of racketeering activity are forced labor         employment tax liability such as FICA and UI on the
trafficking, identity theft, harboring and transporting   undocumented workers. Many of the undocumented
undocumented         workers,     money     laundering,   workers were allegedly victims of human trafficking
visa fraud, extortion, and fraud in foreign labor         and were coerced to work in violation of the terms of
contracting.                                              their visa without proper pay and under the threat of
   The RICO indictment alleges that the defendants        deportation. They were also forced to reside together
were involved in a criminal enterprise in which           in substandard apartments and pay exorbitant rental
hundreds of undocumented workers were employed            fees.
at hotels and other businesses across the country.           This is a joint investigation with ICE, IRS-CID, the
The defendants allegedly used false information to        FBI, U.S. Deparment of Homeland Security Citizen
acquire 1,200 H-2B work visas through DOL. The            and Immigration Services (DHS-CIS), the Kansas
defendants created Web sites designed to recruit          Department of Revenue, and the Independence
undocumented workers and to facilitate the sale           (Missouri) Police Department.
of H-2B visas to foreign nationals the defendants


    “Many of the undocumented workers were allegedly victims of human
 trafficking and were coerced to work in violation of the terms of their visa
          without proper pay and under the threat of deportation.”

                                                                                                                            20
                                                                                 Semiannual Report to Congress, Volume 62
                                      Defendant Pleads Guilty and Two Others Are Charged with
                                      Conspiracy to Fraudulently Obtain H-1B Visas and Violations
                                      of the Bank Secrecy Act
                                         M    ahesh K. Gangineni, a Kansas gas station owner, pled guilty on August 12, 2009, to conspiring
                                              to defraud the DOL’s H-1B and permanent work visa certification programs and to a charge of
                                      structuring financial transactions. Gangineni was indicted in July 2009 along with two co-defendants
                                      and two companies controlled by his co-defendants. Gangineni and one co-defendant allegedly created
                                      false paperwork to make it appear that Gangineni was contracted as a computer programmer for the co-
                                      defendant’s company. Promoting Gangineni’s fictitious employment, they submitted fraudulent paperwork
                                      to the government seeking H-1B visas and later a permanent work visa for Gangineni.
                                         In a separate count, Gangineni and the remaining co-defendant were charged with structuring financial
                                      transactions totaling about $2 million at four Kansas banks to evade the Bank Secrecy Act requiring reports
                                      on transactions of $10,000 or more.
                                         This is a joint investigation with IRS-CID. United States v. Mahesh Kumar Gangineni (D. Kansas)
EMPLOYMENT AND TRAINING PROGRAMS




                                      Temporary Labor Agency Owner Sentenced for Failing to Pay
                                      Over $400,000 in Employment Taxes
                                         V    itali Popkov, co-owner of Mirage Cleaning Service (Mirage), was sentenced on May 6, 2009, to
                                              21 months’ incarceration, and 3 years’ probation, and was ordered to pay restitution of $423,635.
                                      Popkov had previously pled guilty to marriage fraud, aiding and abetting marriage fraud, and tax evasion.
                                      From 2003 through 2007, Popkov operated Mirage (formerly U.S. Cleaning Service, Inc.), which was a
                                      temporary labor agency that contracted with businesses to provide employees for cleaning, assembly, and
                                      other unskilled labor at hotels and other businesses in the Cincinnati, Ohio, area. Mirage employed between
                                      100 and 200 employees, including many undocumented workers, at any given time. Popkov paid wages
                                      totaling over $2.7 million to employees of Mirage and failed to withhold Federal employment taxes on the
                                      wages paid to his employees, resulting in the evasion of $423,635 in Federal employment taxes. This was
                                      a joint investigation with IRS-CID and ICE. United States v. Vitali Popkov (S.D. Ohio)



                                      Brothers Found Guilty in Conspiracy to Fraudulently Obtain
                                      Employment Visas
                                         A    lberto and Bernardo Peña, twin brothers and
                                              principal officers of AMEB, a foreign contract
                                      labor firm, were found guilty April 3, 2009, of conspiring
                                                                                                   to DHS-CIS, DOL, and other government entities,
                                                                                                   falsely representing that the undocumented workers
                                                                                                   would be employed at VIS. The conspirators assisted
                                      with each other and others to obtain fraudulent H-2B         the undocumented workers in completing the H-2B
                                      visas for 87 Indian nationals in exchange for at least       visa petitions and in filing them with DOL. After their
                                      $20,000 per visa. They were employed by Charles              arrival in the United States, Viscardi transported
                                      Keith Viscardi, who was the owner and operator of            and temporarily housed the workers and they were
                                      Viscardi Industrial Services, LLC (VIS), to recruit          granted H-2B visas. He and his co-conspirators
                                      the H-2B applicants and process their government             accepted cash and other forms of payment from the
                                      documents for their fraudulent H-2B visas.                   undocumented workers. None of the undocumented
                                         The Peñas, Viscardi, and three other conspirators         workers was ever employed by VIS; instead they
                                      were indicted in March 2008. Viscardi pled guilty            simply dispersed throughout the country after paying
                                      in August 2008 for his involvement in the scheme,            for their fraudulently obtained visas. This was a joint
                                      which generated an estimated $1.8 million in profits         investigation with DSS and ICE. United States v.
                                      for the conspirators.                                        Alberto Peña, Bernardo Peña (S.D. Texas)
                                         The conspirators submitted petitions for
                                      nonimmigrant worker visas and other documentation
                         21
                                   Semiannual Report to Congress, Volume 62
                         Workforce Investment Act
    The goal of the Workforce Investment Act (WIA) is to consolidate, coordinate, and improve
  employment, training, literacy, and vocational rehabilitation programs in the United States, and for
  other purposes. The OIG has conducted numerous audits of the WIA program and its grantees
  since WIA’s enactment, including audits of state WIA expenditures, training and educational
  services provided to dislocated workers, and state-reported performance data. The Department
  has implemented many of our recommendations to improve WIA program administration and
  performance. OIG investigations have resulted in the prosecution of individuals who illegally
  obtained WIA funds, thereby denying eligible persons the benefit from employment services. Our
  investigations have also documented conflict-of-interest issues involving program administrators.




                                                                                                                             EMPLOYMENT AND TRAINING PROGRAMS
Workforce Investment Act Data Validation

  E      TA’s WIA data validation initiative is
         intended to ensure that State Workforce
Agencies (SWAs) report accurate and reliable WIA
                                                          the data can be relied upon for accurately reporting
                                                          performance results.
                                                             We noted that ETA was not providing timely
performance data. ETA uses this data as the basis         updates to the software used for data validation,
for the WIA performance measure results included          because it has not had sufficient funds to do so.
in the Department’s annual Performance and                The lack of timely updates hampered SWAs’ ability
Accountability Report.                                    to efficiently conduct data validations. We also
    We conducted an audit of ETA’s data validation        found that reported participant and exiter data
initiative for the WIA Adult and Dislocated Worker        were inconsistent from SWA to SWA, because
programs. WIA provides formula-based funding to           ETA instructions did not clarify which self-service
SWAs to design and operate both training programs,        participants and exiters should be counted. As a
with FY 2009 funding totaling $2.2 billion. Our           result, Congress, stakeholders, and the public do not
objective was to determine whether ETA exercised          have accurate information on participation levels,
adequate oversight of the SWAs’ data validation           which is needed to fully report on whether the One-
efforts.                                                  Stop systems are meeting the needs of business and
    Our audit found that ETA needs to strengthen          the workforce. Until clear instructions are issued, the
its oversight to ensure that SWAs are conducting          Adult and Dislocated Worker programs will continue
data validations correctly. Overall, our analysis of      to operate without any substantive assurance that
622 participant files from the SWAs’ data element         the total participant level counts are reliable.
validation reviews found that 263, or 42 percent,            We recommended that ETA finalize the Data
were not validated using the appropriate ETA criteria     Validation Monitoring Guide, require its regional
or source documentation. This occurred because:           offices to implement a monitoring plan of data
(1) SWAs did not fully understand ETA data element        validation at the SWAs, and provide regional offices
validation requirements or the instructions for           access to data validation results that they can use to
validating data elements in participant exit records;     assist in monitoring SWAs. We also recommended
(2) ETA regional offices did not have a plan or guide     that ETA sufficiently fund the data validation
to monitor the SWAs’ data validation process; and         software, and develop and disseminate instructions
(3) ETA regional offices did not have access to two       that clearly define how SWAs should report self-
reports on the SWAs’ data validation results that would   service participants. ETA generally agreed with
assist them in their monitoring efforts and enhance       the recommendations and has initiated corrective
their technical assistance to the SWAs. Without an        actions to address the recommendations (Report
effective monitoring process, ETA has no assurance        No. 03-09-003-03-390, September 30, 2009)
that data validation is operating as designed, so that

                                                                                                                            22
                                                                                 Semiannual Report to Congress, Volume 62
                                                                                 Job Corps
                                            Job Corps operates 122 centers throughout the United States and Puerto Rico to provide
                                         occupational skills, academic training, job placement services, and other support services, such as
                                         housing and transportation, to approximately 60,000 students each year. Its primary purpose is to
                                         assist eligible youth who need intensive education and training services.
                                            Our audit work continues to reveal that some operators of Job Corps centers overstate their
                                         performance results (i.e., vocational training completions and student attendance) in order to improve
                                         the centers’ operating performance, which can result in the operating contractor receiving greater
                                         performance-based financial incentives.


                                      Center Does Not Meet Job Corps Requirements for Reporting
EMPLOYMENT AND TRAINING PROGRAMS




                                      Performance for Student Attendance and Accountability

                                         W     e conducted an audit of the Montgomery Job Corps Center in Montgomery, Alabama, one of three
                                               centers operated by Dynamic Educational Systems, Incorporated (DESI), for the Office of Job
                                      Corps. Our objectives were to determine whether DESI ensured compliance with Job Corps requirements for
                                      reporting performanc, managing and reporting financial activity, and managing safety and health programs.
                                      We also examined two hotline complaints alleging improper practices by DESI management and staff. Our
                                      audit did not substantiate the hotline allegations.
                                         We found that DESI did not ensure compliance with Job Corps requirements for reporting performance for
                                      student attendance and accountability. Specifically, student leave days were not supported with the required
                                      leave forms or approvals, and the Montgomery Job Corps Center did not consistently attempt to contact
                                      students or their parents when students were missing from the Center. Further, the center understated the
                                      number of students participating in its off-site Work-Based Learning program and could not verify attendance
                                      at their work sites or determine if program benefits were properly received. We attributed these control
                                      weaknesses to inadequate center procedures, staff not following established center procedures, and lack of
                                      training and supervision.
                                         We also found that DESI did not ensure compliance with Job Corps requirements for managing and
                                      reporting financial activity. Specifically, Montgomery staff did not consistently verify that work hours reported
                                      on time sheets were reliable, or maintain adequate documentation for its use of government vehicles. We
                                      did not identify any noncompliance with Job Corps requirements for managing health and safety programs.
                                         We recommended that Job Corps direct DESI to develop and implement the controls needed to ensure
                                      its centers’ compliance with Job Corps requirements related to student attendance and accountability,
                                      time sheet preparation and approval, and government vehicle use. Job Corps concurred with the report’s
                                      recommendations and has initiated corrective actions. (Report No. 26-09-002-01-370, June 2, 2009)



                                             “We recommended that Job Corps direct DESI to develop and
                                       implement the controls needed to ensure its centers’ compliance with Job
                                      Corps requirements related to student attendance and accountability, time
                                            sheet preparation and approval, and government vehicle use.”


                       23
                                   Semiannual Report to Congress, Volume 62
Contractor Did Not Comply with Safety Requirements
Regarding Student Misconduct at Several Job Corps Centers
  W      e conducted an audit of 3 of the 10 Job Corps
         centers operated by Adams and Associates,
Inc. (Adams), under contract with the Office of
                                                          was handled appropriately and respond to negative
                                                          press regarding such incidents.
                                                             Adams also had control weaknesses in two areas
Job Corps. We selected the Atterbury Job Corps            related to Job Corps requirements for reporting
Center in Edinburgh, Indiana, and the Gadsden Job         performance — CTT completions and Student
Corps Center in Gadsden, Alabama, based on risk           Attendance/Accountability. For CTT completions,
assessments, and a third center, Shriver Job Corps        Adams did not ensure that students completed all
Center in Devens, Massachusetts, based on a               required training tasks; and for Student Attendance/
hotline complaint. Our objectives were to determine       Accountability, Adams did not consistently attempt to
whether Adams ensured the centers’ compliance             contact students or their parents when the students
with Job Corps requirements regarding center safety       were missing from the center, and student leave was
and financial and performance reporting. We also          not supported as required.
determined the merit of a hotline complaint alleging         Our review of financial activity showed no
improper management practices pertaining to               indication of noncompliance with related Job Corps




                                                                                                                             EMPLOYMENT AND TRAINING PROGRAMS
student misconduct, career technical training (CTT)       requirements. In addition, we did not substantiate two
completions, and Work-Based Learning (WBL) at             of the allegations made against Shriver that related
Shriver.                                                  to students being rushed through CTT programs to
   Our audit found that Adams did not ensure center       improve reported performance or being placed in
compliance with Job Corps requirements for safety in      WBL programs to extend enrollment when they were
the area of student misconduct. Specifically, Atterbury   already employed. However, we found that Shriver
and Shriver officials did not convene fact-finding        did not consistently comply with the requirements
boards and behavior review panels as required for         for CTT completions and did not comply with
students suspected of misconduct such as threats of       requirements for student accountability regarding its
violence and patterns of inappropriate behavior. As a     WBL students.
result, potentially dangerous students were allowed          We recommended that Job Corps direct Adams
to stay on at the center without consideration of         to develop and implement procedures and improve
appropriate disciplinary action. This placed other        oversight in the areas of convening fact-finding
students and staff at risk and was in violation of Job    boards / behavior review panels, reporting significant
Corps’s zero-tolerance policy.                            incidents to Job Corps, properly reporting CTT
   As a separate issue, Atterbury and Gadsden did         completions, contacting AWOL students or their
not report significant incidents, such as inappropriate   parents, and reporting student leave. Job Corps
sexual behavior, physical assault, and narcotics          concurred either fully or in part with each of our eight
possession, to Job Corps as required. At a minimum,       recommendations, and the corrective actions taken
the failure to report significant incidents hindered      or planned meet the intent of the recommendations.
Job Corps’s ability to monitor center safety in order     (Report No. 26-09-003-01-370, September 30,
to both ensure that significant student misconduct        2009)




                                                                                                                            24
                                                                                 Semiannual Report to Congress, Volume 62
Worker and Retiree
Benefit Programs
                                             Office of Workers’ Compensation
                                                                   p         Programs
                                                                                g

                                               The Employment Standards Administration’s (ESA’s) Office of Workers’ Compensation Programs
                                            (OWCP) administers the Federal Employees’ Compensation Act (FECA), Black Lung, Longshore
                                            and Harbor Workers, and Energy Employees Occupational Illness Compensation programs, each of
                                            which has separate financing schemes through Federal and/or industry funds.



                                               The Federal Employees’ Compensation Act (FECA) Program
                                               The FECA program provides workers’ compensation coverage to 2.7 million Federal and Postal
                                            employees for employment-related injuries and occupational diseases. In FY 2008, OWCP made
WORKER AND RETIREE BENEFIT PROGRAMS




                                            nearly $1.7 billion in wage loss compensation payments to claimants and processed approximately
                                            19,000 initial wage loss claims. At that FY’s end, 43,000 claimants were receiving regular monthly
                                            wage loss compensation payments.




                                           Improved Reemployment Status Monitoring Needed in
                                           OWCP Jacksonville and New York District Offices

                                            T    he OIG conducted an audit to determine the adequacy of the Jacksonville and New York district
                                                 offices’ oversight of injured Federal employees (claimants) who are on the periodic roll in the
                                         temporary “reemployment status not yet determined” category. We selected these two offices because our
                                         preliminary assessment indicated they may not be effectively moving claimants from the “reemployment
                                         status not yet determined” category on the periodic roll. Both offices were among those with the highest
                                         percentage of cases in this category.
                                            Our audit found that OWCP needs to improve its monitoring of claimants’ statuses. Neither of the
                                         two offices reviewed took consistent intervention actions, such as referring claimants for vocational
                                         rehabilitation, directed toward removing cases from the “reemployment status not yet determined”
                                         category. Furthermore, as of June 30, 2008, 20,236 (37 percent) of 54,674 claimants were receiving
                                         full benefits in the temporary “reemployment status not yet determined” category, of which 2,860 (14
                                         percent) had been so categorized for 15 years or longer. These are claimants whose reemployment status
                                         should have been determined so that they might possibly be able to return to full-time work or have their
                                         compensation reduced.
                                            We attribute the ineffective and untimely case management to insufficient district office supervisory
                                         oversight of claims processing and to supervisors not requiring claims examiners to use the OWCP
                                         integrated Federal Employees Compensation System Reminder feature. Effective and timely case
                                         management will better ensure that claimants receive only the benefits they are due.
                                            We recommended that ESA require the Jacksonville and New York district directors to identify periodic
                                         roll claimant cases that needed immediate case management and take the necessary actions to reduce
                                         compensation payments and/or remove ineligible claimants from the periodic roll. ESA stated that the
                                         agency plans to take actions to enhance claims examiners’ ability to manage cases in a timely manner.
                                         (Report No. 04-09-004-04-431, September 29, 2009)




                            27
                                      Semiannual Report to Congress, Volume 62
Former U.S. Senate Employee Pleads Guilty to Mail Fraud
for Illegal Receipt of $259,000 in FECA Benefits

   T   heodore Holmes, who worked as a printing and reprographics specialist at the U.S. Senate, pled guilty
       on August 7, 2009, to mail fraud and admitted he wrongfully received $259,645 in FECA benefits.
   In February 1999, Holmes filed a notice of an on-the-job knee injury, and from February 2000 to August
2009 received FECA benefits for total disability as a result of his work-related condition. OWCP repeatedly
informed Holmes that he was required to report any outside work activities or income, volunteer work, self-
employment, or involvement in a business enterprise. Holmes denied any such activities or income in entries
made on documents he submitted to DOL.
   However, Holmes owned, conducted the day-to-day operations of, and derived income from several
car- wash businesses from February 2000 to August 2009. He also devoted a substantial amount of time to
coaching a traveling flag football team. United States v. Theodore Holmes (D. District of Columbia)




                                                                                                                             WORKER AND RETIREE BENEFIT PROGRAMS
Virginia Beach Woman Pleads Guilty to Defrauding
FECA Program

  A    delaide L. Gilmore, a former office automation
       clerk at the Naval Air Station Oceana Housing
Office in Virginia Beach, Virginia, pled guilty on
                                                            work activities, income, or a change in her medical
                                                            condition.
                                                               Our investigation revealed that Gilmore worked as
September 8, 2009, to making false statements to            a self-employed, paid counselor at a Virginia Beach,
obtain FECA benefits.                                       Virginia, business since at least 2009. In January
   In 1992, Gilmore injured her foot while at work with     2008, the business’s Web site began listing Gilmore
the Navy. Later, in 1998, she injured her shoulder          as a member of the staff. The listing, which included
and filed an injury claim linking her shoulder to           Gilmore’s picture, reported that Gilmore worked
her 1992 foot injury. Gilmore was awarded FECA              with a resident psychologist to provide counseling,
benefits beginning around December 1999 and had             ministerial, and social work services. Monitored
been receiving approximately $2,125 in monthly              visits to the business confirmed her activities. This
compensation payments. Her payments stopped                 was a joint investigation with NCIS. United States v.
October 1, 2009, when she was officially removed            Adelaide L. Gilmore (E.D. Virginia)
from the periodic rolls as the result of her guilty plea.
Gilmore submitted fraudulent DOL documentation in
2007, 2008, and 2009 in which she did not report




                                                                                                                             28
                                                                                  Semiannual Report to Congress, Volume 62
                                          Anonymous Source Helps Convict FECA Defrauder

                                             P   atrick Wilson, a former Navy civilian employee, was sentenced on April 24, 2009, to 13 months’
                                                 imprisonment followed by 3 years’ supervised release for committing fraud against the FECA program.
                                          Wilson was ordered to pay $97,945 in restitution to OWCP, and $59,944 in restitution to the U.S. Department
                                          of Veterans Affairs (VA). The investigation began after a videotape from an anonymous source showed
                                          Wilson constructing a room addition on his Florida home. Further surveillance captured Wilson doing
                                          construction work on his home and dancing at a nightclub. Wilson’s OWCP file indicated he was totally
                                          disabled and wheelchair-bound. According to VA records, Wilson, who is a U.S. Marine Corps veteran, had
                                          100 percent loss of the use of both his feet and purportedly had no other outside income. This was a joint
                                          investigation with the VA-OIG. United States v. Patrick Wilson (M.D. Florida)



                                          Defense Logistics Agency Employee Pleads Guilty
                                          to Mail Fraud
WORKER AND RETIREE BENEFIT PROGRAMS




                                             B    ill Thompson, a former crane operator for the
                                                  Department of Defense, Defense Logistics
                                          Agency (DLA), was sentenced on May 18, 2009, to
                                                                                                      In a separate scheme, Thompson, while receiving
                                                                                                   FECA total disability benefits, purchased a disability
                                                                                                   insurance policy through Combined Insurance
                                          5 years’ probation and ordered to pay full restitution   Company of America (CICA). Thompson falsified
                                          in the amount of $198,856. Thompson pled guilty          his insurance application by stating that he was
                                          to mail fraud in February 2009 for his role in mailing   employed and working on a full-time basis at
                                          false DOL documentation to OWCP.                         RRAD, had no medical problems, and had received
                                             Thompson sustained a FECA-covered work                no medical treatment for the past five years. In
                                          injury in January 2000, while employed with DLA at       September 2004, Thompson filed a claim against the
                                          the Red River Army Depot (RRAD). In May 2002,            policy for an alleged injury in March 2004. Thompson
                                          Thompson had an OWCP-approved surgery, which,            stated that he had lost his job at RRAD and that he
                                          according to his physician, rendered him disabled        was employed at another company. An alleged
                                          from his DLA position and any other light duty work.     conspirator completed and signed the employer’s
                                          He immediately began receiving total disability wage     portion of several claim forms, stating that she was
                                          loss benefits from OWCP.                                 the owner of the company employing Thompson and
                                             In August 2002, Thompson began working for a          that he had been disabled from March to September
                                          business purportedly owned by an alleged                 2004. Based upon the scheme, CICA mailed five
                                          conspirator.     The investigation established that      separate checks to Thompson, resulting in a loss to
                                          Thompson worked regularly and performed numerous         CICA of $64,302.
                                          jobs for profit, including welding, sandblasting, and       This was a joint investigation with the DLA. United
                                          automotive and radiator repairs. Over the next           States v. Bill W. Thompson (E.D. Texas)
                                          four years, Thompson falsified DOL documentation
                                          wherein he failed to report his work activity and
                                          earnings to OWCP, which allowed him to continue
                                          to receive total disability wage loss benefits. Based
                                          upon this scheme, Thompson received OWCP
                                          wage loss benefits resulting in a loss to OWCP of
                                          $134,589.




                                  29
                                       Semiannual Report to Congress, Volume 62
    The Black Lung Benefits Act (BLBA) Program
     The BLBA provides monthly payments and medical benefits to coal miners totally disabled from
  pneumoconiosis (black lung disease) arising from employment in or around the nation’s coal mines.
  This Act also provides monthly benefits to a miner’s dependent survivors if black lung disease caused
  or hastened the miner’s death. OIG investigations focus on fraud involving individuals who illegally
  claim or obtain Black Lung benefits for themselves or due to the death of a family member. In
  addition, OIG investigations also address fraud perpetrated by medical or health care providers intent
  on defrauding the system.



Daughter and Grandson Sentenced for Stealing




                                                                                                                          WORKER AND RETIREE BENEFIT PROGRAMS
Black Lung Benefits
  C     onnie Martin was sentenced on July 2, 2009,
        for theft of Black Lung program benefits. Her
son, John Martin, was sentenced June 1, 2009,
                                                            After the death of Connie’s mother, Connie and
                                                         John Martin forged the deceased’s name on the
                                                         benefit checks and cashed them at various locations
for his role in the scheme. Both defendants were         in and around the Welch, West Virginia, area. Connie
sentenced to 6 months’ home confinement, 5 years’        Martin also forged the deceased’s signature on a
probation, and ordered to jointly and severally pay      DOL form which concealed the death and ensured
restitution in the amount of $60,550.                    that the benefits would continue. United States v.
   Connie Martin’s mother, the intended recipient of     John M. Martin; United States v. Connie S. Martin
Black Lung survivor benefits, died on May 11, 1997.      (S.D. West Virginia)
The Division of Coal Mine Workers’ Compensation,
however, was not notified of the death and monthly
benefit checks continued to be mailed to a post office
box from which Connie and John Martin retrieved
them.


Ohio Woman Charged with Stealing Nearly $350,000 in
Benefit Payments
  A    n Ohio woman was indicted on August 11, 2009, for allegedly stealing benefit payments totaling
       $349,185. In the alleged scheme, the defendant stole $148,558 in Black Lung disability benefits paid
to the defendant on behalf of a relative who died in December 1977. It is further alleged that the defendant
stole Social Security benefit payments paid to and on behalf of the same relative, totaling $126,821. The
defendant purportedly also received Supplemental Security Income disability benefit payments in her own
name, totaling $76,806, to which she was not entitled. This is a joint investigation with the Social Security
Administration (SSA) OIG.



     “. . . the defendant stole $148,558 in Black Lung disability benefits
            paid to the defendant on behalf of a relative who died in
                                December 1977.”


                                                                                                                          30
                                                                               Semiannual Report to Congress, Volume 62
                                            Employee
                                              p y Benefits Security
                                                                  y Administration
                                               The Employee Retirement Income Security Act (ERISA) of 1974 requires that most large employee
                                            benefit plans obtain an annual audit of their financial statements. These audits are important because
                                            they help protect plan participants and beneficiaries by ensuring the proper value of assets and the
                                            proper computation of benefits. One of the Employee Benefits Security Administration’s (EBSA’s)
                                            responsibilities is to ensure that these audits meet ERISA requirements, including professional
                                            auditing standards, to help protect participant and beneficiary benefits.



                                         EBSA Could Strengthen Policies and Procedures Related to
WORKER AND RETIREE BENEFIT PROGRAMS




                                         the REACT Project

                                            E    RISA was enacted to protect pension, health, and other employee benefit plans of American workers.
                                                 Currently, there are more than 6 million plans involving 150 million workers and $6 trillion in assets.
                                         Through the Rapid ERISA Action Team (REACT) project, EBSA aims to respond in an expedited manner to
                                         protect the rights and benefits of plan participants when the plan sponsor faces severe financial hardship or
                                         bankruptcy and the assets of the employee benefit plan are in jeopardy. We conducted an audit of EBSA’s
                                         REACT project to determine if the project was accomplishing its goal.
                                            Our audit found that EBSA has not developed and implemented national policies or procedures to
                                         proactively identify potential REACT cases prior to a bankruptcy filing. Specifically, EBSA has not defined
                                         “severe financial hardship” or a standard method of assessing a plan sponsor’s financial condition in
                                         identifying potential REACT cases. Instead, individual EBSA regions interpret this target population differently.
                                         Moreover, EBSA relies heavily on complaints from plan participants to identify potential REACT cases. While
                                         an investigation of complaints received is a valid source, it is reactive. This approach may not provide the
                                         most timely or systematic identification of troubled plans or the highest-risk cases, and may reduce EBSA’s
                                         ability to fully protect and/or recover unpaid plan assets.
                                            Furthermore, EBSA does not have a comprehensive method for measuring the desired activities and
                                         outcomes of the REACT project, and does not perform a national assessment to judge the value of the
                                         REACT project in meeting its overall enforcement mission to protect at-risk benefit plan assets. Specifically,
                                         EBSA does not measure three specific REACT goals related to bankruptcy: (1) immediately identifying any
                                         unpaid plan contributions; (2) notifying all affected plans of the bankruptcy filing; and (3) providing assistance
                                         to plans, participants, and beneficiaries in filing “proofs of claim.” The agency either does not document the
                                         information needed to assess all REACT project goals or has not defined or implemented measures to
                                         determine how well these goals are being accomplished or their value to the REACT project.
                                            We recommended that EBSA take the following actions: (1) develop more specific guidance for proactively
                                         targeting REACT cases based on severe financial hardship; (2) establish a performance measure(s) to
                                         accurately capture the REACT project’s impact; and (3) develop an overall REACT project assessment that
                                         incorporates the regional assessments to determine whether the project is accomplishing its goal. EBSA
                                         disagreed with many of our audit conclusions and defended current agency practices. EBSA did, however,
                                         agree to take several actions aimed at addressing most of our recommendations. (Report No. 05-09-005-
                                         12-001, September 30, 2009)




                            31
                                      Semiannual Report to Congress, Volume 62
             Unemployment Insurance Programs
    Enacted over 60 years ago as a Federal-state partnership, the Unemployment Insurance (UI)
  program is the Department’s largest income-maintenance program. This multibillion-dollar program
  assists individuals who have lost their jobs through no fault of their own. While the framework of the
  program is determined by Federal law, the benefits for individuals are dependent on state law and
  are administered by State Workforce Agencies (SWAs) in 53 jurisdictions covering the 50 states, the
  District of Columbia, Puerto Rico, and the U.S. Virgin Islands under the oversight of ETA.


    The OIG actively performs criminal investigations and refers for prosecution cases that involve
  individuals who defraud unemployment benefit programs. Recent investigations have documented




                                                                                                                            WORKER AND RETIREE BENEFIT PROGRAMS
  the manner in which criminals steal identities to file for fraudulent UI benefits.




Five Car-Wash Managers Are Sentenced for Conspiracy to
Defraud the Government

  B     etween June and September 2009, one
        former regional manager and four former
managers of Super Bright and Car Care car washes
                                                         they knowingly provided undocumented workers
                                                         with stolen identities that were used by the company
                                                         to illegally employ the workers. Super Bright and Car
in Pennsylvania and New Jersey were sentenced for        Care paid the workers with company payroll checks
their roles in a conspiracy to defraud the government.   payable to their fraudulent identities. The employer
The conspiracy included Nicholas Sama, the former        then directed the employees to an area bank with
northeast regional manager of five Super Bright and      which it had a standing agreement to cash its payroll
Car Care car washes, and former managers Timothy         checks without requiring identification. To further
Gibson, Lee Gordon, William Spencer, and Herbert         avoid detection for knowingly having employed illegal
Wolf. The defendants were sentenced to varying           workers, and to appear legitimate, Super Bright and
terms of probation and community service and fines       Car Care made contributions to the Unemployment
ranging from $10,000 to $500,000.                        Insurance system on behalf of the illegal workers
   Sama was determined to have conspired with the        under the workers’ fraudulent identities.
other managers to systematically hire undocumented          This was a joint investigation with ICE and SSA-
workers to avoid the costs of hiring an attorney and     OIG. United States v. Car Care Inc., Nicholas Sama,
paying visa filing fees for temporary workers, which     Lee Gordon, Timothy Gibson, William Spencer,
would have totaled approximately $1,000 to $2,000        Herbert Wolf. (E.D. Pennsylvania)
per petition. Sama and the other Super Bright and Car
Care managers directed a payroll scheme wherein




     “The defendants were sentenced to varying terms of probation and
    community service and fines ranging from $10,000 to $500,000.”



                                                                                                                            32
                                                                                 Semiannual Report to Congress, Volume 62
                                         Company Owner Pleads Guilty in Conspiracy Scheme with
                                         Labor Leasing Agency Owners

                                            E     ugene DiNatale, owner and president of DiNatale & Associates, pled guilty on April 6, 2009, to charges
                                                  of conspiracy and aiding in the preparation and filing of false tax returns to the Federal government.
                                            DiNatale, along with Chuck Sirirathasuk, employed by DiNatale as a senior accountant, advised labor
                                         leasing agency owners on how to evade employment taxes and unemployment compensation taxes owed
                                         to the State of Pennsylvania. Sirirathasuk pled guilty to the same charges as DiNatale in January 2009.
                                            DiNatale and Sirirathasuk conspired with labor leasing agency owners to file false IRS forms to evade
                                         Federal payroll and income taxes and then prepared the false returns on their behalf. In several cases,
                                         DiNatale actually prepared two sets of returns for the labor leasing agency client, one with a small tax
                                         liability to the IRS and one with a large tax liability to the IRS, and then instructed the labor leasing agency
                                         owners to file only the small returns. DiNatale and Sirirathasuk also prepared false corporate income tax
                                         returns showing over stated business expense deductions allowable for “Other Costs” on IRS forms in order
                                         to generate false income tax returns. This was a joint investigation with IRS-CID. United States v. Eugene
WORKER AND RETIREE BENEFIT PROGRAMS




                                         DiNatale (E.D. Pennsylvania)




                                              “DiNatale and Sirirathasuk conspired with labor leasing agency
                                          owners to file false IRS forms to evade Federal payroll and income taxes
                                                    and then prepared the false returns on their behalf.”

                                         Three Georgia Women Sentenced for UI Fraud

                                            I alanthe Jackson was sentenced on July 2, 2009,
                                              to 30 years’ incarceration immediately after
                                         pleading guilty to felony racketeering fraud charges
                                                                                                     credit for time served between their arrests and
                                                                                                     sentencings, but must, respectively, serve mandatory
                                                                                                     sentences of 7 years, 4 years, and 4 years before
                                         of financial identity theft, forgery in the first degree,   being eligible for parole.
                                         and theft. Jackson was also ordered to pay $140,000            Jackson used her tax preparation and accounting
                                         in restitution. Jackson’s plea was accepted based           service business to prepare inflated tax returns in
                                         upon her agreement to provide testimony against             2005 and 2006, and to commit mortgage and bank
                                         two additional co-defendants, Danielle Jordan and           fraud, all in support of her identity theft scheme. She
                                         Tyuania Dodds, who both pled guilty to prohibited           was one of six co-defendants indicted in January
                                         activities and racketeering and were sentenced in           2008 for state violations concerning racketeering
                                         August 2009.                                                related to a UI fraud scheme amounting to $204,608.
                                            All three women admitted their role in a “fictitious     The defendants created fictitious employer entities
                                         employer” scheme whereby they obtained State of             and paid benefits to approximately 47 ineligible UI
                                         Georgia UI funds to which they were not entitled.           claimants, 38 of whom received benefits through the
                                         Jordan and Dodds were each sentenced to 20                  use of stolen Social Security numbers. A significant
                                         years’ incarceration and were each ordered to pay           portion of the stolen funds were deposited onto
                                         $140,000 in restitution, less any amount paid by            prepaid credit cards.
                                         co-defendant Jackson. The significant jail sentences           This was a joint investigation with the Douglas
                                         were attributable to Jackson’s extensive criminal           County, Georgia, Sheriff’s Office. State of Georgia v.
                                         history, the complexity of the scheme, and Jordan’s         Ialanthe Jackson; State of Georgia v. Tyuania Dodds;
                                         and Dodds’s pleas being entered under the RICO              State of Georgia v. Danielle Jordan (Superior Court,
                                         statute. Jackson was also initially charged with            Douglas County, Georgia).
                                         RICO, but pled guility to the referenced charges in
                                         exchange for her cooperation against Jordan and
                                         Dodds. Jackson, Jordan, and Dodds were all given
                            33
                                      Semiannual Report to Congress, Volume 62
Shell Company Set Up to Collect UI Checks

  A     nthony Pitts, the registered agent of A1 Auto
        Clean in Flint, Michigan, was sentenced on
August 28, 2009, for his theft of UI benefits through
                                                        Michigan to issue UI checks to Pitts (and others) via
                                                        the U.S. mail.
                                                            In return for kickbacks, Pitts allowed several of his
the implementation of a fictitious employer scheme.     friends to fraudulently draw unemployment insurance
Pitts was sentenced to 1 year and 1 day confinement;    benefits from A1 Auto Clean. Pitts confessed to
restitution in the amount of $35,827; and 24 months’    implementing this scheme and to having participated
supervised release.                                     in similar schemes under different shell companies.
   Pitts formed A1 Auto Clean, a shell company,         This was a joint investigation with the Michigan
for the sole purpose of drawing unemployment            Unemployment Insurance Agency. United States v.
benefits for himself and others. He provided false      Anthony Zeno Pitts (E.D. Michigan)
certifications to the State of Michigan regarding his
unemployment status, which caused the State of




                                                                                                                           WORKER AND RETIREE BENEFIT PROGRAMS
Mini-Mart Owner Sentenced to Prison for Cashing Thousands
of Fraudulent Unemployment Benefit Checks

  M     aria Sanchez, the owner of 4-Way Mini Market in California, was sentenced on April 6, 2009, to 4
        years and 9 months in prison for charges stemming from her laundering of thousands of fraudulent UI
benefit checks totaling approximately $7 million. Sanchez, who pled guilty in October 2008 to conspiracy to
launder money, was also sentenced to pay restitution of $6,979,104 and three years of supervised release.
   From 2000 until 2005, Sanchez cashed approximately 23,000 fraudulent UI checks from people throughout
California. As part of the scheme, Sanchez would cash fraudulent UI checks on behalf of the other persons
who had fraudulently acquired individuals’ identities and filed false claims with the California Employment
Development Department (EDD). Sanchez charged a higher than normal fee for each check she cashed.
This was a joint investigation with the California EDD. United States v. Maria Sanchez (E.D. California)




                                                                                                                           34
                                                                                Semiannual Report to Congress, Volume 62
                                         California Employment Development Department Employee
                                         Indicted for UI Scheme

                                            A   n Employment Program Representative with
                                                the California EDD and his alleged accomplice
                                         were indicted on May 13, 2009, for mail fraud,
                                                                                                   The investigation alleges that approximately
                                                                                                seven fraudulent UI claims bearing the identities of
                                                                                                seven victims not entitled to UI compensation were
                                         aggravated identity theft, and aiding and abetting,    used to perpetrate the scheme. Additionally, the
                                         for their apparent roles in a UI fraud scheme.         activity of the EDD employee and his accomplice
                                         Between 2007 and 2008, the referenced EDD              allegedly resulted in 51 fraudulent UI checks totaling
                                         employee allegedly misused his position to access      approximately $30,150 being issued and negotiated.
                                         the UI database and reopen inactive UI claims. The     The checks were negotiated by the EDD employee
                                         employee targeted inactive claims with common          and the accomplice at local check cashing facilities.
                                         names and changed the addresses on the claims to       Both defendants were charged with fraudulently
                                         various other addresses that he or his accomplice      collecting and cashing UI checks. This is a joint
                                         purportedly controlled. The employee then illegally    investigation with the California EDD Investigations
WORKER AND RETIREE BENEFIT PROGRAMS




                                         directed UI continued-claim forms and fraudulent       Division.
                                         payments to the unauthorized addresses.


                                              “The employee targeted inactive claims with common names and
                                         changed the addresses on the claims to various other addresses that he or
                                                         his accomplice purportedly controlled.”




                            35
                                      Semiannual Report to Congress, Volume 62
                          Wage and
                                 d Hour Programs

    The Davis-Bacon Act and related acts, such as the Copeland “Anti-Kickback” Act, require the
  payment of prevailing wage rates and fringe benefits on Federally financed or assisted construction.
  The McNamara-O’Hara Service Contract Act requires the payment of prevailing wage rates and
  fringe benefits to service employees on Federally financed service contracts. The OIG investigates
  violations by contractors receiving Federal construction funding for projects who submit falsified
  certified payroll records.



Two Companies Sentenced on Big Dig Fraud and False




                                                                                                                           WORKER AND RETIREE BENEFIT PROGRAMS
Statements Scheme; Additional Company Pleads Guilty to
False Statements

  T     wo companies doing subcontractor work on
        Boston’s Central Artery/Tunnel (CA/T, also
commonly referred to as the “Big Dig”) project were
                                                          recipient, although the work was substantially
                                                          managed and controlled by Island. Island prepared
                                                          the bills submitted by AMG to the CA/T project.
sentenced for submitting false claims in violation of        AMG was sentenced to a one-year term of probation,
the Davis-Bacon Act on a Federal highway project.         a $24,000 criminal fine, and $400 mandatory special
Both companies, Adams Management Group, Inc.              assessment. Island was sentenced to a one-year
(AMG), and Island Lath and Plaster, Inc. (Island),        term of probation, a $65,000 criminal fine, and $400
were subcontractors for McCourt Construction Co.          mandatory special assessment.
(McCourt). On May 8, 2009, Modern Continental                McCourt and two of its managers were previously
Construction Co. pled guilty to making false              convicted in Federal court regarding the same
statements with respect to the construction of the        overbilling scheme. In addition, three individuals
slurry wall panel that ruptured in September 2004,        employed by Massachusetts Electrical Construction
flooding the I-93 roadway, and to making numerous         Company, a McCourt subcontractor on a tunnel
false statements in connection with the billing of        contract, were previously convicted in federal
apprentice workers at journeymen rates on various         court for submitting false claims in connection with
Big Dig contracts.                                        overbilling apprentice labor at journeyman rates.
    The AMG and Island scheme was perpetrated             McCourt paid the restitution owed to the CA/T project
between 2002 and 2006 and involved fraudulent             for the overbillings at issue here.
billing of apprentice workers at the higher rate of pay      This was a joint investigation with DOT-OIG and
for journeymen, resulting in continuing overpayments      the FBI.
by the CA/T project to the contractor. The work,             United States v. McCourt Construction Company,
which was overbilled, was performed on a time and         Inc. d/b/a McCourt/Obayashi JV; United States v.
materials basis, which meant the subcontractor            Modern Continental Corporation; United States v.
was paid for the time worked by each employee, as         Adams Management Group, Inc.; United States v.
opposed to a fixed price for the work under contract.     Island Lath and Plaster, Inc.; United States v. Ryan
The scheme also defrauded the U.S. Department of          McCourt and Kenneth Hartley (D. Massachusetts)
Transportation’s (DOT’s) Disadvantaged Business
Enterprise (DBE) program since AMG, the minority
subcontractor, was portrayed as the contract

   “. . . AMG, the minority subcontractor, was portrayed as the contract
recipient, although the work was substantially managed and controlled by
                                Island.”
                                                                                                                           36
                                                                                Semiannual Report to Congress, Volume 62
                                         Construction Company Owner Defrauds Government in 9/11
                                         Reconstruction of Pentagon

                                            T    homas Cousar, the owner of CAPCO
                                                 Contracting, Inc.; Catherine Bradica, a CAPCO
                                         financial officer; and Daniel Monte, a CAPCO
                                                                                                   paid overtime rates when actually the employees
                                                                                                   received straight hourly rates in the form of expense
                                                                                                   checks. CAPCO was bound by collective bargaining
                                         employee, were sentenced on April 17, 2009, for           agreements (CBAs) to remit reports and payments
                                         their roles in two separate conspiracy schemes to         for work performed by union employees.
                                         defraud the U.S. government.                                 During the reconstruction of the Pentagon in 2001,
                                            Cousar was sentenced to 63 months’ incarceration,      Cousar, Bradica, and Monte used a billing scheme
                                         restitution in the amount of $1,120,666 to be paid        to falsely report inflated labor hours and excessive
                                         jointly with his co-defendants, 3 years’ supervised       material costs. They also diverted material from
                                         probation, and a special assessment of $400.              the Pentagon reconstruction job to other CAPCO
                                         Bradica was sentenced to 41 months’ incarceration,        projects.     AMEC Construction Management,
WORKER AND RETIREE BENEFIT PROGRAMS




                                         restitution in the amount of $1,120,666 to be jointly     Inc. (AMEC), was the general contractor for the
                                         paid with her co-defendants, 3 years’ supervised          Pentagon reconstruction project, and CAPCO was
                                         probation and a special assessment of $2,800.             a subcontractor.
                                         Monte was sentenced to 21 months’ incarceration,             Cousar, Bradica, and an AMEC project supervisor,
                                         restitution in the amount of $807,161 to be jointly       Joseph Arena Jr., conspired to conceal their personal
                                         paid with his co-defendants, and 3 years’ supervised      relationship and CAPCO payments for the personal
                                         probation.                                                benefit of Arena. Cousar, Bradica, and Arena further
                                            Cousar and Bradica pled guilty in February             attempted to conceal unethical conduct by providing
                                         2008 to mail fraud, major fraud against the Federal       the U.S. Department of Defense (DoD)-OIG with
                                         government, and conspiracy to defraud the U.S.            a fraudulent invoice and personal check. Arena
                                         government for two separate schemes in which              previously pled guilty to conspiracy in October 2006
                                         they falsified invoices related to the construction of    and on May 1, 2009, was sentenced to 2 years’
                                         a baseball park and a university sports complex,          probation and fined $10,000.
                                         and the reconstruction of the Pentagon following the         This was a joint investigation with IRS-CID, DoD
                                         terrorist attacks of September 11, 2001. Monte pled       Defense Criminal Investigative Service (DCIS), DoD
                                         guilty to the conspiracy charge.                          Defense Contract Audit Agency (DCAA), USPIS,
                                            From 1999 through 2001, CAPCO was paid on a            and the FBI. United States v. Thomas Cousar;
                                         time and materials basis for the construction of the      United States v. Catherine Bradica; United States v.
                                         Pittsburgh Pirates Professional Baseball Park and the     Daniel Monte; United States v. Joseph Arena (W.D.
                                         Peterson Event Center at the University of Pittsburgh.    Pennsylvania)
                                         In violation of the Copeland Act, Cousar and Bradica
                                         falsified required certified payrolls by over-reporting
                                         regular and overtime hours worked and by adding
                                         names of individuals who had not worked on the
                                         job for those specific days and hours. In addition,
                                         Cousar and Bradica indicated that employees were



                                               “Cousar and Bradica pled guilty in February 2008 to mail fraud,
                                          major fraud against the Federal government, and conspiracy to defraud
                                         the U.S. government . . . they falsified invoices related to the construction
                                         of a baseball park and a university sports complex, and the reconstruction
                                          of the Pentagon following the terrorist attacks of September 11, 2001. ”


                            37
                                      Semiannual Report to Congress, Volume 62
                                           WORKER AND RETIREE BENEFIT PROGRAMS




                                           38
Semiannual Report to Congress, Volume 62
Worker Safety, Health, and
    Workplace Rights
                                               Occupational Safety and Health Administration
                                                 Company Falsifies Employees’ Qualifications to Secure
                                                 Government Safety Contracts

                                                    J  ohn Meyer, a former vice president of IMS
                                                       Safety, Inc. (IMS), was sentenced on July
                                                 8, 2009, to 24 months’ incarceration and 3 years’
                                                                                                         safety oversight, and required that safety oversight
                                                                                                         personnel be trained in rules and regulations relating
                                                                                                         to worker safety and experienced in the construction
                                                 supervised release. On June 8, 2009, IMS and its        industry and construction safety. However, from
                                                 owner, Joseph Mazzurco, pled guilty to charges of       approximately 2006 through 2008, Meyer and others
                                                 conspiracy and mail fraud. Additionally, on September   engaged in a scheme in which they made, and
WORKER SAFETY, HEALTH, AND WORKPLACE RIGHTS




                                                 9, 2009, Christopher Rotante, vice president of IMS,    caused to be made, false representations to NYCDEP
                                                 was sentenced to 1 year and 1 day incarceration         regarding the experience and training of certain
                                                 and 3 years’ supervised release. In addition, Meyer     IMS employees, so that NYCDEP would approve
                                                 and Rotante were ordered to jointly and severally       the employees’ appointments to safety oversight
                                                 pay restitution of $1,035,000, and to pay $1,035,000    positions. These included false representations
                                                 in forfeiture to the New York City Department of        concerning the employees’ experience in the
                                                 Environmental Protection (NYCDEP).                      construction industry and with construction safety,
                                                    IMS provided health and safety training courses      and concerning the employees’ training on rules and
                                                 to qualify employees working at certain NYCDEP          regulations relating to worker health and safety.
                                                 jobsites. In order to secure these NYCDEP contracts,       This was a joint investigation with the United
                                                 Mazzurco falsified résumés and qualifications to        States Environmental Protection Agency’s Criminal
                                                 show compliance with Occupational Safety and            Investigation Division, the New York City Department
                                                 Health Administration (OSHA) regulations.               of Investigation, the New York State Department of
                                                    Meyer participated in the conspiracy to defraud      Health, the New York State DOL, and DCIS. United
                                                 NYCDEP by having IMS hold itself out as a firm          States v. Mazzurco et al; United States v. Rotante;
                                                 specializing in the regulatory compliance of worker     United States v. Meyer (S.D. New York)
                                                 health and safety. IMS was hired by NYCDEP
                                                 contractors to provide safety oversight at NYCDEP
                                                 construction sites. NYCDEP contracts required such




                                                     “IMS provided health and safety training courses to qualify employees
                                                        working at certain NYCDEP jobsites. In order to secure these
                                                     NYCDEP contracts, Mazzurco falsified résumés and qualifications to
                                                    show compliance with Occupational Safety and Health Administration
                                                                            (OSHA) regulations.”




                                      41
                                              Semiannual Report to Congress, Volume 62
Semiannual Report to Congress, Volume 62
                                           42
                                                WORKER SAFETY, HEALTH, AND WORKPLACE RIGHTS
Labor Racketeering
                                                                Labor Racketeering
                                                                                 g
                              The OIG at the DOL has a unique programmatic responsibility to investigate labor racketeering
                           and/or organized crime influence involving unions, employee benefit plans, or labor-management
                           relations. The Inspector General Act of 1978 transferred responsibility for labor racketeering and
                           organized crime–related investigations from the Department to the OIG. In doing so, Congress
                           recognized the need to place the labor racketeering investigative function in an independent law
                           enforcement office free from political interference and competing priorities. Since the 1978 passage
                           of the Inspector General Act, OIG special agents, working in association with the Department of
                           Justice’s Organized Crime and Racketeering Section and various United States Attorneys’ Offices,
                           have conducted criminal investigations to combat labor racketeering in all its forms.


                           Traditional Organized Crime: Traditionally, organized crime groups have been involved in benefit plan
                        fraud, violence against union members, embezzlement, and extortion. Our investigations continue to identify
                        complex financial and investment schemes used to defraud benefit fund assets, resulting in millions of
LABOR RACKETEERING




                        dollars in losses to plan participants. The schemes include embezzlement or other sophisticated methods,
                        such as fraudulent loans or excessive fees paid to corrupt union and benefit plan service providers. OIG
                        investigations have demonstrated that abuses by service providers are particularly egregious due to their
                        potential for large dollar losses and because they often affect several plans at the same time. The OIG
                        is committed to safeguarding American workers against being victimized by labor racketeering and/or
                        organized crime.

                           Nontraditional Organized Crime: Our current
                        investigations are documenting an evolution of labor
                        racketeering and/or organized crime corruption. We
                        are finding that nontraditional organized criminal
                        groups are engaging in racketeering and other
                        crimes against workers in both union and nonunion
                        environments. Moreover, they are exploiting DOL’s
                        foreign labor certification and Unemployment
                        Insurance (UI) programs.

                           Impact of Labor Racketeering on the Public:
                        Labor racketeering activities carried out by organized
                        crime groups affect the general public in many ways.
                        Because organized crime’s exercise of market
                        power is usually concealed from public view, millions
                        of consumers unknowingly pay what amounts to
                        a tax or surcharge on a wide range of goods and
                        services. In addition, by controlling a key union local,
                        an organized crime group can control the pricing in
                        an entire industry.
                           The following cases are illustrative of our work in helping to eradicate both traditional and nontraditional
                        labor racketeering in the nation’s labor unions, employee benefit plans, and workplaces.




             45
                     Semiannual Report to Congress, Volume 62
                     Internal Union Investigations
                                           g

    Our internal union cases involve instances of corruption, including officers who abuse their
  positions of authority in labor organizations to embezzle money from union and member benefit
  plan accounts and defraud hard working members of their right to honest services. Investigations
  in this area also focus on situations in which organized crime groups control or influence a labor
  organization, frequently to influence an industry for corrupt purposes or to operate traditional vice
  schemes. Following are examples of our work in this area.



Former New York State Assemblyman Sentenced
for Racketeering

  B    rian McLaughlin, a former New York State
       assemblyman, business manager of the J
Division of Local Union No. 3 of the International
                                                         Jefferson Clinton Democratic Club, CLC, and the
                                                         Committee to Elect Brian McLaughlin. McLaughlin
                                                         admitted to making false statements in connection




                                                                                                                          LABOR RACKETEERING
Brotherhood of Electrical Workers, and president         with a mortgage application submitted to a Federally
of the New York City Central Labor Council (CLC),        insured financial institution, committing numerous
was sentenced on May 20, 2009, for violation of          violations of the Taft-Hartley Act, and using mail and
the RICO Act. He received a sentence of 10 years’        wire fraud schemes to deprive the J Division of Local
imprisonment to be followed by 3 years’ supervised       3 and its union members of their rights to his honest
release, and he was ordered to pay restitution in        services as a union official. The CLC is a chartered
the amount of $845,977, and a forfeiture amount of       affiliate of the American Federation of Labor and
$3,097,101. In addition, McLaughlin was ordered to       Congress of Industrial Organizations (AFL-CIO). As
pay a $25,000 fine.                                      a former New York State assemblyman, McLaughlin
   McLaughlin admitted to orchestrating a series         represented the 25th Assembly District in Queens,
of schemes and directing individuals under his           New York. This is a joint investigation with the FBI
control to take steps which facilitated his acceptance   and the New York City Department of Investigation.
of bribes, in the form of automobiles and cash,          United States v. Brian M. McLaughlin (S.D. New
from union contractors, and the embezzlement of          York)
thousands of dollars from organizations such as
the Electchester Athletic Association, the William

Genovese Organized Crime Family Captain Convicted of
Racketeering Charges and Mob Control of
New Jersey Waterfront

  M     ichael Coppola, a captain in the Genovese La Costa Nostra (LCN) Crime Family, was convicted on July
        21, 2009, of RICO and RICO conspiracy. Coppola was found guilty of two racketeering acts, which
included the Genovese LCN Crime Family’s 33-year extortion and control of International Longshoremen’s
Association (ILA) Local Union 1235, the deprivation of honest services by Local Union 1235 presidents,
wire fraud in connection with a scheme to defraud Local Union 1235 members of property, and conspiracy
to possess identification documents or false identification documents with the intent to use in an unlawful
manner. ILA Local 1235 represents port workers in New Jersey. This was a joint investigation with the FBI
and the New Jersey Division of Criminal Justice. United States v. Michael Coppola (E.D. New York)



                                                                                                                          46
                                                                               Semiannual Report to Congress, Volume 62
                        Seven Organized Crime Associates Plead Guilty in Scheme
                        Involving Illegal Gambling, Extortion, and
                        Labor Racketeering

                           F    ive associates of the Gambino LCN Organized
                                Crime Family and two associates of the
                        Lucchese LCN Organized Crime Family pled guilty
                                                                                   agreement (CBA) with IUOE LU 825, a fact Jonathan
                                                                                   denied, which resulted in his plea to making false
                                                                                   statements. Under the CBA, Barone was obligated
                        between May and September 2009 for their roles in          to hire LU 825 members when employing operating
                        running an enterprise that engaged in illegal gambling,    engineers for various construction jobs as well as
                        extortion, fraud schemes, and labor racketeering. The      paying the wages and contributions to the Local 825
                        defendants were members of Laborers International          Benefit Funds. The Lanzas conspired to conceal the
                        Union of North America (LIUNA) Local Union (LU)            payment of wages to some of its nonunion workers
                        1153, International Union of Operating Engineers           by directing some of its workers to submit false
                        (IUOE) LU 825, or construction companies. The              invoices. By using nonunion operating engineers,
                        seven defendants who pled guilty, along with 16            Barone Construction failed to contribute $43,418 to
                        other LCN “made” members and organized crime               the Local 825 Benefit Funds.
                        associates, were indicted in May 2008 on charges               Joseph Schepisi, a Kiska Construction Company
                        that included racketeering conspiracy, extortion           superintendent, pled guilty to misprision of a felony
                        with threats of violence, theft of union benefits, Taft-   for assisting Muccigrasso and another defendant in
                        Hartley violations, mail fraud, illegal gambling, and      a no-show/low-show scheme at the Goethals Bridge
                        various other thefts and frauds.                           project between New York and New Jersey. John
LABOR RACKETEERING




                           Charles “Buddy Musk” Muccigrasso, a Gambino             Cataldo, a Gambino associate and an organizer for
                        soldier and a member of IUOE LU 825, pled guilty           IUOE LU 825 who was aware of the no-show/low-
                        to charges of racketeering conspiracy. Muccigrasso         show scheme, pled guilty to conspiracy to commit
                        admitted that, from about 2002 through 2008, he            wire fraud for making telephone calls that warned the
                        conducted the affairs of the Gambino Crime Family          other defendant whenever another LU 825 business
                        through a pattern of illegal activity that included the    agent was en route to the jobsite so that Muccigrasso
                        commission of the racketeering acts.                       would be present at the jobsite.
                           Ralph Cicalese, a Gambino associate and a LIUNA             Christopher Doscher, a Gambino associate and
                        LU 1153 shop steward, pled guilty to racketeering          member of LIUNA LU 1153, pled guilty to conducting
                        conspiracy. Cicalese, a former investigator with           an illegal gambling business. Doscher admitted
                        the Essex County, New Jersey Prosecutor’s Office,          that, from about 2002 through 2007, he operated an
                        admitted that from about 2002 through 2008, he, and        illegal gambling operation that utilized an offshore
                        others associated with the Gambino Crime Family,           wire room service that would take the bets from
                        conspired to conduct and participate in criminal           bettors who called in on phone numbers they were
                        activities that affected interstate commerce. Cicalese     provided.
                        had the responsibility to oversee and supervise                This is an ongoing, large scale, multiagency
                        Gambino gambling agents and to carry out labor             investigation involving numerous Federal, state, and
                        racketeering activities.                                   local law enforcement agencies, including the FBI,
                           Paul Lanza, a Lucchese associate and the owner          the New Jersey State Police, and the Union County
                        of Barone Construction and Equipment Corporation           New Jersey Prosecutor’s Office. United States v.
                        (Barone), and his son Jonathan Lanza, a Lucchese           Andrew Merola, et al. (D. New Jersey)
                        associate and an employee of Barone, each pled guilty
                        to conspiracy charges related to embezzlement from
                        an employee benefit plan. Jonathan Lanza also pled
                        guilty to making false statements. From about 2006
                        through 2007, Barone employed nonunion engineers
                        to operate heavy machinery at a job in Morristown,
                        New Jersey. Barone had a collective bargaining




             47
                     Semiannual Report to Congress, Volume 62
Union Employees Sentenced for Rigging Elections

  A       former president, a former acting president, and four former local union employees of the International
          Brotherhood of Teamsters (IBT) Local 743, one of the largest Teamsters locals in the country, were
sentenced in August and September 2009 for conspiring together and with others to rig two elections in favor
of an incumbent slate of officers in 2004.
   Between August and December 2004, the defendants and others caused hundreds of members’ addresses
in an IBT Local 743 computer database to be changed from the members’ previously recorded addresses
to new addresses belonging to the defendants’ friends and family. Fraudulently delivered ballot packages
intended for Local 743 members in two closely contested elections were then collected by the defendants,
and the ballots later were cast or caused to be cast in favor of the incumbent slate of officers.
   Robert Walston, a former IBT Local 743 president, was sentenced to 57 months’ imprisonment followed
by 3 years’ supervised release and ordered to make restitution in the amount of $900,936. Richard Lopez,
a former Local 743 acting president, was sentenced to 24 months in prison and 2 years’ supervised release,
and ordered to make restitution in the amount of $864,924. Local 743’s former comptroller, Thaddeus
Bania, was sentenced to 40 months in prison followed by 2 years’ supervised release, and ordered to make
restitution in the amount of $900,936. David Rodriguez, a former Local 743 organizer, was sentenced to
18 months in prison and 2 years’ supervised release, and ordered to make restitution in the amount of
$864,924. Former Local 743 Business Agent Cassandra Mosley was sentenced to 1 day served in prison
followed by 6 months’ home confinement, 2 years’ supervised release with 200 hours of community service,
and ordered to make restitution in the amount of $900,936. The final defendant in this case, Mark Jones, a
former IBT Local 743 organizer, was sentenced to 6 months’ probation and fined $2,000. This was a joint




                                                                                                                            LABOR RACKETEERING
investigation with USPIS and the Office of Labor Management Standards (OLMS). United States v. Lopez,
et al. (N.D. Illinois)



  “. . . the defendants and others caused hundreds of members’ addresses
         in an IBT Local 743 computer database to be changed . . .”




                                                                                                                            48
                                                                                 Semiannual Report to Congress, Volume 62
                                                   Benefit Plan Investigations
                                                                       g
                              The OIG is responsible for combating corruption involving the monies in union-sponsored benefit
                           plans. Those pension plans and health and welfare benefit plans comprise hundreds of billions
                           of dollars in assets. Our investigations have shown that the assets remain vulnerable to labor
                           racketeering schemes and/or organized crime influence. Benefit plan service providers, including
                           accountants, actuaries, attorneys, contract administrators, investment advisors, insurance brokers,
                           and medical providers, as well as corrupt plan officials and trustees, continue to be a strong focus of
                           OIG investigations.


                        Union Officers Plead Guilty to Embezzling More Than
                        $380,000 in Union and Benefit Plan Funds

                           P   aul S. Peters II, the former president and
                               plan administrator of the Waterfront Guard
                        Association Local 1852 (WGA), and Brian W.
                                                                                 funding mechanism for the disbursements. Peters
                                                                                 made misrepresentations about why the money was
                                                                                 being paid by listing the checks and other documents
LABOR RACKETEERING




                        Armentrout, WGA’s former recording secretary,            as being for various purposes, such as citing
                        each pled guilty on July 9, 2009, for their roles in     operating expenses, reimbursement of pensioners’
                        an embezzlement scheme. Both pled guilty to              medical payments, and plan administering salary.
                        embezzlement from a labor union, and Peters                 The embezzled monies were converted and
                        additionally pled guilty to embezzling from the union-   used to purchase, among other things, a Ford
                        sponsored employee welfare and pension plans.            Mustang convertible and a Ford Expedition, home
                           From 2002 through 2005, in excess of $380,000         improvements, stock transactions, home mortgage
                        was embezzled from the WGA plans and transferred         payments, and boarding costs for horses.
                        into the union operating account. During this period,       This was a joint investigation with the EBSA.
                        Peters and Armentrout received improper personal         United States v. Paul S. Peters, II; United States v.
                        disbursements through checks written to themselves       Brian W. Armentrout (D. Maryland)
                        from the WGA union operating account using the
                        embezzled WGA plan assets, which served as the




             49
                     Semiannual Report to Congress, Volume 62
Office Manager Pleads Guilty to ERISA Violation
  S    hannon DeShasier, a bookkeeper and office manager for a masonry company in Illinois, pled guilty
       on April 29, 2009, to making false statements in relation to documents required by the Employee
Retirement Income Security Act (ERISA). The Springfield, Illinois-based company operated under a CBA
with the Laborer’s District Council of Chicago and vicinity.
   Between 2001 and 2006, DeShasier embezzled $82,958 from the company, including funds that should
have been remitted to the Laborer’s Pension and Welfare Funds. In 2005, DeShasier knowingly submitted
an installment note to the Funds, on which the signature of the president of the company was falsified,
to conceal and cover up the fact that funds designated for deposit with the Laborer’s Pension Fund and
Laborer’s Welfare Fund were embezzled and converted for her own use. This is a joint investigation with
USPIS. United States v. Shannon DeShasier (C.D. Illinois)


Investment Advisor Charged with Allegedly Embezzling
$24 Million from Union Pension Funds
  T    he co-owner and president of a Chicago-
       based company that invested union
pension funds was charged on July 21, 2009, with
                                                         fraudulently caused his company to make “capital
                                                         calls” on accounts containing the union pension
                                                         funds, knowing the funds that he was causing to
allegedly embezzling approximately $24 million.          be withdrawn were not going to be directed toward
The defendant is suspected of stealing the funds         investments, legitimate management fees, or




                                                                                                                            LABOR RACKETEERING
between approximately 2002 and September 2006            overhead expenses attributable to the pension plan
while acting as the investment manager at his firm.      investors. Rather, the defendant supposedly caused
The defendant entered into investment management         the capital calls to occur in order to obtain funds
agreements on behalf of his company with a number        that he could convert for his own use and benefit,
of union pension funds and caused the union pension      resulting in losses totaling approximately $24 million.
funds to place approximately $169 million with the       This is a joint investigation with EBSA and the FBI.
defendant’s company.
   The allegations include that after obtaining
control of the union pension funds, the defendant

Cardiologist Pleads Guilty to Approximately $13.4 Million in
Health Care Fraud
  D    r. Sushil Sheth, an Illinois cardiologist, pled guilty on August 19, 2009, to charges of health care fraud
       for his role in a fraudulent reimbursement scheme. Between 2002 and 2007, Dr. Sheth received
approximately $13.4 million in fraudulent reimbursements from Medicare and other health care insurers,
including several union health and welfare funds, for cardiac care when those services were not performed
and used the proceeds for his own benefit. Dr. Sheth used his hospital privileges to access and to obtain
information about patients without their knowledge or consent. He hired individuals to bill Medicare and
other insurance providers for medical services that he purportedly rendered to patients whom he never
treated. After waiting nearly a year after the treatment was provided, Dr. Sheth often submitted false claims
for providing the highest level of cardiac care – treatment in an intensive care unit – on multiple days during
the patients’ hospital stays. This was a joint investigation with EBSA, the FBI, the U.S. Department of Health
and Human Services (HHS) OIG, and the Office of Personnel Management OIG. United States v. Sushil
Sheth (N.D. Illinois)

      “...Dr. Sheth received approximately $13.4 million in fraudulent
 reimbursements from Medicare and other health care insurers, including
    several union health and welfare funds, for cardiac care when those
 services were not performed and used the proceeds for his own benefit.”
                                                                                                                            50
                                                                                 Semiannual Report to Congress, Volume 62
                        Company President Indicted for Giving Kickbacks and
                        Embezzling Money from Carpenters’ Pension Fund and
                        Operating Engineers’ Pension Plan
                           T   he president of a company acting as a
                               consultant on investments in a gambling
                        casino was indicted on May 26, 2009. He was
                                                                                    It is purported that the Carpenters’ Fund retained
                                                                                 the management company as an investment advisor
                                                                                 with the understanding that the management
                        charged with giving kickbacks to the then executive      company would then hire the defendant and the
                        secretary-treasurer of the Michigan Regional Council     defendant’s company to do consulting work on an
                        of Carpenters (who also served as the chairman of        investment in a gambling casino.
                        the Board of Trustees of the Carpenters’ Pension            The defendant allegedly agreed to pay (and paid)
                        Trust Fund) and stealing           $4 million from the   kickbacks to the chairman, which included a share in
                        Carpenters’ Pension Trust Fund and the Operating         $800,000 in profit from a casino investment made by
                        Engineers Local 324 Pension Plan. In addition, the       the Carpenters’ Fund. In addition, the defendant is
                        defendant was charged with conspiring to commit          charged with providing kickbacks to the chairman in
                        wire fraud, to embezzle union pension funds, to          the form of free concert tickets and hotel stays worth
                        give kickbacks to a union official, and to launder the   thousands of dollars. The defendant is also charged
                        proceeds of this illegal activity.                       with laundering the pension fund money stolen from
                           Between 2002 and 2008, the defendant allegedly        the pension plans and with making fraudulent wire
                        conspired with other individuals to defraud and to       transfers to his bank in Las Vegas, Nevada, from
                        embezzle money from the Carpenters’ Fund and the         banks in Michigan.
LABOR RACKETEERING




                        Local 324 Plan in connection with investments made          This is a joint investigation with the FBI and EBSA,
                        by the pension plans in the construction of a casino     with assistance from the Securities and Exchange
                        in Biloxi, Mississippi. The president of the company     Commission (SEC).
                        managing the investments of the pension funds is
                        also allegedly complicit in the scheme.




             51
                     Semiannual Report to Congress, Volume 62
Two Doctors, One Nurse, and Three Companies Sentenced in
Missouri Health Care Fraud Scheme

  D     r. James Harold Ellegood and his wife,
        Wynsleen Ellegood; Dr. Rajitha Goli; and
three companies all were sentenced during this
                                                          Health and Welfare Trust Fund by concealing the
                                                          fact that Dr. Ellegood had not personally provided
                                                          physician services to patients.
reporting period for their roles in a scheme involving       Dr. Ellegood was sentenced to 33 months’
conspiracy, money laundering, and making false            incarceration and 3 years’ supervised release, and
statements regarding physician home visits.               jointly and severally ordered to pay restitution of
   The three companies sentenced were Missouri            $983,140 to Medicare with co-defendants MPHS
Physician Home Services, Inc. (MPHS), operated            and Dr. Goli. MPHS, represented by Dr. Ellegood,
by Dr. Ellegood and his wife, a nurse; Hanford            was further sentenced to 5 years’ supervised
Nuclear Services, Inc. (HNS), owned by Rengarajan         probation and ordered to pay the same amount of
Soundararajan, Ph.D., a chemist, who is the brother-      restitution. Wynsleen Ellegood was sentenced to
in-law of Wynsleen Ellegood; and Arogya, Inc.             3 years’ probation, a $2,000 fine and ordered to
(Arogya), a medical consulting company owned and          pay restitution of $3,567. Dr. Goli was sentenced
operated by Dr. Goli’s two brothers, who are also         to 37 months’ incarceration and 3 years’ supervised
medical doctors.                                          release; restitution to Medicare in the amount of
   All of the defendants pled guilty in February 2009     $605,609 (joint and several liable with co-defendants
to charges involving conspiracy, money laundering,        MPHS and Dr. Ellegood). HNS and Arogya were
and making false statements. Dr. Ellegood and             each sentenced to 3 years’ probation and fines of




                                                                                                                           LABOR RACKETEERING
MPHS submitted numerous reimbursement claims              $50,000.
for services falsely representing that Dr. Ellegood had      This was a joint investigation with HHS-OIG.
personally provided the services that were actually       United States v. Physician Home Services, Inc.;
provided by Dr. Goli. To conceal Dr. Goli’s payments      United States v. James Harold Ellegood, M.D.;
for her services, Dr. Ellegood and MPHS funneled          United States v. Wynsleen K. Ellegood, R.N.; United
Dr. Goli’s payments through HNS and Arogya.               States v. Rajitha Goli, M.D.; United States v. Hanford
Wynsleen Ellegood made false statements in an             Nuclear Services, Inc.; United States v. Arogya, Inc.
annual financial report (Form 5500) of the Carpenters     (E.D. Missouri)


   “All of the defendants pled guilty in February 2009 to charges involving
        conspiracy, money laundering, and making false statements.”




                                                                                                                           52
                                                                                Semiannual Report to Congress, Volume 62
                        Former Pension Benefit Manager Pleads Guilty
                        to Embezzlement

                           H    arry Keil, a former administrative manager, pled guilty on May 5, 2009, to embezzling money from
                                the Machinist Union, District 9. Keil was hired in August 2006 by the trustees of the International
                        Association of Machinists and Aerospace Workers District 9 as the administrative manager of the pension
                        and health and welfare funds. Keil caused a series of payments to be made from the Pension Plan and
                        the Health and Welfare Plan based on false invoices which he created. In some instances, he supported
                        the illegal payments with invoices which bore the names of entities which did legitimate business with the
                        Plans and, as a result, the false invoices appeared to be valid. Payments were made to his personal bank
                        accounts and loans. Between 2006 and 2008, Keil embezzled $341,000 from the Plans. This is a joint
                        investigation with EBSA. United States v. Harry Keil (E.D. Missouri)



                        Women Charged with Defrauding Culinary Union’s Health
                        Care Insurance Program in Las Vegas

                           T   wo California women and two Las Vegas,              The Culinary Fund, which provides medical
LABOR RACKETEERING




                               Nevada, women were charged on April              insurance services to at least 50,000 participants in
                        10, 2009, with organizing and/or participating in       the hospitality industry in the Las Vegas, Nevada,
                        a scheme to defraud the Las Vegas Hotel and             area, was billed approximately $4.9 million for “out of
                        Restaurant Employees International Union Welfare        country” claims for the time period of approximately
                        Fund (Culinary Fund) by submitting claims for           January 2002 through February 2006. The “out of
                        unauthorized cosmetic surgeries performed on union      country” claims were almost entirely from Mexico,
                        members in Mexico.                                      with the majority of those claims for emergency
                           The defendants allegedly devised a scheme to         procedures. The Culinary Fund paid more than $3
                        defraud the Culinary Fund through the submission        million on the claims.
                        of fraudulent health care claims. They purportedly         One of the defendants participated in the scheme
                        met with prospective patients for the purpose of        by making appointments for Culinary union patients.
                        conducting cosmetic surgery consultations. The          This same defendant, who is not a licensed nurse,
                        prospective patients were allegedly told that even      also performed after-surgery care such as the removal
                        though cosmetic procedures were not covered by the      of stitches and fluids. This is a joint investigation with
                        Culinary Fund, the defendants would bill the Culinary   USPIS and the FBI. (D. Nevada)
                        Fund for the cosmetic procedure by making it appear
                        as if the patient had suffered an unexpected injury
                        in Mexico and had received emergency medical
                        treatment.


                            “The out of country claims were almost entirely from Mexico, with the
                           majority of those claims for emergency procedures. The Culinary Fund
                                          paid more than $3 million on the claims.”




             53
                     Semiannual Report to Congress, Volume 62
               Labor-Management
                         g      Investigations
                                       g

    Labor-management relations cases involve corrupt relationships between management and
  union officials. Typical labor-management cases range from collusion between representatives of
  management and corrupt union officials to the use of the threat of “labor problems” to extort money or
  other benefits from employers.



Three Gambino Family Members Sentenced for Racketeering
Conspiracy and Murder

  N    icholas Corozzo, a captain in the Gambino
       LCN Organized Crime Family, and Jerome
Brancato, a Gambino family soldier, were sentenced
                                                      charged in a February 2008 80-count indictment.
                                                      The charged crimes span more than three decades
                                                      and reflect the Gambino family’s corrosive influence
on April 17, 2009, after previously pleading guilty   on the construction industry in New York City and
to RICO conspiracy and extortion, respectively.       beyond and its willingness to resort to violence, even
Corozzo received 13½ years’ incarceration and 3       murder, to resolve disputes in dozens of crimes of




                                                                                                                        LABOR RACKETEERING
years’ supervised release for the extortion of the    violence dating from the 1970s to the present,
owner of a union trucking company and a 1975          including eight acts of murder, murder conspiracy,
double murder. For his extortion, Brancato was        and attempted murder.
sentenced to 15 months’ incarceration and 3 years’       This was a joint investigation with the FBI, New
supervised release. Charles Carneglia, a member       York State Organized Crime Task Force, DOT, New
of the Gambino LCN Organized Crime Family, was        York City Department of Investigation, New York
sentenced September 17, 2009, to life imprisonment    City Business Integrity Commission, and New York
for RICO conspiracy, including predicate acts of      Metropolitan Transportation Authority. United States
murder, murder conspiracy, felony murder, robbery,    v. Joseph Agate, et al. (E.D. New York)
kidnapping, and extortion.
   Carneglia, Corozzo, and Brancato are 3 of 62
defendants associated with the Gambino, Genovese,
and Bonanno LCN Organized Crime Families


 “. . . 3 of 62 defendants associated with the Gambino, Genovese, and
                Bonanno LCN Organized Crime Families
            charged in a February 2008 80-count indictment.”

City Street-Lighting Contractor Indicted for Paying Off
IBEW Business Representative
  A      former owner and operator of a New York-based electric company was indicted April 2, 2009, for
         allegedly providing unlawful payments and benefits to an International Brotherhood of Electrical
Workers (IBEW) Local 3 business representative. From approximately 1993 through 2006, the defendant’s
company employed members of IBEW Local 3 to install and maintain streetlights and traffic signals in New
York City under contracts with the city. Commencing in the mid-1990s through 2006, it is alleged that the
defendant made repeated cash payments to a business representative of Local 3 and arranged for a luxury
vehicle to be given to the business representative for the representative’s use in February and March 2004.
This is a joint investigation with the FBI and the New York City Department of Investigation.

                                                                                                                        54
                                                                             Semiannual Report to Congress, Volume 62
                        Two Individuals Sentenced and Two Former Executive Board
                        Members of Bus Drivers’ Union Plead Guilty to Extortion
                        Conspiracy

                           T   wo former executive board members and union
                               delegates of Local 1181 of the Amalgamated
                        Transit Workers Union (Local 1181) were indicted
                                                                                 company owners and operators whose employees
                                                                                 were members of Local 1181, and from companies
                                                                                 whose employees were not Local 1181 members.
                        on June 3, 2009, and pled guilty on September 10,        The defendants allegedly participated in this scheme
                        2009, to extortion conspiracy. As part of this ongoing   along with other Local 1181 officers, including
                        investigation, on May 26, 2009, Neil Cremin, a New       Salvatore Battaglia, who was both president of Local
                        York Department of Education (DOE) Office of Pupil       1181 and a member of the Genovese LCN Organized
                        Transportation (OPT) employee, was sentenced to          Crime Family, and another individual who was both
                        8 months’ incarceration for soliciting and accepting     secretary-treasurer of Local 1181 and an associate
                        cash payments from various private bus company           of the Genovese LCN Organized Crime Family. The
                        owners who held transportation contracts with the        defendants and other participants in the scheme
                        DOE. George Ortiz, another DOE OPT employee              used both their union status and, as applicable,
                        who pled guilty to soliciting and accepting cash         their organized crime status, as a means of inducing
                        payments, was sentenced on June 8, 2009, to 30           payment, obtaining tens of thousands of dollars from
                        months’ incarceration.                                   bus company owners through intimidation, threats,
                           Local 1181 represents approximately 15,000            and fear of personal and economic harm.
LABOR RACKETEERING




                        school bus drivers and school bus escorts in New            The defendants are the fourth and fifth high-ranking
                        York City. From at least the 1980s through 2006,         Local 1181 officials to be charged in connection with
                        the Genovese Organized Crime Family -- a criminal        this investigation. Battaglia pled guilty in January
                        organization that is part of La Cosa Nostra --           2008 to racketeering, extortion, and Taft-Hartley
                        influenced and asserted control over Local 1181,         violations and was sentenced in June 2008 to 57
                        including the appointment of certain individuals to      months in prison.
                        serve as officers for Local 1181. The defendants            This is an ongoing joint investigation with the FBI,
                        served as members, delegates, executive board            OLMS, and the New York Police Department. United
                        members, and assistant trustees of Local 1181--          States v. Maddalone et al. (S.D. New York) and
                        one from approximately 1984 through 2008, and the        United States v. Neil Cremin (S.D. New York)
                        other from approximately 1993 through 2008.
                           From at least the 1980s through 2006, various
                        Local 1181 officers were involved in a wide-ranging
                        scheme to solicit, collect, and receive illegal cash
                        payments of tens of thousands of dollars from bus




             55
                     Semiannual Report to Congress, Volume 62
Ten Charged in Carpenters Union Corruption Case




                                                                                                                          LABOR RACKETEERING
  T    he head of the New York City District Council of Carpenters (NYCDCC), together with seven
       other officials of the United Brotherhood of Carpenters and Joiners (the Carpenters Union), one
construction contractor, and a contractors’ representative, were indicted on August 5, 2009, in a 29-count
RICO indictment, for their alleged roles in a scheme by which Carpenters Union officials, in return for bribes,
allowed construction contractors to avoid full payment of union wages and benefits at various jobsites in
New York City. Two of the individuals charged in the indictment are associated with the Genovese and
Lucchese LCN Organized Crime Families.
   The Carpenters Union is a national labor union that represents skilled workers at construction sites. In
New York City, approximately 20,000 members of the union are divided into 11 locals, overseen by the
NYCDCC. On behalf of its locals, the NYCDCC entered into numerous CBAs with construction contractors
and construction contractor associations operating at jobsites in New York City.
   In the alleged scheme, union officials accepted bribes in exchange for allowing contractors to violate the
CBA, thereby facilitating embezzlement of ERISA-covered funds.
   In exchange for the bribes, the defendants allegedly allowed and helped certain contractors to defraud the
Carpenters Union and its benefit funds out of millions of dollars by permitting the contractors to pay union
members cash at below-union rates, work without benefits, employ undocumented workers and nonunion
workers, and avoid payment to the union benefit funds in violation of applicable CBAs. The defendants
purportedly helped the contractors to conceal the scheme by: filing false shop steward reports, giving the
contractors advance notice of jobsite visits by Carpenters Union investigators, issuing union cards to the
undocumented workers who labored for those contractors for cash, giving false testimony, and destroying
documents.
   Since 1994 the Carpenters Union and its constituent locals and District Council have been bound by a
Federal consent decree stemming from a civil case brought by the United States under the RICO Act to
address a history of union corruption and organized crime influence within the District Council.
   As a result of the indictments, the International United Brotherhood of Carpenters and Joiners of America
placed the NYCDCC under emergency trusteeship and also removed NYCDCC’s executive secretary-
treasurer, as well as the president/business manager, and the business agent of the largest local in the
council.
   This is a joint investigation with the FBI, IRS, and SSA-OIG.




                                                                                                                          56
                                                                               Semiannual Report to Congress, Volume 62
Departmental Management
                             Information Security Weaknesses Identified through
                             FISMA Audit
                                I nformation security controls are critical to ensure the confidentiality, integrity, and availability of the
                                  systems and the DOL applications they support. As part of our annual Federal Information Security
                             Management Act (FISMA) audit work during this period, the OIG issued Notifications of Findings and
                             Recommendations (NOFRs) to six component agencies within the Department. The NOFRs communicated
                             details related to weaknesses in the design or operation of information security controls related to access,
                             configuration management, certification and accreditation, contingency planning, and incident response.
                             Examples of these weaknesses include: system service accounts configured with nonexpiring passwords
                             that were not disabled, or had not had their passwords changed within the past year; audit configurations
                             that were insufficient to follow up on suspicious activity; certification and accreditation packages that did not
                             identify key security controls for continuous monitoring; contingency planning processes that did not provide
                             for maintaining updates to the agency’s official contingency plan; and incident response procedures that
                             were not being followed.

                                OIG audited systems in the following agencies:
                                •   Bureau of Labor Statistics (BLS) - National Longitudinal Surveys System
                                •   Employment Standards Administration (ESA) - Electronic Labor Organization Reporting System
                                •   Job Corps - General Support System
DEPARTMENTAL MANAGEMENT




                                •   Mine Safety Health Administration (MSHA) - Mine Accident, Injury, and Employment System
                                •   Office of the Assistant Secretary for Administration and Management (OASAM) -
                                    Civil Rights Center Title VI/VII Information System
                                •   Office of the Chief Financial Officer (OCFO) - SunGard Mainframe

                               The NOFRs will be used in reporting to the Chief Information Security Officer significant and/or systemic
                             deficiencies, if any, in the controls over information security within DOL, and assessing the potential impact
                             on DOL’s overall security program effectiveness. (Report Nos. 23-09-003-11-001, September 1, 2009; 23-
                             09-004-07-001, September 2, 2009; 23-09-005-04-421, September 10, 2009; 23-09-007-06-001, September
                             10, 2009; 23-09-008-13-001, September 10, 2009; 23-09-006-01-370, September 15, 2009)




                   59
                          Semiannual Report to C
                                               Congress, V
                                                         Volume
                                                           l    62
Strengthened Management Controls Needed over
DOL Purchase Card Program
  T    he purchase card program was established
       in the late 1980s as a way for agencies to
streamline Federal procurement processes through
                                                          noncompliant transactions increase the risk that
                                                          fraudulent, improper, or other abusive activity could
                                                          occur without detection.
a low-cost, efficient means of attaining goods and           We concluded that OASAM needs to strengthen
services directly from merchants. It allows cardholders   its oversight of the DOL purchase card program.
to pay for and receive items in less time than it would   An extensive part of the purchase card process is
take under the normal procurement process. For            delegated to program agencies, which is further
DOL, overall control of the purchase card program         delegated to the respective agency/organization
lies with OASAM. OASAM manages the program                program coordinators (A/OPC). Although OASAM
and is responsible for providing oversight, controls,     did conduct monitoring of high-risk purchase card
and technical assistance.                                 transactions in FY 2007 and again in FY 2008, it
   We conducted an audit to determine if OASAM’s          had not monitored A/OPCs to ensure that they were
oversight of the DOL purchase card program was            effectively implementing controls over purchase card
sufficient to prevent and detect unauthorized charges.    activity for their respective program agencies.
We audited the program for the period June 1, 2007,          We made four recommendations to OASAM
through May 31, 2008. During this time, approximately     to improve management controls over the DOL
1,266 cardholders used purchase cards to procure          purchase card program. OASAM generally agreed




                                                                                                                           DEPARTMENTAL MANAGEMENT
$21.2 million in goods and services.                      with the findings and stated that OASAM plans to take
   Our testing of a statistical sample of 287             actions to address the findings and recommendations
transactions totaling $409,035 found that two key         to improve program oversight and compliance.
transaction-level controls — authorization and            (Report No. 06-09-003-07-001, September 3, 2009)
independent receipt of goods — were not adequately
followed. Based on this testing, we estimate that 73 to
82 percent of the 60,694 purchase card transactions
did not comply with established controls. Such

DOL Contractor Pleads Guilty for Accepting Bribes
  J   ohn Albert Nolan, a former Employment and Training Administration (ETA ) contractor, pled guilty on July
      10, 2009, to accepting a bribe as a public official. While working at ETA’s Philadelphia, Pennsylvania,
Backlog Center, Nolan conspired with another individual who worked at the Law Offices of Earl David / Jed
David Philwin (co-conspirator) to manipulate priority dates and other information on ETA applications. As
a result of Nolan’s actions, benefits, such as qualification under the Legal Immigration Family Equity (LIFE)
Act of 2000, were granted to applicants who would not otherwise have been entitled to them. For his role in
the conspiracy, Nolan received cash and other items of value from the co-conspirator. Due to his conviction,
Nolan was terminated from his position as a dispatcher for the Hopewell (Virginia) Police Department. This
was a joint investigation with ICE. United States v. John Albert Nolan (S.D. New York)

Former ACS Employee Pleads Guilty in a Scheme to
Embezzle More Than $260,000
  L    aquoia Mills, a former Affiliated Computer
       Systems, Inc. (ACS) employee, pled guilty
on August 31, 2009, to wire fraud in a scheme to
                                                             Mills allegedly orchestrated the embezzlement
                                                          by redirecting the funds transfer from ACS to an
                                                          account she controlled. Shortly afterward, the
embezzle more than $260,000. DOL contracts with           defendant allegedly purchased two vehicles, gave
ACS for medical-bill processing functions connected       a family member $20,000, and attempted to pay
to claims under the FECA, Black Lung Benefits Act         for a new home in cash. OIG agents stopped the
(BLBA), and Energy Employees Occupational Illness         purchase of the home on the day the transaction was
Compensation (EEOIC) programs. ACS reported               to close. The OIG took possession of the remaining
in May 2009 that an electronic funds transfer of          $228,954 in the defendant’s account and returned
$263,726 had been wrongfully diverted from the            the recovered funds to DOL’s ESA. United States v.
intended recipient to an unknown account.                 Laquoia Mills (N.D. Florida)
                                                                                                                           60
                                                                                Semiannual Report to Congress, Volume 62
                                                                     Single
                                                                        g Audit Act
                             Audits Conducted Under the Single Audit Act Identified
                             Material Weaknesses and Significant Deficiencies in
                             74 of 248 Reports

                                O    ffice of Management and Budget (OMB) Circular A-133 provides audit requirements for state and
                                     local governments, colleges and universities, and nonprofit organizations receiving Federal awards.
                             Under this circular, covered entities that expend $500,000 or more a year in Federal awards are required to
                             obtain an annual organization-wide audit that includes the auditor’s opinion on the entity’s financial statements
                             and compliance with Federal award requirements. Non-Federal auditors, such as public accounting firms
                             and state auditors, conduct these single audits. The OIG reviews the resulting audit reports for findings and
                             questioned costs related to DOL awards, and to ensure that the reports comply with the requirements of
                             A-133.
                                In the 248 audit reports we reviewed this period, covering DOL expenditures of more than
                             $37.2 billion during audit years 2003 through 2008, the non-Federal and state auditors issued 57 qualified or
                             adverse opinions on awardees’ compliance with Federal grant requirements, on their financial statements,
DEPARTMENTAL MANAGEMENT




                             or both. In particular, the auditors identified 187 findings and $39.9 million in questioned costs in 74 of the
                             248 reports reviewed as material weaknesses or significant deficiencies, indicating serious concerns about
                             the auditees’ ability to manage DOL funds and comply with the requirements of major grant programs. We
                             reported these 187 findings and 221 related recommendations to DOL managers for corrective action. Not
                             correcting these deficiencies could lead to future violations and improper charges.
                                Recipients expending more than $50 million a year in Federal awards are assigned a cognizant Federal
                             agency for audit, and the cognizant agency is responsible for conducting or obtaining quality control reviews
                             of selected A-133 audits. In FY 2009, DOL was the cognizant agency for 18 recipients.
                                During the period, we issued one report of our quality control review of an auditor’s report and supporting
                             audit documentation. The purpose of the review was to determine whether: (1) the audit was conducted in
                             accordance with applicable standards and met the single audit requirements; (2) any follow-up audit work
                             was needed; and (3) there were any issues that might require management’s attention.
                                The audit work performed was acceptable and did meet the requirements of the Single Audit Act and
                             A-133. Additional work was not required to bring the audit into compliance with the requirements of the
                             Single Audit Act and there were no issues that required management’s attention.




                   61
                          Semiannual Report to Congress, Volume 62
                                           DEPARTMENTAL MANAGEMENT




                                           62
Semiannual Report to Congress, Volume 62
Legislative Recommendations
                                                        Legislative
                                                          g         Recommendations
                                       The Inspector General Act requires the OIG to review existing or proposed legislation and
                                    regulations and to make recommendations in the Semiannual Report concerning their impact on
                                    the economy and efficiency of the Department’s programs and on the prevention of fraud and
                                    abuse. The OIG’s legislative recommendations have remained markedly unchanged over the last
                                    several Semiannual Reports, and the OIG continues to believe that the following legislative actions
                                    are necessary to promote increased efficiency in and protection of the Department’s programs and
                                    mission.


                                 Allow DOL Access to Wage Records
                                    T   o reduce overpayments in employee benefit
                                        programs, including UI and FECA, the
                                 Department and the OIG need legislative authority
                                                                                         NDNH. By cross-matching UI claims against this
                                                                                         new-hire data, states can better detect overpayments
                                                                                         to UI claimants who have gone back to work but who
LEGISLATIVE RECOMMENDATIONS




                                 to easily and expeditiously access state UI wage        continue to collect UI benefits. However, this law
                                 records, SSA wage records, and employment               does not provide DOL nor the OIG with access to
                                 information from the National Directory of New Hires    the NDNH. To make the new-hire data even more
                                 (NDNH), which is maintained by the Department of        useful for this purpose, legislative action is needed
                                 Health and Human Services. The DOL and the SSA          requiring that employers report a new hire’s first day of
                                 currently have a memorandum of understanding            earnings and provide a clear, consistent, nationwide
                                 (MOU) in place that allows State Workforce Agencies     definition for this date. Moreover, access to SSA
                                 to access Social Security data on individuals who       and UI data would allow the Department to measure
                                 apply for UI. The MOU is a good first step.             the long-term impact of employment and training
                                    In addition, a provision in the State Unemployment   services on job retention and earnings. Outcome
                                 Tax Authority (SUTA) Dumping Prevention Act of          information of this type for program participants is
                                 2004 (Public Law 108-295) enables state agencies        otherwise difficult to obtain.
                                 responsible for the administration of unemployment
                                 compensation programs to obtain access to the




                     65
                              Semiannual Report to Congress, Volume 62
Amend Pension Protection Laws
  L   egislative changes to ERISA and criminal penalties for ERISA violations would enhance the protection
      of assets in pension plans. To this end, the OIG recommends the following:

        Expand the authority of EBSA to correct substandard benefit plan audits and ensure that
        auditors with poor records do not perform additional plan audits. Changes should
        include providing EBSA with greater enforcement authority over registration, suspension,
        and debarment and the ability to levy civil penalties against employee benefit plan auditors. The
        ability to correct substandard audits and take action against auditors is important because benefit
        plan audits help protect participants and beneficiaries by ensuring the proper value of plan assets
        and computation of benefits.

        Repeal ERISA’s limited-scope audit exemption. This provision excludes pension plan assets
        invested in banks, savings and loans, insurance companies, and the like from audits of employee
        benefit plans. The limited scope prevents independent public accountants who are auditing
        pension plans from rendering an opinion on the plans’ financial statements in accordance with
        professional auditing standards. These “no opinion” audits provide no substantive assurance of
        asset integrity to plan participants or to the Department.




                                                                                                                              LEGISLATIVE RECOMMENDATIONS
        Require direct reporting of ERISA violations to DOL. Under current law, a pension plan auditor
        who finds a potential ERISA violation is responsible for reporting it to the plan administrator, but
        not directly to DOL. To ensure that improprieties are addressed, we recommend that plan
        administrators or auditors be required to report potential ERISA violations directly to DOL. This
        would ensure the timely reporting of violations and would more actively involve accountants in
        safeguarding pension assets, providing a first line of defense against the abuse of workers’
        pension plans.

        Strengthen criminal penalties in Title 18 of the United States Code. Three sections of Title
        18 serve as the primary criminal enforcement tools for protecting pension plans covered by ERISA.
        Embezzlement or theft from employee pension and welfare plans is prohibited by Section 664,
        making false statements in documents required by ERISA is prohibited by Section 1027, and
        giving or accepting bribes related to the operation of ERISA-covered plans is outlawed by Section
        1954. Sections 664 and 1027 subject violators to 5 years’ imprisonment, while Section 1954 calls
        for up to 3 years’ imprisonment. We believe that raising the maximum penalties to 10 years for all
        three violations would serve as a greater deterrent and would further protect employee pension
        plans.



Provide Authority to Ensure the Integrity of the Foreign
Labor Certification Process
  I  f DOL is to have a meaningful role in the H-1B specialty occupations foreign labor certification process,
     it must have the statutory authority to ensure the integrity of that process, including the ability to verify
the accuracy of information provided on labor condition applications. Currently, DOL is statutorily required to
certify such applications unless it determines them to be “incomplete or obviously inaccurate.” Our concern
with the Department’s limited ability to ensure the integrity of the certification process is heightened by the
results of OIG analysis and investigations that show the program is susceptible to significant fraud and
abuse, particularly by employers and attorneys.
   The OIG also recommends that ETA seek the authority to bar employers and others who submit fraudulent
applications to the H-1B foreign labor certification program, similar to that it has regarding the H-2A and the
H-2B programs.



                                                                                                                             66
                                                                                  Semiannual Report to Congress, Volume 62
                                 Enhance the WIA Program Through Reauthorization

                                    T    he reauthorization of the WIA provides an opportunity to revise WIA programs to better achieve their
                                         goals. Based on our audit work, the OIG recommends the following:

                                           Improve state and local reporting of WIA obligations. A disagreement between ETA and
                                           the states about the level of funds available to states drew attention to the way WIA obligations
                                           and expenditures are reported. The OIG’s prior work in nine states and Puerto Rico showed that
                                           obligations provide a more useful measure for assessing states’ WIA funding status if obligations
                                           accurately reflect legally committed funds and are consistently reported.

                                           Modify WIA to encourage the participation of training providers. WIA participants use
                                           individual training accounts to obtain services from approved eligible training providers. However,
                                           performance reporting and eligibility requirements for training providers have made some potential
                                           providers unwilling to serve WIA participants.

                                           Support amendments to resolve uncertainty about the release of WIA participants’
                                           personally identifying information for WIA reporting purposes. Some training providers are
LEGISLATIVE RECOMMENDATIONS




                                           hesitant to disclose participant data to states for fear of violating the Family Education Rights and
                                           Privacy Act.

                                           Strengthen incumbent worker guidance to states. Currently no Federal criteria define how
                                           long an employer must be in business or an employee must be employed to qualify as an
                                           incumbent worker, and no Federal definition of “eligible individual” exists for incumbent worker
                                           training. Consequently, a state could decide that any employer or employee can qualify for a WIA-
                                           funded incumbent worker program.




                                 Improve the Integrity of the FECA Program


                                    T    he OIG continues to support reforms to improve the integrity of the FECA program. Implementing the
                                         following changes would result in significant savings for the Federal government:

                                           •   Move claimants into a form of retirement after a certain age if they are still injured.
                                           •   Return a 3-day waiting period to the beginning of the 45-day continuation-of-pay process to
                                               require employees to use accrued sick leave or leave without pay before their benefits
                                                begin.
                                           •   Grant authority to DOL to directly and routinely access Social Security wage records in
                                               order to identify claimants defrauding the program.




                     67
                              Semiannual Report to Congress, Volume 62
                                            LEGISLATIVE RECOMMENDATIONS




                                           68
Semiannual Report to Congress, Volume 62
Appendices
                Index of Reporting Requirements Under the IG Act of 1978

              GRG
              REPORTING
              REP
              REPO                         REQUIREMENT                                                      PAGE


               Section 4(a)(2)             Review of Legislation and Regulation                               65

               Section 5(a)(1)             Significant Problems, Abuses, and Deficiencies                    ALL

               Section 5(a)(2)             Recommendations with Respect to Significant
                                           Problems, Abuses, and Deficiencies                                ALL

               Section 5(a)(3)             Prior Significant Recommendations on Which
                                           Corrective Action Has Not Been Completed                           92

               Section 5(a)(4)             Matters Referred to Prosecutive Authorities                        93

               Section 5(a)(5) and         Summary of Instances Where Information Was Refused               NONE
               Section 6(b)(2)

               Section 5(a)(6)             List of Audit Reports                                              87

               Section 5(a)(7)             Summary of Significant Reports                                    ALL
APPENDIX




               Section 5(a)(8)             Statistical Tables on Management Decisions on Questioned Costs      86

               Section 5(a)(9)             Statistical Tables on Management Decisions on Recommendations
                                           That Funds Be Put to Better Use                                     86

               Section 5(a)(10)            Summary of Each Audit Report over Six Months Old for
                                           Which No Management Decision Has Been Made                         92

               Section 5(a)(11)            Description and Explanation of Any Significant
                                           Revised Management Decision                                      NONE

               Section 5(a)(12)            Information on Any Significant Management Decisions
                                           with Which the Inspector General Disagrees                       NONE



                Requirements Under the Reports Consolidation Act of 2000
              GRG
               REPORTING
               REP                         REQUIREMENT                                                      PAGE


                Section 3(d)               Top Management Challenges Facing the U.S. Department of Labor       73




      71
           Semiannual Report to Congress, Volume 62
                                            APPENDIX




                                           72
Semiannual Report to Congress, Volume 62
               2009 Top Management Challenges Facing The Department of Labor

                   The Top Management Challenges identified by the Office of the Inspector General (OIG) for the
                 Department of Labor (DOL) are discussed below. The Department’s responses and presentation of
                 its progress on the Top Management Challenges are shown following the OIG report.


                 For 2009, the OIG considers the following as the most serious management and performance challenges
              facing the Department:

                        •        Implementing the American Recovery and Reinvestment Act of 2009
                        •        Protecting the Safety and Health of Workers
                        •        Improving Performance Accountability of Grants
                        •        Ensuring the Effectiveness of the Job Corps Program
                        •        Safeguarding Unemployment Insurance
                        •        Improving the Management of Workers’ Compensation Programs
                        •        Improving Procurement Integrity
                        •        Maintaining the Integrity of Foreign Labor Certification Programs
                        •        Securing Information Technology Systems and Protecting Related Information Assets
                        •        Ensuring the Security of Employee Benefit Plan Assets

                 For each challenge, the OIG presents an overview of the challenge, a description of the challenge, and
              the OIG’s assessment of the Department’s progress in addressing the challenge. The OIG continues to
APPENDIX




              review and monitor how these complex issues are addressed.

             CHALLENGE: Implementing the American Recovery and Reinvestment Act of 2009

                OVERVIEW: The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed into law on
             February 17, 2009. It is an unprecedented effort to jumpstart the economy, while creating or saving millions of
             jobs. DOL has three key roles in the Recovery Act effort: providing worker training for these jobs; easing the
             burden of the recession on workers and employers by providing for extensions and expansions of unemployment
             benefits; and assisting and educating unemployed workers regarding expanded access to continued health
             benefits. The Recovery Act also appropriates substantial funding for construction, alteration, and repair of
             Federal buildings and for infrastructure projects such as roads, bridges, and public transit.

                CHALLENGE FOR THE DEPARTMENT: The Recovery Act provided the Department with approximately
             $45 billion and mandated that these funds be spent expeditiously while ensuring transparency, accountability,
             and results. The risk for fraud and abuse grows when large sums of money are being disbursed quickly,
             eligibility requirements are being established or changed, or new programs are being created. Consequently,
             the Department has to meet the challenges inherently created by increased funding and the corresponding
             increase in the attempts at fraud and abuse that will likely follow. In addition, the Department has new or
             increased requirements impacting many of its ongoing programs. For example, the Recovery Act contains
             premium assistance provisions that expand the Consolidated Omnibus Budget Reconciliation Act (COBRA)
             eligibility and provide eligible individuals with a 65% reduction of their COBRA premiums for up to nine months.
             The Employee Benefits Security Administration (EBSA) will now be responsible for administering the extension
             and subsidization of COBRA for certain groups of eligible laid off workers and for handling appeals, outreach,
             and regulatory responsibilities. Handling the appeals in a timely manner, and having the necessary, trained
             personnel to do so, is a major challenge, as EBSA has reported receiving 6,000 inquiries per week about the
             COBRA premium reduction.

                In addition, the increased funding tied to improvements to the Nation’s infrastructure work will have an
             impact on Departmental enforcement efforts related to worker pay.


      73
           Semiannual Report to Congress, Volume 62
   About $40 billion of the Department’s Recovery Act funds will be used to provide extensions of unemployment
benefits and to fund a new temporary Federal Additional Compensation program, which increases the Weekly
Benefit Amount for unemployment benefits by $25 per week. While costly, the Recovery Act provisions relating
to benefit extensions are (1) a continuation of the Emergency Unemployment Compensation program created
by the Supplemental Appropriations Act 2008, and (2) an inducement for states to pay benefits under the
permanent federal-state extended benefit program. The Federal Additional Compensation program is new to
the Department, as well as to the States that are paying the additional weekly benefit and the Department will
be challenged to ensure that these benefits are accounted for correctly.

   The Recovery Act provided almost $5 billion for Workforce Investment Act (WIA) programs, most of which will
be expended through non-Federal entities, rather than directly by the Department. While these WIA programs
are not new, our past audits have demonstrated problems with respect to grant accountability. Given the
large number of grants being awarded under tight time frames, the pressure to spend the funds quickly, and
the increased reporting requirements mandated by the Recovery Act, the Department now faces even greater
challenges in demonstrating and reporting that grants are properly awarded, funds are properly spent, and that
these investments achieve their intended outcomes.

   The amount of Recovery Act funding designated for infrastructure work will increase the number of Federal
construction projects over the course of two years. The Wage and Hour Division (WHD) will be required to
publish up-to-date and accurate prevailing wage determinations for use on the newly funded construction
projects, and to establish an active enforcement program for Recovery Act covered projects. Many WHD
investigators have little or no experience with Davis-Bacon Act enforcement. Davis-Bacon complaint workloads
are expected to substantially increase, an increase that may continue over a number of years given that some
of the funded projects may be under construction for several years. It will be a challenge for WHD to assign
a sufficient number of trained personnel that will ensure workers receive the wages they are legally due, and
avoid a backlog of non-Recovery Act complaints as a result of increased Recovery Act worker complaints.




                                                                                                                              APPENDIX
   The Recovery Act requires Federal agencies to implement an unprecedented level of transparency and
accountability to ensure the public can see where and how their tax dollars are being spent. The Department
faces several challenges in implementing the performance reporting requirements of the Recovery Act. Most
importantly, the Department needs to report whether recipients used Recovery Act funds to train and place
participants in high-demand occupations or industries. Additionally, the Department needs to develop policies
and procedures to perform data quality reviews of the quarterly reports submitted by recipients.

    DEPARTMENT’S PROGRESS: The Department continues to implement its responsibilities under the
Recovery Act and financial and performance reporting guidance issued by the Office of Management and Budget
(OMB). In keeping with the Recovery Act’s goals for accountability and transparency, DOL established a Web
site (http://www.dol.gov/recovery/) to keep the public informed on how it is spending Recovery Act funds, and
updates it regularly. The Department reassigned staff to address Recovery Act workload and launched a hiring
initiative to meet its expanded program responsibilities. Individual agencies have taken steps to address their
increased responsibilities under the Recovery Act. The Department appointed a Senior Accountable Official
for the Recovery Act. The Senior Accountable Official has held weekly meetings to discuss the Department’s
progress in fulfilling the Recovery Act’s responsibilities. The Office of the Chief Financial Officer has developed
new accounting codes to enable it to separately account for Recovery Act funds. EBSA responded to more
than 110,000 telephone inquiries related to COBRA premium assistance in the first five months after Recovery
Act passage, and the Employment and Training Administration (ETA) made available to the states $40 billion to
support and expand unemployment insurance and $3.5 billion in training and employment formula funds. WHD
has selected a senior executive to manage implementation of its Recovery Act plan, and budget, administrative,
procurement, human resources and wage determination and enforcement staff have been reassigned to assist
in Recovery Act efforts.

   OIG completed several audits in fiscal year (FY) 2009 assessing the Department’s progress under the
Recovery Act. For Recovery Act financial activity, OIG found that, generally, the Department has implemented
procedures to account for Recovery Act financial activity as required by Federal law and OMB guidance, and
report on the use of Recovery Act funds in accordance with OMB guidance.



                                                                                                                             74
                                                                                  Semiannual Report to Congress, Volume 62
                  OIG’s audit of the implementation of the Federal Assistance Compensation program in 10 states found that
              all of the states had aggressively implemented the program. As of June 30, 2009, the 10 states had paid about
              $1.3 billion in benefits to Federal Assistance Compensation program recipients. Challenges encountered by
              the states included overpayment identification, recovery capabilities, and the withholding of taxes. The audit
              also found non-compliance issues concerning states not reporting overpayment information to ETA and not
              withholding taxes when requested by claimants.

                 OIG’s audit of EBSA’s implementation of the COBRA premium assistance provisions of the Recovery Act
              found that EBSA quickly started outreach activities to implement the COBRA provisions under the Recovery
              Act, and designed and implemented a process to provide timely reviews of appeals of premium assistance
              denials. EBSA could improve several aspects of its efforts through improved coordination with ETA to ensure
              Recovery Act COBRA premium assistance materials are displayed and distributed at all One-Stop centers, using
              feedback from enforcement investigations to help assess outreach efforts, developing a resource contingency
              plan, improving controls to assure accurate dates are used on applicant determination letters, and redesigning
              the letters sent to appellants.


              CHALLENGE: Protecting the Safety and Health of Workers

                 OVERVIEW: The Department administers the Occupational Safety and Health Act of 1970 and the Federal
              Mine Safety and Health Act of 1977 (Mine Act), as amended by the Mine Improvement Emergency Response
              Act of 2006. The workplace safety and health of our nation’s workers depends on DOL’s strong enforcement
              of these laws.

                 CHALLENGE FOR THE DEPARTMENT: The two DOL agencies primarily responsible for worker safety
              and health are the Occupational Safety and Health Administration (OSHA) and the Mine Safety and Health
APPENDIX




              Administration (MSHA). OSHA is responsible for ensuring safe and healthful working conditions for 111 million
              workers at more than seven million establishments. MSHA is responsible for the safety and health of over
              390,000 miners who work at more than 14,800 mines. Given the scope of their responsibilities, OSHA and
              MSHA are continually challenged to effectively utilize their operating resources to meet mission needs in all
              areas of responsibility.

                 With more than 7 million workplaces nationwide and with 5,071 fatal workplace injuries reported by the
              Bureau of Labor Statistics in 20081, OSHA’s challenge is to target its limited resources to workplaces where
              they can have the greatest impact. In 2003, OSHA developed the Enhanced Enforcement Program (EEP).
              The EEP was designed to identify employers indifferent to their obligations under the Occupational Safety and
              Health Act in order to target their worksites with increased enforcement attention.

                 Our recent audit of OSHA’s EEP found that OSHA did not always properly identify employers for enhanced
              enforcement. When it did, OSHA did not always take proper action nor place the appropriate management
              emphasis on compliance, commit the necessary resources, and provide clear policy guidance. For example,
              in 29 OSHA-designated EEP cases, OSHA did not take any of the appropriate enhanced enforcement actions,
              and 16 of the 29 employers reported 20 subsequent fatalities. Of these, 14 fatalities were in cases that shared
              similar violations. The OIG recommended that OSHA form a task force to make recommendations to improve
              program efficiency and effectiveness in the following areas: targeting employers indifferent to the safety of their
              employees which are most likely to have unabated hazards and/or company-wide safety and health issues
              at multiple worksites; ensuring appropriate actions (i.e., follow-up and related worksite inspections) are taken
              on indifferent employers and related companies; centralizing data analysis to identify employers with multiple
              EEP qualifying and/or fatality cases that occur across Regions; and identifying and sharing Regional and Area
              Offices’ “best practices” to improve compliance with EEP requirements.




               1   These numbers include fatalities not under OSHA jurisdiction, such as deaths among miners, transportation
                   workers, domestic workers, some public employees, and the self-employed, as well as fatalities that fall outside
                   of OSHA’s definition of work-relatedness.


      75
           Semiannual Report to Congress, Volume 62
    Regarding MSHA, the OIG’s reviews over the past several years revealed a pattern of weak oversight,
inadequate policies, and a lack of accountability on the part of MSHA, which were exacerbated by years of
resource shortages. Historically, MSHA was not meeting its statutory responsibility to conduct inspections at
the nation’s coal mines. Insufficient resources during a period of increasing mining activity made it difficult
for the Department to ensure that it had enough resources in the right places to protect the safety of miners.
While Congress allocated supplemental funding to MSHA in FY 2006 to hire additional mine inspectors, the
full impact of that increase was not immediately realized. MSHA states that it takes from 18 to 24 months of
classroom and on-the-job training for a new hire to become a qualified mine inspector. Therefore, MSHA is just
now reaching a point where those new mine inspectors can have an impact on MSHA’s workload. Retirements
and other attritions make maintaining a sufficient number of trained mine inspectors an ongoing challenge.

   DEPARTMENT’S PROGRESS: OSHA has established an EEP Revision Task Force to design a new
program that will be able to identify and inspect recalcitrant employers more effectively. Some changes under
consideration include mandatory follow-up inspections, more inspections of other establishments of an identified
company, and additional enhanced settlement provisions. OSHA plans for the new program to include a more
intensive examination of an employer’s history for systemic problems that would trigger additional mandatory
inspections.

   All personnel hired under the FY 2006 supplemental funding provided to MSHA by Congress have now
completed their training and are mine inspectors. As of April 30, 2009, MSHA reported that it had increased
its enforcement personnel by 30 percent over 2006 levels. Additional hiring of trainees, due to attrition of
enforcement personnel is an ongoing activity. Efforts are also underway to attract and retain engineers and
specialists. In 2008, for the first time in its history, MSHA reported that it completed 100 percent of all mandatory
mine inspections. However, the OIG remains concerned that MSHA has improved its efforts in inspecting
mines at the cost of not fulfilling other statutory responsibilities, such as mine plan reviews.




                                                                                                                                APPENDIX
CHALLENGE: Improving Performance Accountability of Grants

   OVERVIEW: In FY 2008, the Department’s ETA reported program costs totaling $3.2 billion for the WIA
Adult, Dislocated Worker, and Youth programs. WIA Adult employment and training programs are provided
through financial assistance grants to States and territories to design and operate programs for disadvantaged
persons, including public assistance recipients. ETA also awards grants to States to provide reemployment
services and retraining assistance to individuals dislocated from their employment. Youth programs are also
funded through grant awards that support program activities and services to prepare low-income youth for
academic and employment success, including summer jobs, by linking academic and occupational learning
with youth development activities.

   CHALLENGE FOR THE DEPARTMENT: DOL is challenged to ensure that discretionary grants are properly
awarded and that the Department receives the quality of services that the taxpayers deserve. Successfully
meeting the employment and training needs of citizens requires selecting the best service providers, making
expectations clear to grantees, ensuring that success can be measured, providing active oversight, evaluating
outcomes, and disseminating and replicating proven strategies and programs. Past OIG and Government
Accountability Office (GAO) audits have found weaknesses in how ETA manages its grants to this end. In
audits involving the High Growth, Community Based, and WIRED initiatives, weaknesses found included the
lack of competition in awarding grants, grants that failed to achieve major performance goals, grant agreements
with goals that were so unclear it was impossible to determine success or failure, and grants whose required
matching funds were not provided. Our audits also found that ETA has not evaluated the usefulness of individual
grant products or the overall effectiveness of its discretionary grant initiatives. ETA is also challenged to provide
adequate oversight and monitoring of the grants it awards, as the agency lacks reliable and timely performance
data that would allow identification of problems in time to correct them. In 2005, ETA implemented a data
validation initiative to ensure that state workforce agencies (SWA) report accurate and reliable performance
data for WIA programs. OIG’s recent audit of three states found that they were not using the appropriate
ETA criteria or source documentation to perform the data validations. As a result, ETA has no assurance that
data validation is operating as designed, or that the data reported by states can be relied upon for accurately
reporting performance results.



                                                                                                                               76
                                                                                    Semiannual Report to Congress, Volume 62
                The large increase in funding provided by the Recovery Act challenges the Department even more in
              ensuring that grant funds are appropriately spent on activities that will yield the desired training and employment
              outcomes.

                 DEPARTMENT’S PROGRESS: As a result of the audits by the OIG and GAO, ETA has indicated that it will
              increase the emphasis placed on awarding discretionary grants competitively, developed procedures designed
              to better document decisions and discussions that lead to grant actions, implemented new procedures to ensure
              the proper justification of any future non-competitive awards, and provided training to agency grant officers
              on these new procedures. ETA has also stated that future agreements for pilots and demonstration grants
              will require grantees to obtain an independent evaluation of grant results. While these actions, if effectively
              implemented, should help to improve performance accountability, ETA needs to focus its future efforts on
              determining how best to prioritize its available resources to adequately monitor grant performance and how to
              evaluate grants to ensure desired results are achieved. In conjunction with our planned Recovery Act audit
              work, we will review the Department’s stated progress in this challenge area.


              CHALLENGE: Ensuring the Effectiveness of the Job Corps Program

                 OVERVIEW: Education, training, and support services are provided to approximately 60,000 students at
              122 Job Corps centers located throughout the United States and Puerto Rico. Job Corps centers are operated
              for DOL by private companies through competitive contracting processes, and by other Federal Agencies
              through interagency agreements. The program was appropriated nearly $1.7 billion in FY 2009.

                 CHALLENGE FOR THE DEPARTMENT: The OIG’s work has consistently identified challenges to the
              effectiveness of the Job Corps program. These challenges include ensuring the safety and health of students
              and having accurate, reliable, performance data necessary to determine the success of the program. OIG
              audits have identified safety program weaknesses at some centers, including unsafe or unhealthy conditions
APPENDIX




              and the lack of required safety inspections. Unsafe conditions affect the learning environment and could
              adversely impact the overall success of the Job Corps program. Further, Job Corps officials need to do more
              to address the problems of centers not taking appropriate action for student misconduct, including illegal drug
              use and violence. The OIG found that some centers did not hold required behavior review board meetings
              to evaluate student misconduct and initiate disciplinary action. The lack of appropriate disciplinary action,
              including termination of enrollment, may place the remaining students at risk.

                 OIG audits have found that weak controls at centers have resulted in the overstatement and misrepresentation
              of performance data. The OIG has found problems with the reporting of student outcomes, on-board strength
              and attendance. This is a particular challenge for Job Corps when centers are operated by contractors through
              performance-based contracts, which tie cost reimbursement, incentive fees and bonuses directly to contractor
              performance largely measured by on-board strength, attendance, and outcomes. Under such contracts, there
              is a risk that contractors will graduate students with incomplete training or inflate their performance reports so
              they can continue to operate centers. It is essential for Job Corps to have reliable, accurate, and timely data,
              so that the Department can effectively evaluate contractor performance and participant outcomes.

                 DEPARTMENT’S PROGRESS: Job Corps continues to take actions such as strengthening policies
              and procedures, conducting periodic center assessments, and following up on issues identified in center
              assessments and contractor assessments. Specifically, Job Corps has recently revised its policies regarding
              the completion of training records, which was intended to mitigate both the risk of contractors graduating
              students with incomplete training or inflating their performance reporting. However, our audits continue to
              identify problems. Job Corps’s actions may not achieve the desired outcomes unless proactive, consistent,
              and rigorous oversight of contractors and personnel is provided at all centers.




      77
           Semiannual Report to Congress, Volume 62
CHALLENGE: Safeguarding Unemployment Insurance

   OVERVIEW: The Department partners with the states to administer unemployment benefit programs.
State Unemployment Insurance (UI) provides benefits to workers who are unemployed and meet the eligibility
requirements established by their respective states. UI benefits are largely2 financed through employer taxes
imposed by the states and deposited in the Unemployment Trust Fund (UTF), from which the states pay the
benefits.

   The Department funds State Workforce Agencies (SWAs), which administer the UI program through grant
agreements. These grant agreements are intended to ensure that SWAs both administer the UI program
efficiently and comply with Federal laws and regulations. In addition, the SWAs are required to have disaster
contingency plans in place to enable them to administer benefits in the aftermath of a disaster.

   Disaster Unemployment Assistance (DUA) is a Federally-funded program that provides financial assistance
to individuals who lose their jobs as a direct result of a major disaster and are ineligible for other UI benefits.

   CHALLENGE FOR THE DEPARTMENT: Reducing and preventing UI and DUA overpayments by improving
controls over eligibility, timely detecting and recovering overpayments, and combating fraud against these
programs remain major challenges for the Department. Another challenge involves ensuring that SWAs have
adequate information technology contingency plans that provide for the continuation of services in the aftermath
of disasters.

    In FY 2008, the Department reported a total overpayment rate of 9.92 percent, which equates to more than
    $3.8 billion in UI overpayments—an increase from the $3 billion reported in FY 2007. The Department met
its target goal of identifying and establishing for recovery 56 percent of UI overpayments in FY 2008; however,
this goal had been reduced from the target levels of 59-60 percent established during the previous five years.




                                                                                                                              APPENDIX
It is a challenge for the Department and the SWAs to have systems and controls in place to quickly prevent
or respond to improper payments. The current economic downturn increases this challenge, as more claims
are filed and states shift resources from detecting improper payments to processing claims. The Department
needs to promote the states’ use of the National Directory of New Hires (NDNH) database to prevent and timely
detect overpayments. Our recent audit found that ETA could not demonstrate it exercised sufficient oversight
to ensure SWAs utilized information from the NDNH to prevent and detect unemployment compensation
overpayments. Without effective reviews of SWAs’ use of the NDNH for cross-matching UI claims, ETA cannot
ensure the reliability of the data provided by the states, and the dollar value of detected or possible undetected
overpayments is unknown or cannot be validated. We also found that California (which accounts for roughly
16% of total UI benefits paid), Indiana, the District of Columbia, and Puerto Rico were not using the NDNH to
detect unemployment compensation overpayments.

   Reducing fraud committed against the UI program is also a challenge. ETA estimates that about $1 billion of
the $3.8 billion total overpayments resulted from willful misrepresentation by the claimant – a fraud overpayment
rate of 2.7 percent of UI benefits paid in FY 2008. The OIG investigates fraud committed by individuals who do
not report or who underreport earnings and income while receiving UI benefits. In addition to single claimants
and fictitious employer-related schemes, OIG investigations continue to uncover schemes in which individuals
and/or conspirators commit identity theft to illegally obtain benefits in which UI benefits have been paid to
ineligible claimants.

   The Department also needs to ensure that SWAs have adequate Information Technology (IT) Contingency
Plans that will enable them to continue to pay UI benefits in the event of a disaster such as a hurricane. Our
recent audit found that ETA had not ensured that SWA partners had established and maintained required IT
contingency plans. Specifically, 50 out of 51 plans lacked critical elements to ensure the continued availability
of the UI systems. It is critical that all SWAs have IT contingency plans for UI to ensure that individuals who
rely on these benefits receive this vital support in a time of need and uncertainty.


2   Employees also contribute to Unemployment Insurance in three states.




                                                                                                                             78
                                                                                  Semiannual Report to Congress, Volume 62
                 DEPARTMENT’S PROGRESS: The Department has taken some measures to reduce and prevent UI and
              DUA overpayments. The Department stated in the DOL 2008 Performance and Accountability Report that it
              is continuing to promote the use of NDNH by all states, facilitating a National UI Benefits and Adjudication
              Conference for states to share best practices and discuss improvement strategies, and issuing guidance to
              the states to address legislative requirements of the Unemployment Compensation Integrity Act of 2008, which
              authorizes recovery of some UI fraud overpayments by offsetting Federal income tax refunds. Despite the
              Department’s efforts, the UI overpayment rate over the seven-year period from CY 2002-2008 averaged 9.6
              percent, an increase over the previous 12 year period, which averaged 8.3 percent.

                 The OIG continues to work with UI’s state partners to more effectively provide training to detect and prevent
              UI fraud. In addition, UI was a participant at the OIGs recent investigators training conference where it provided
              instruction on its efforts to recognize, refer and address fraud relating to its program.

                 The Department generally agreed to implement our recommendations that ETA conduct annual verification
              of SWAs’ IT contingency plans. ETA plans to begin working with a selected group of SWAs each year to verify
              the existence and reliability of their IT contingency plans, using the risk based approach that was recommended
              by the OIG. ETA also plans to issue advisories to the SWAs informing each about the availability of FY 2009
              funds to develop or update IT contingency plans, including a requirement that the states awarded UI grants
              obtain independent verification and validation of their contingency plans’ acceptability.


              CHALLENGE: Improving the Management of Workers’ Compensation Programs

                OVERVIEW: The Department has responsibility for managing the Energy Employees Occupational Illness
              Compensation Act Program (Energy workers’ program) and the Federal Employees’ Compensation Act (FECA)
              Program, both of which were designed to address the needs of employees who are injured on the job.
APPENDIX




                 The Energy workers’ program was created to provide compensation to civilian employees who incurred an
              occupational illness, such as cancer, as a result of their exposure to radiation while employed in the nuclear
              weapons production and testing programs of the Department of Energy and its predecessor agencies. In
              certain circumstances, these employees’ survivors may be eligible for compensation. Since the program began
              in 2001, through September 30, 2009, DOL reports it has received 183,456 claims, and issued decisions on
              nearly 90 percent of these claims. DOL had approved slightly more than 38 percent of claims filed and paid
              nearly $4.8 billion in compensation.

                 The FECA program provides income and pays medical expenses for covered Federal civilian employees
              injured on the job, those who have work-related occupational diseases, and dependents of employees
              whose deaths resulted from job-related injuries or occupational diseases. This program is administered by
              the Department, impacting all Federal agencies’ budgets and employees. FECA benefit expenditures totaled
              $2.7 billion in 2008. Most of these costs were charged back to individual agencies for reimbursement to the
              Department’s Office of Workers’ Compensation Programs (OWCP).

                 CHALLENGE FOR THE DEPARTMENT: The challenge for the Energy workers’ program centers on the
              number of claims that are denied compensation and on the timeliness of its claim decisions. For the FECA
              program, the determination of continuing eligibility is the primary challenge.

                 Inquiries by several members of Congress and the public raised concerns as to whether the Department
              unfairly denied too many Energy claims and whether claims decisions were timely. In response to those
              concerns, the OIG conducted an evaluation to determine whether claim decisions issued by the Department
              complied with applicable law and regulations, and whether the Department has a system in place to ensure that
              claims are adjudicated as promptly as possible and claimants are kept informed. The OIG found that claims
              decisions complied with applicable laws and regulations, and were based on the evidence provided by or
              obtained on the behalf of claimants. The OIG also found that the Energy workers’ program has made progress
              in reducing the time it takes to adjudicate claims. However, we found that the claims process remained lengthy
              and it could take up to two years or more to process and adjudicate a claim. Part of the challenge is that the
              National Institute for Occupational Safety and Health (NIOSH) must prepare a dose reconstruction of the amount
              of radiation to which an employee with cancer was exposed. The dose reconstruction process is complicated

      79
           Semiannual Report to Congress, Volume 62
and time consuming. The Department has no regulatory authority to control the time it takes to complete the
NIOSH process. Nonetheless, more can be done to further reduce the time it takes to process claims, to assist
claimants in developing their claims, and to better educate claimants on general program requirements. The
timeliness of adjudicating claims from the viewpoint of the claimant, (i.e., how long it takes from the time they
apply for benefits to reaching a final decision), needs to be measured and reported to show how well the Energy
workers’ program is serving claimants, rather than solely measuring how long a claim is at DOL.

   For FECA, the structure and operation of the program is both a Departmental and a government-wide
challenge. All Federal agencies rely upon OWCP to adjudicate the eligibility of claims, to manage the medical
treatment of those claims, to make compensation payments, and to pay medical expenses. Ensuring proper
payments while being responsive and timely to eligible claimants is a challenge for OWCP. Among these
challenges are moving claimants off the periodic rolls when they can return to work or their eligibility ceases,
preventing ineligible recipients from receiving benefits, and preventing fraud by service providers, and by
individuals who receive FECA benefits while working. A recent OIG audit found OWCP needs to improve its
process for monitoring claimants in the temporary “reemployment status not yet determined” category. FECA
claims examiners are responsible for proactively managing these cases until the claimant either returns to
work, is found to be entitled to reduced compensation, or it is determined the claimant has no re-employment
potential for an indefinite future. OIG noted 2,860 claimants who had been receiving FECA compensation while
in the temporary “reemployment status not yet determined” category for 15 years or longer.

   The OIG recognizes that it is difficult to identify and address improper payments and/or fraud in the FECA
program. Another difficulty is that OWCP does not have the legal authority to match FECA compensation
recipients against social security wage records. Currently, OWCP must obtain permission from each individual
claimant each time in order for it to check records. Being able to do the match would enable OWCP to identify
individuals who are collecting FECA benefits while working and collecting wages.

   DEPARTMENT’S PROGRESS: For the Energy workers’ program, the Department has implemented new




                                                                                                                             APPENDIX
procedures to reduce the time it takes to develop impairment claims and is revamping its procedural guidance.
Additionally, the Department is measuring its timeliness performance from the point of application to final
decision and payment. The Department now publishes on its Web site graphs that show the processing times
for various types of cases, including those sent to NIOSH for completion of a dose reconstruction. These
measures are updated quarterly. The Department has also provided its Resource Centers with expanded
access to the Energy Case Management System (ECMS), which will provide enhanced customer service to
claimants. The Resource Centers are also working to improve the level of education provided to potential
claimants regarding the benefits available under the Act.

   For FECA, the Department completed the roll-out of its new FECA benefit payment system, the Integrated
Federal Employee Compensation System, that is designed to track due dates of medical evaluations, revalidate
eligibility for continued benefits, use data mining to prevent improper payments, boost efficiency, and improve
customer satisfaction.

   The Department needs to continue its efforts to seek legislative reforms to the FECA program to enhance
incentives for employees who have recovered to return to work, address retirement equity issues, discourage
unsubstantiated or otherwise unnecessary claims, and make other benefit and administrative improvements.
Through the enactment of these proposals, the Department estimates savings to the government over 10
years to be $384 million. These legislative reforms would assist the Department to focus on improving case
management and to ensure only eligible individuals receive benefits. In addition, to help ensure proper payments
in the FECA program, the Department is seeking legislative authority to allow for easy and expeditious access
to Social Security Administration (SSA) wage records.

   The OIG continues to provide training to DOL and to other Federal agencies in the detection and prevention
of fraud against the FECA program. This training is designed to upgrade and develop the best investigative
practices and techniques throughout the investigative community to keep pace with the new types of fraudulent
schemes confronting the program. Additionally, OWCP participated in the OIG’s recent investigator training
conference where it provided guidance on its various programs and suggestions for working with the OIG to
effectively address fraud in those programs.



                                                                                                                            80
                                                                                 Semiannual Report to Congress, Volume 62
              CHALLENGE: Improving Procurement Integrity

                 OVERVIEW: The Department contracts for many goods and services to assist in carrying out its mission.
              In FY 2008, the Department’s acquisition authority exceeded $1.8 billion and included over 9,300 acquisition
              actions.

                 CHALLENGE FOR THE DEPARTMENT: Ensuring integrity in procurement activities is a continuing
              challenge for the Department. The OIG’s past audit work has identified violations of Federal procurement
              regulations, preferential treatment in awards, procurement actions that were not in the government’s best
              interest, and conflicts of interest in awards.

                 The Services Acquisition Reform Act (SARA) of 2003 requires that executive agencies appoint a Chief
              Acquisition Officer (CAO) whose primary duty is acquisition management. The Department’s organization has
              not been in compliance with this requirement, as the Assistant Secretary for Administration and Management
              serves as the CAO while retaining other significant non-acquisition responsibilities. Until procurement and
              programmatic responsibilities are properly separated and effective controls are put in place, the Department
              will continue to be at risk for wasteful and abusive procurement practices.

                 DEPARTMENT’S PROGRESS: In January 2007, then-Secretary of Labor Chao issued Order 2-2007,
              which formally established the position of CAO within DOL. This Order specifically stated that the CAO will
              have acquisition management as a primary duty. Further, the Order emphasized that the CAO will report to
              the Secretary with day-to-day guidance from the Deputy Secretary and that the CAO will have responsibility
              for overseeing other Department acquisition activities. However, the Department is not in compliance with
              the full intent of SARA, as the delegated CAO continues to perform many other duties unrelated to acquisition
              management, such as serving as the Department’s Chief Information Officer and overseeing the Department’s
              budget operations. The new DOL leadership is considering its options regarding compliance with the
APPENDIX




              requirements of SARA.


              CHALLENGE: Maintaining the Integrity of Foreign Labor Certification Programs

                 OVERVIEW: The Department’s Foreign Labor Certification (FLC) programs provide United States (U.S.)
              employers access to foreign labor to meet worker shortages under terms and conditions that do not adversely
              affect U.S. workers. The permanent labor certification program allows an employer to hire a foreign worker
              to work permanently in the United States, if a qualified U.S. worker is unavailable and the employment of the
              foreign worker will not adversely affect the wages and working conditions of similarly employed U.S. Workers.
              The H-1B program allows the Department to certify employers’ applications to hire temporary foreign workers
              in specialty occupations such as medicine, biotechnology, and business. The H-2B program permits employers
              to hire foreign workers to come temporarily to the United States and perform temporary non-agricultural labor
              on a one-time, seasonal, peak load, or intermittent basis.

                CHALLENGE FOR THE DEPARTMENT: Maintaining the integrity of its FLC programs, while also
              ensuring a timely and effective review of applications to hire foreign workers, is a continuing challenge for the
              Department.

                 OIG investigations, initiated on referrals from ETA, other law enforcement and non-law enforcement entities,
              as well as on pro-active OIG efforts, continue to uncover schemes carried out by immigration attorneys, labor
              brokers, and transnational organized crime groups, some with possible national security implications. OIG
              investigations have repeatedly revealed schemes involving fraudulent applications filed with DOL on behalf
              of fictitious companies, and those wherein fraudulent applications were filed using the names of legitimate
              companies without their knowledge. Additionally, OIG investigations have uncovered complex schemes
              involving fraudulent DOL FLC documents filed in conjunction with or in support of similarly falsified identification
              documents required by other Federal and state organizations.

                 From an audit standpoint, the OIG has looked at how the Department is challenged to maintain the integrity
              of the FLC programs. In a prior audit of the Department’s FLC programs, we found ETA’s statutory role in

      81
           Semiannual Report to Congress, Volume 62
the H-1B program to be limited by law to a perfunctory review of applications. ETA is required to approve an
H-1B application if the form is complete and free of obvious errors, which amounts to a review function without
any meaningful impact. In addition, a recent OIG audit of the ETA’s iCert H-1B Labor Condition Applications
processing system found that system improvements are needed to better identify incomplete and/or obviously
inaccurate labor condition applications.

   In March 2005, ETA created the PERM (Permanent Electronic Review Management) system which removed
the states from a direct role in reviewing and auditing applications for permanent foreign labor certification,
eliminated the 100 percent review of such applications, and established a sampling and targeting approach to
auditing applications to ensure compliance with the law and program requirements. An OIG audit of the PERM
system found that ETA had discontinued certain types of audits. We also found that ETA had not conducted
audits of all the applications selected for audit. As a result, ETA may have certified fraudulent applications or
applications that did not meet required criteria. Certifying labor applications for foreign workers who were not
eligible for employment could negatively affect the U.S. workforce by reducing the number of jobs available for
U.S. workers.

   DEPARTMENT’S PROGRESS: The OIG and the Department have been working collaboratively to identify
and reduce fraud in the FLC process by providing training and instruction to ETA personnel on better and more
creative ways of identifying and referring to the OIG possible labor-related fraud. In March 2008, ETA’s Office of
Foreign Labor Certification launched its Fraud Detection and Prevention Unit designed to recognize application
fraud by reviewing for inconsistencies, errors, and omissions. The OIG continues to work closely with ETA’s
fraud unit, which, as a presenter at the OIG’s recent investigator training conference, provided program insight
and ideas for better addressing fraud uncovered in its programs.

   In the first quarter of FY 2009, the Department began a review to determine the feasibility of reinstituting
the audits it had previously discontinued doing and is conducting audits as resources permit. The Department
has also implemented other protocols to protect program integrity, including steps to ensure that all audits of




                                                                                                                             APPENDIX
applications identified for audit are actually conducted, and having experienced analysts manually review all
applications.


CHALLENGE: Securing Information Technology Systems and Protecting Related Information Assets

   OVERVIEW: DOL systems contain vital sensitive information that is central to the Department’s mission and
to the effective administration of its programs. DOL systems are used to determine and house the Nation’s
leading economic indicators, such as the unemployment rate and the Consumer Price Index. They also maintain
critical data related to worker safety and health, pension and welfare benefits, job training services, and other
worker benefits. The Congress and the public have voiced concerns over the ability of government agencies
to provide effective information security and to protect critical data.

   CHALLENGE FOR THE DEPARTMENT: Management of information technology (IT) systems is a continuing
challenge for DOL. Keeping up with new threats, IT developments, providing assurances that IT systems will
function reliably, and safeguarding information assets will continue to challenge the Department today and in
the future.

   The OIG’s IT audits have identified access controls, oversight of contractor systems, and the effectiveness
of the Chief Information Officer’s oversight of the Department’s full implementation of mandatory, minimum
information security controls as DOL’s most significant challenges. The OIG has reported on access control
weaknesses over the Department’s major information systems since FY 2001. These weaknesses represent a
significant deficiency over access to key systems and may permit unauthorized users to obtain or alter sensitive
information, including unauthorized access to financial records.

   In light of these challenges, the OIG continues to recommend the creation of an independent Chief Information
Officer (CIO) to provide exclusive oversight of all issues affecting the IT capabilities of the Department.
Accountability can be further enhanced by developing and implementing new reporting lines of communication
for the Chief Information Security Officer (CISO) and the Component Program Information Security Officers
(CPISOs). These new communication lines will require the CISO to report directly to both the CIO and an

                                                                                                                            82
                                                                                 Semiannual Report to Congress, Volume 62
              Executive in the Secretary’s Office dealing with major security matters, including progress on maintaining an
              effective Department-wide information security program. The CPISOs would continue to report directly to their
              respective component program Assistant Secretary while also reporting to DOL’s CISO. These steps will help
              to establish a greater degree of accountability for an overall effective information security program.

                 DEPARTMENT’S PROGRESS: The Department is continuing to take steps to improve the security of its
              information systems by focusing on security controls identified as having the greatest risks throughout the
              Department, such as access controls and configuration management. The Department’s CIO issued updated
              policy to implement minimum security controls developed by the National Institute of Standards and Technology
              and required by the Federal Information Security Management Act (FISMA) in those areas. The Department’s
              CISO plans to focus testing on the technical and operational controls identified as having the greatest risks
              throughout the Department.


              CHALLENGE: Ensuring the Security of Employee Benefit Plan Assets

                 OVERVIEW: The Department’s mission is to protect the security of retirement, health, and other private-
              sector employer-provided benefits for America’s workers, retirees, and their families. These benefit plans
              consist of approximately $5.6 trillion in assets covering more than 150 million workers and retirees. EBSA
              is charged with overseeing the administration and enforcement of the fiduciary, reporting, and disclosure
              provisions of Title I of the Employee Retirement Income Security Act (ERISA).

                 CHALLENGE FOR THE DEPARTMENT: Protecting these benefit plan assets against fraud, misconduct,
              and negligence is a challenge for the Department. OIG labor racketeering investigations demonstrate the
              continued vulnerability of plan assets to criminal activity. The Department is further challenged by its restricted
              authority to oversee plan audits, ERISA’s limited scope audit exemption, and inadequate assessments of
              program effectiveness.
APPENDIX




                 Employer benefit plan audits by independent public accountants provide a first-line defense for plan participants
              against financial loss. Ensuring that audits by independent public accountants meet quality standards adds to
              the Department’s challenge in providing adequate oversight. However, DOL’s authority to require plan audits
              to meet standards remains limited, because the Department does not have the authority to suspend, debar, or
              levy civil penalties against employee benefit plan auditors who perform substandard audits. The Department
              must obtain legislative change to address deficient benefit plan audits and ensure that auditors with poor
              records do not perform additional plan audits.

                 Further, OIG investigations have shown that benefit plan assets remain vulnerable to labor racketeering and
              organized crime influence. Those pension plans, health plans, and welfare benefit plans comprise hundreds
              of billions of dollars in assets. Dishonest benefit plan service providers, including accountants, investment
              advisors, and plan administrators, continue to be a strong focus of OIG investigations, as well as corrupt union
              officials and organized crime members.

                  Another challenge involves EBSA’s ability to assess the effectiveness of its civil enforcement programs. Our
              recent audit found that EBSA could not determine whether its civil enforcement projects, such as the Multiple
              Employer Welfare Arrangements project, were increasing compliance with the ERISA, or whether the projects
              were decreasing the risk that workers will lose benefits. We also found that EBSA could not clearly demonstrate
              it was directing its resources to the enforcement areas with the most impact on its mission to deter and correct
              ERISA violations. Each EBSA regional office differed in its interpretation of enforcement program impact
              and desired outcomes because EBSA Headquarters did not provide clear guidance on intended enforcement
              outcomes. As a result, the allocation of resources differed among the regional offices and agency resources
              may not have been directed at areas with the most impact.

                 OIG’s audit of EBSA’s Rapid ERISA Action Team (REACT) project found similar challenges. In the REACT
              project, EBSA aims to respond in an expedited manner to protect the rights and benefits of plan participants
              when the plan sponsor faces severe financial hardship or bankruptcy and the assets of the employee benefit
              plan are in jeopardy. The audit concluded that EBSA does not have a comprehensive method for measuring the
              desired activities and outcomes of the REACT project, and does not perform a national assessment to judge

      83
           Semiannual Report to Congress, Volume 62
the value of the REACT project in meeting its overall enforcement mission.

   DEPARTMENT’S PROGRESS: While the Department has sought the recommended legislative changes,
such as expanding the authority of EBSA to address substandard benefit plan audits and ensuring that auditors
with poor records do not perform additional plan audits, these changes have not been enacted. In response
to OIG’s audit report on the effectiveness of its civil enforcement projects, EBSA agreed that objectives for
these projects could be more clearer; however, it disagreed with the recommendation to establish performance
measures that evaluate each civil enforcement project’s outcomes versus the stated objective, and with the
recommendation to develop guidance for allocating enforcement resources based on intended outcomes and
actual performance results.

Changes from Last Year

    Changes to the Top Management Challenges from FY 2008 include a revised management challenge
previously entitled, “Improving the Federal Employees’ Compensation Act Program,” which has been renamed
to “Improving the Management of Workers’ Compensation Programs.” Our revised title incorporates concerns
regarding the Federal Employees Compensation Act Programs as well as the Energy Employees Occupational
Illness Compensation Program. As discussed below, we removed the challenge entitled, “Preserving
Departmental Records. “

Preserving Departmental Records

   Preserving Departmental Records was previously discussed in our FY 2008 Top Management Challenges.
The Department took prompt action in responding to the multiple concerns we reported. This included providing
annual training to all DOL employees; issuing guidance on the preservation of records, proper disposal of
records, and management of electronic and hard copy records; and updating its cost-benefit analysis regarding
the establishment of an electronic recordkeeping and document management system. As a result of the




                                                                                                                          APPENDIX
corrective actions taken by DOL management, we have removed this item from the list of Top Management
Challenges.




                                                                                                                         84
                                                                              Semiannual Report to Congress, Volume 62
                                 Audit and Investigative
                                                  g      Schedules
APPENDIX




      85
           Semiannual Report to Congress, Volume 62
                                       Funds Put to a Better Use
                                            Funds Put to a Better Use Agreed to by DOL
                                                                                                             Number of     Dollar Value
                                                                                                               Reports      ($ millions)
For which no management decision had been made as of the commencement of the reporting period                        0                 0
Issued during the reporting period                                                                                   0                 0
Subtotal                                                                                                             0                 0
For which management decision was made during the reporting period:
xDollar value of recommendations that were agreed to by management                                                                    0
xDollar value of recommendations that were not agreed to by management                                                                0
For which no management decision had been made as of the end of the reporting period                                                  0

                                           Funds Put to a Better Use Implemented by DOL
                                                                                                             Number of     Dollar Value
                                                                                                               Reports      ($ millions)
For which final action had not been taken as of the commencement of the reporting period                             4               5.6
For which management or appeal decisions were made during the reporting period                                       0                 0
Subtotal                                                                                                             4               5.6
For which final action was taken during the reporting period:
xDollar value of recommendations that were agreed to by management                                                                    0
xDollar value of recommendations that management has subsequently concluded should not or could not                                 4.2
be implemented or completed
For which no final action had been taken by the end of the period                                                      3            1.4


                                                 Questioned Costs




                                                                                                                                               APPENDIX
                                                Resolution Activity: Questioned Costs
                                                                                                             Number of     Questioned
                                                                                                               Reports           Costs
                                                                                                                           ($ millions)
For which no management decision had been made as of the commencement of the reporting period (as
adjusted)                                                                                                            17            35.2
Issued during the reporting period                                                                                   20            39.9
Subtotal                                                                                                             37            75.1
For which a management decision was made during the reporting period:
xDollar value of disallowed costs*                                                                                                  9.0
xDollar value of costs not disallowed                                                                                              10.2
For which no management decision had been made as of the end of the reporting period                                 28            55.9
For which no management decision had been made within six months of issuance                                          7             5.0
* DOL Grant Officers also disallowed an additional $300 thousand above auditors’ original questioned
costs this period.

                                                 Closure Activity: Disallowed Costs
                                                                                                             Number of     Disallowed
                                                                                                               Reports           Costs
                                                                                                                           ($ millions)
For which final action had not been taken as of the commencement of the reporting period (as
adjusted)**                                                                                                          76            35.6
For which management or appeal decisions were made during the reporting period                                        6             9.3
Subtotal                                                                                                             82            44.9
For which final action was taken during the reporting period:
xDollar value of disallowed costs that were recovered                                                                               3.0
xDollar value of disallowed costs that were written off by management                                                               7.3
For which no final action had been taken by the end of the reporting period                                          72            34.6
*These figures are provided by DOL agencies and are unaudited. Does not include $2.5 million of
disallowed costs that are under appeal. Partial recovery/write-offs are reported in the period in which
they occur. Therefore, many audit reports will remain open awaiting final recoveries/write-offs to be
recorded.
                                                                                                                                              86
                                                                                                   Semiannual Report to Congress, Volume 62
                                                 Final Audit Reports Issued
                                                Program Name                                     # of Nonmonetary Questioned
                                                 Report Name                                     Recommendations Costs ($)
                                                Employment and Training Programs
               Job Corps Program
               Performance Audit of Dynamic Educational Systems, Incorporated Job Corps
               Center Operator; Report No. 26-09-002-01-370; 06/02/09                                           4          0
               Performance Audit of Adams and Associates, Incorporated Job Corps Centers;
               Report No. 26-09-003-01-370; 09/30/09                                                            7          0
               Workforce Investment Act
               Audit of Workforce Investment Act Data Validation for the Adult and Dislocated
               Worker Programs; Report No. 03-09-003-03-390; 09/30/09                                           6          0
               Goal Totals (3 Reports)                                                                         17          0
                                                        Worker Benefit Programs
               Unemployment Insurance Service
               Recovery Act: States Have Aggressively Implemented the $25 Weekly
               Supplemental Unemployment Benefit but Some Challenges Remain; Report No.
               18-09-004-03-315; 09/30/09                                                                       3          0
               Federal Employees' Compensation Act
               OWCP's Jacksonville and New York District Offices Need to Improve
               Monitoring of Re-employment Status of Claimants; Report No. 04-09-004-04-
               431; 09/29/09                                                                                    2          0
               Service Auditors' Report on Integrated Federal Employees' Compensation System
               and Service Auditors' Report on the Medical Bill Processing System for the
               Period October 1, 2008 to March 31, 2009; Report No. 22-09-008-04-431;
               09/15/09                                                                                         0          0
               Employee Benefits Security
APPENDIX




               EBSA Could Strengthen Policies and Procedures over the REACT Project;
               Report No. 05-09-005-12-001; 09/30/09                                                            7          0
               Recovery Act: EBSA Could Improve Some Aspects of Its Implementation of the
               COBRA Premium Assistance Provisions; Report No. 18-09-003-12-001;
               09/30/09                                                                                         5          0
               Goal Totals (5 Reports)                                                                         17          0
                                             Worker Safety, Health, and Workplace Rights
               Foreign Labor Certification
               OFLC's iCert Processing Controls Need to Be Strengthened to Better Identify
               Incomplete and/or Obviously Inaccurate Labor Condition Applications; Report
               No. 06-09-004-03-321; 09/30/09                                                                   8          0
               Goal Totals (1 Report)                                                                           8          0
                                                        Departmental Management
               Office of the Secretary
               Recovery Act: Performance Reporting Creates Challenges for the Department of
               Labor; Report No. 18-09-002-01-001; 09/29/09                                                     4          0
               Office of the Assistant Secretary for Administration and Management
               The Office of the Assistant Secretary for Administration and Management Needs
               to Strengthen Its Oversight of the Purchase Card Program; Report No. 06-09-003-
               07-001; 09/03/09                                                                                 4          0
               Office of the Chief Financial Officer
               Procedures for Accounting and Reporting Financial Activity Under the American
               Recovery and Reinvestment Act of 2009; Report No. 18-09-001-13-001;
               08/28/09                                                                                         0          0
               Goal Totals (3 Reports)                                                                          8          0
               Final Audit Report Totals (12 Reports)                                                          50          0




      87
           Semiannual Report to Congress, Volume 62
                                Single Audit Reports Processed
                                       Program Name                                              # of Nonmonetary   Questioned
                                        Report Name                                              Recommendations     Costs ($)
                             Office of the Secretary
Office of Disability Employment Policy
Single Audit: Institute for Educational Leadership; Report No. 24-09-571-01-080; 06/04/09               1                        0
Single Audit: University of Massachusetts; Report No. 24-09-584-01-080; 07/01/09                        1                        0
                                  Employment and Training Programs
Veterans Employment and Training Service
Single Audit: Maryland Center for Veterans Education and Training, Inc.; Report No. 24-09-583-
02-201; 07/01/09                                                                                        1                        0
Single Audit: United States Veterans Initiative; Report No. 24-09-590-02-201; 07/20/09                  2                        0
Single Audit: Resource, Inc.; Report No. 24-09-599-02-201; 08/19/09                                     1                        0
Single Audit: State of California; Report No. 24-09-613-02-201; 09/10/09                                2                        0
Employment and Training - Multiple Programs
Single Audit: State of New Mexico Office of Workforce Training and Development; Report No. 24-
09-547-03-001; 04/14/09                                                                                 5                       0
Single Audit: State of New York; Report No. 24-09-550-03-001; 05/07/09                                  1                       0
Single Audit: State of Louisiana; Report No. 24-09-551-03-001; 05/12/09                                 6              21,215,172
Single Audit: State of Colorado; Report No. 24-09-552-03-001; 05/12/09                                  5                       0
Single Audit: State of Nebraska; Report No. 24-09-553-03-001; 05/12/09                                 11               5,591,251
Single Audit: State of Florida; Report No. 24-09-555-03-001; 05/19/09                                   7                       0
Single Audit: Commonwealth of Massachusetts; Report No. 24-09-556-03-001; 06/02/09                      1                       0
Single Audit: State of Utah; Report No. 24-09-557-03-001; 06/02/0910                                    2                 328,961
Single Audit: State of Minnesota; Report No. 24-09-559-03-001; 06/02/09                                 4                       0
Single Audit: State of New Hampshire; Report No. 24-09-560-03-001; 06/02/09                             1                       0
Single Audit: State of South Carolina; Report No. 24-09-561-03-001; 06/02/09                            3               1,078,580
Single Audit: State of Iowa; Report No. 24-09-564-03-001; 06/02/09                                      1                       0




                                                                                                                                         APPENDIX
Single Audit: State of North Carolina; Report No. 24-09-566-03-001; 07/15/09                            5                       0
Single Audit: Land Lake College Community College District 517; Report No. 24-09-577-03-001;
06/18/09                                                                                                2                        0
Single Audit: Young Adult Development in Action, Inc. DBA YouthBuild Louisville; Report No.
24-09-582-03-001; 06/25/09                                                                              1                  15,780
Single Audit: State of Georgia; Report No. 24-09-592-03-001; 08/24/09                                   7                       0
Single Audit: South Carolina Employment Security Commission; Report No. 24-09-593-03-001;
07/23/09                                                                                                3                        0
Single Audit: Commonwealth of Pennsylvania; Report No. 24-09-601-03-001; 08/24/09                       3                        0
Single Audit: Michigan Department of Labor and Economic Growth; Report No. 24-09-606-03-
001; 09/18/09                                                                                           4               5,006,009
Single Audit: State of Illinois; Report No. 24-09-608-03-001; 09/28/09                                 12                   4,945
Single Audit: State of California; Report No. 24-09-611-03-001; 09/10/09                                5                       0
Single Audit: State of Arizona; Report No. 24-09-614-03-001; 09/02/09                                   3                       0
Single Audit: New Mexico Department of Workforce Solutions; Report No. 24-09-615-03-001;
09/02/09                                                                                               11                        0
Trade Adjustment Assistance Program
Single Audit: State of Indiana; Report No. 24-09-609-03-330; 09/03/09                                   1                        0
Indian and Native American Program

Single Audit: Denver Indian Center, Inc. and Subsidiary; Report No. 24-09-544-03-355; 04/08/09          2                        0
Single Audit: Cheyenne and Arapaho Tribe; Report No. 24-09-546-03-355; 04/14/09                         1                        0
Single Audit: San Carlos Apache Tribe Workforce Investment Act Program; Report No. 24-09-585-
03-355; 07/1/09                                                                                         2                       0
Single Audit: Southern California Indian Center, Inc.; Report No. 24-09-598-03-355; 08/19/09            7                  14,013
Single Audit: Wyandotte Nation; Report No. 24-09-616-03-355; 09/03/09                                   1                       0
Senior Community Service Employment Program
Single Audit: AARP Foundation; Report No. 24-09-594-03-360; 08/19/09                                    2                     858




                                                                                                                                        88
                                                                                             Semiannual Report to Congress, Volume 62
                                   Single Audit Reports Processed. continued
                                                    Program Name                                           # of Nonmonetary   Questioned
                                                     Report Name                                           Recommendations     Costs ($)
              Single Audit: Commonwealth of Puerto Rico Department of the Family; Report No. 24-09-602-03-
              360; 08/24/09                                                                                        2              154,618
              Seasonal Farmworker Programs
              Single Audit: Commonwealth of Puerto Rico Right to Employment Administration; Report No. 24-
              09-545-03-365; 04/08/09                                                                              2                       0

              Single Audit: Oregon Human Development Corporation; Report No. 24-09-567-03-365; 08/19/09          2                         0
              Single Audit: NAF Multicultural Human Development Corporation; Report No. 24-09-569-03-
              365; 06/10/09                                                                                      2                         0
              Single Audit: Kentucky Farmworker Programs, Inc.; Report No. 24-09-579-03-365; 06/22/09            3                         0
              Workforce Investment Act
              Single Audit: San Diego Workforce Partnership, Inc.; Report No. 24-09-543-03-390; 04/07/09         5                         0
              Single Audit: Workforce Partnership of Greater Rhode Island, Inc.; Report No. 24-09-549-03-390;
              04/24/09                                                                                           2                       0
              Single Audit: State of Delaware; Report No. 24-09-562-03-390; 06/02/09                             3                   3,500
              Single Audit: State of West Virginia; Report No. 24-09-563-03-390; 06/02/09                        3                       0
              Single Audit: Workforce Investment Board of Herkimer, Madison, and Oneida Counties, Inc.;
              Report No. 24-09-572-03-390; 06/11/09                                                              1                         0
              Single Audit: Goodwill Industries of Central Arizona, Inc.; Report No. 24-09-573-03-390;
              06/04/09                                                                                           1                         0
              Single Audit: Span, Inc.; Report No. 24-09-574-03-390; 06/18/09                                    2                         0
              Single Audit: Workforce Development, Inc.; Report No. 24-09-575-03-390; 06/18/09                   2                         0
              Single Audit: College of Dupage; Report No. 24-09-576-03-390; 06/08/09                             1                         0
              Single Audit: North Central Kansas Technical College; Report No. 24-09-578-03-390; 06/18/09        3                         0
              Single Audit: Dekalb County, Georgia; Report No. 24-09-580-03-390; 06/18/09                        3                         0
              Single Audit: Crater Regional Workforce Investment Board; Report No. 24-09-581-03-390;
APPENDIX




              07/14/09                                                                                           5                         0
              Single Audit: Chicago Women In Trade; Report No. 24-09-586-03-390; 07/01/09                        1                         0
              Single Audit: Chicago Technology Park Corporation; Report No. 24-09-589-03-390; 07/20/09           2                         0
              Single Audit: Cincinnati State Technical and Community College; Report No. 24-09-591-03-390;
              07/14/09                                                                                           1                         0
              Single Audit: Metro United Methodist Urban Ministry; No. 24-09-595-03-390; 08/19/09                2                         0
              Single Audit: State of Maryland; Report No. 24-09-596-03-390; 07/24/09                             1                         0
              Single Audit: Isles, Inc. and Subsidiaries; Report No. 24-09-597-03-390; 07/24/09                  1                         0
              Single Audit: State of Rhode Island and Providence Plantations; Report No. 24-09-600-03-390;
              08/19/09                                                                                           3                159,333
              Single Audit: Commonwealth of Puerto Rico Human Resources and Occupational Development
              Council; Report No. 24-09-603-03-390; 08/25/09                                                    11                 44,340
              Single Audit: San Diego - Imperial Counties Labor Council; Report No. 24-09-604-03-390;
              08/25/09                                                                                           2                       0
              Single Audit: Cobb Housing, Inc.; Report No. 24-09-605-03-390; 08/27/09                            1                  25,301
              Single Audit: The Navajo Nation; Report No. 24-09-610-03-390; 09/02/09                             3                 113,393
              Goal Totals (64 Reports)                                                                          197             33,756,054
                                                       Worker Benefit Programs
              Unemployment Insurance Service
              Single Audit: State of Nebraska; Report No. 24-09-548-03-315; 04/15/09                             4                         0
              Single Audit: State of Oklahoma; Report No. 24-09-554-03-315; 06/11/09                             1                         0
              Single Audit: State of Connecticut; Report No. 24-09-565-03-315; 06/02/09                          1                         0
              Single Audit: Government of the United States Virgin Islands; Report No. 24-09-568-03-315;
              06/02/09                                                                                           4                  3,095
              Single Audit: State of Wisconsin; Report No. 24-09-570-03-315; 06/11/09                            2                 26,483
              Single Audit: Job Service North Dakota; Report No. 24-09-587-03-315; 07/01/09                      4                      0
              Single Audit: State of Nevada; Report No. 24-09-588-03-315; 07/14/09                               1                      0




      89
           Semiannual Report to Congress, Volume 62
                     Single Audit Reports Processe. continued
                                      Program Name                                          # of Nonmonetary      Questioned
                                       Report Name                                          Recommendations        Costs ($)
Goal Totals (7 Reports)                                                                             17                  29,578
                              Worker Safety, Health and Workplace Rights
Occupational Safety and Health
Single Audit: State of Minnesota; Report No. 24-09-558-10-001; 06/02/09                              1                  29,070
Single Audit: Michigan Department of Labor and Economic Growth; Report No. 24-09-607-10-
001; 09/18/09                                                                                        2               6,105,381
Single Audit: State of California; Report No. 24-09-612-10-001; 09/10/09                             4                   4,053
Goal Totals (3 Reports)                                                                              7               6,138,504
Single Audit Report Totals (74 Reports)                                                             221             39,924,136




                                                                                                                                       APPENDIX




                                                                                                                                      90
                                                                                           Semiannual Report to Congress, Volume 62
                                                                Other Reports
                                                     Program Name                                                # of Nonmonetary Questioned
                                                      Report Name                                                Recommendations Costs ($)
                                              Employment and Training Programs
               Job Corps Program
               Notifications of Findings and Recommendations Related to the Federal Information Security
               Management Act Audit of: Job Corps' General Support System; Report No. 23-09-006-01-370;
               09/15/09                                                                                                 9                  0
               YouthBuild

               Alert Memorandum: Recovery Act: YouthBuild Grantees Have Not Been Informed of the Expanded
               Population Eligible to Be Served with Recovery Act Funds; Report No. 18-09-005-03-001; 09/29/09          1                  0
               Senior Community Service Employment Program
               Quality Control Review: Single Audit of the AARP Foundation; Report No. 24-09-006-03-360;
               07/01/09                                                                                                 0                  0
               Bureau of Labor Statistics
               Notifications of Findings and Recommendations Related to the Federal Information Security
               Management Act Audit of: BLS' National Longitudinal Surveys System; Report No, 23-09-003-11-
               001, 09/01/09                                                                                           18                  0
               Goal Totals (4 Reports)                                                                                 28                  0
                                             Worker Safety, Health, and Workplace Rights
               Labor Management Standards
               Notifications of Findings and Recommendations Related to the Federal Information Security
               Management Act Audit of: Employment Standards Administration's Electronic Labor Organization
               Reporting System; Report No. 23-09-005-04-421; 09/10/09                                                 19                  0
               Mine Safety and Health
               Notifications of Findings and Recommendations Related to the Federal Information Security
               Management Act Audit of: MSHA's Mine Accident, Injury, and Employment System; Report No. 23-
APPENDIX




               09-007-06-001; 09/10/09                                                                                  7                  0
               Goal Totals (2 Report)                                                                                  26                  0
                                                    Departmental Management
               Office of the Assistant Secretary for Administration and Management
               Notifications of Findings and Recommendations Related to the Federal Information Security
               Management Act Audit of: Civil Rights Center Title VI/VII Information System; Report No. 23-09-
               004-07-001; 09/02/09                                                                                    16                  0
               Office of the Chief Financial Officer
               Alert Memorandum: Department of Labor New Core Financial Management System Training; Report
               No. 22-09-014-13-001; 08/21/09                                                                           2                  0
               Alert Memorandum: New Core Financial Management System Cut-over Procedures; Report No. 22-
               09-015-13-001; 09/03/09                                                                                  3                  0
               Notifications of Findings and Recommendations Related to the Federal Information Security
               Management Act Audit of: OCFO's SunGard Mainframe; Report No. 23-09-008-13-001; 09/10/09                 5                  0
               Goal Totals ( 4 Reports)                                                                                26                  0
               Other Report Totals (10 Reports)                                                                        80                  0




      91
           Semiannual Report to Congress, Volume 62
                     Unresolved Reports: Over Six Months Old
      Agency         Date                                                                        # of                    Questioned
                    Issued                            Name of Audit                         Recommendations               Costs ($)
                                     Nonmonetary Recommendations and Questioned Costs
                           OIG Conducting Follow up Work During FY 2010 Financial Statement Audit
OCFO                3/20/2008 FY 2007 Consolidated Financial Statements Management Advisory       1                                 0
                              Comments: Report No. 22-08-006-13-001
OCFO                3/18/2009 FY 2008 Consolidated Financial Statements Management Advisory                11                       0
                              Comments: Report No. 22-09-006-13-001
               Final Management Decision Issued by Agency Did Not Resolve; OIG Negotiating with Program Agency

                              Coal Mine Hazardous Condition Complaint Process Should Be
MSHA                9/29/2006 Strengthened: Report No. 05-06-006-06-001                                     1                       0
                              MSHA Roof Control Plan at Crandall Canyon Mine: Report No. 05-
MSHA                3/31/2008 08-003-06-001                                                                 1                       0
                              Selected High Growth Job Training Initiative Grants: Value Not
ETA                 4/29/2008 Demonstrated: Report No. 02-08-204-03-390                                     3              2, 557,887
                              Complaint Received from the American Coal Company: Report No.
MSHA                 1/9/2009 05-09-002-06-001                                                              2                       0
                              EBSA Could More Effectively Evaluate Enforcement Project
EBSA                3/31/2009 Results: Report No. 05-09-003-12-001                                          3                       0
                               Final Management Decision Not Issued by Agency by Close of Period
                              Employees with Reported Fatalities Were Not Always Properly
                              Identified and Inspected Under OSHA’s Enhanced Enforcement
OSHA                3/31/2009 Program: Report No. 02-09-203-10-105                                     6                            0




                                                                                                                                             APPENDIX
                          Final Determination Not Issued by Grant/Contracting Officer by Close of Period
                              Performance Audit of Applied Technology System, Inc. Job Corps
Job Corps           9/30/2008 Centers: Report No. 26-08-005-01-370                                     2                      678,643
                              Performance Audit of Management and Training Corporation Job
Job Corps            4/1/2009 Corps Centers: Report No. 26-09-001-01-370                                    6                  63,943
                              Procurement Violations and Irregularities Occurred in OSHA’s
                              Oversight of a Blanket Purchase Agreement: Report No. 03-09-002-
OSHA                 1/9/2009 10-001                                                                        3                 681,379
                                              Agency Waiting for Guidance from OMB
                              Job Corps’ Reported Performance Measures Did Not Comply with
                              All Legislative Reporting Requirements: Report No. 04-09-003-01-
Job Corps           3/23/2009 370                                                                           1                       0
                                         Agency Has Requested Additional Time to Resolve
                              National Asian Pacific Center on Aging: Report No. 09-08-001-03-
ETA                 9/30/2008 360                                                                           3                 182,178
                              Audit of the DOL Earmarked Grants Awarded to the West Virginia
                              High Technology Consortium Foundation: Report No.03-09-001-03-
ETA                 3/31/2009 390                                                                           6                 829,890
ETA                 2/27/2009 Single Audit: City of Detroit: Report No. 24-09-541-03-390                    3                  41,222




                                                                                                                                            92
                                                                                                 Semiannual Report to Congress, Volume 62
                                                      Investigative Statistics
                                                                                             Division            Total
                                                                                              Totals
               Cases Opened:                                                                                             174
                  Program Fraud                                                                      132
                  Labor Racketeering                                                                  42

               Cases Closed:                                                                                             235
                  Program Fraud                                                                      175
                  Labor Racketeering                                                                  60

               Cases Referred for Prosecution:                                                                           131
                  Program Fraud                                                                         96
                  Labor Racketeering                                                                    35

               Cases Referred for Administrative/Civil Action:                                                            65
                  Program Fraud                                                                         48
                  Labor Racketeering                                                                    17

               Indictments:                                                                                              214
                  Program Fraud                                                                      155
                  Labor Racketeering                                                                  59

               Convictions:                                                                                              221
APPENDIX




                 Program Fraud                                                                       152
                 Labor Racketeering                                                                   69

               Debarments:                                                                                                18
                  Program Fraud                                                                          3
                  Labor Racketeering                                                                    15

               Recoveries, Cost Efficiencies, Restitutions, Fines/Penalties,                                  $123,116,096
               Forfeitures, and Civil Monetary Actions:
                  Program Fraud                                                             $95,545,159
                  Labor Racketeering                                                        $27,570,937


               Recoveries: The dollar amount/value of an agency’s action to recover or to reprogram           $3,020,430
               funds or to make other adjustments in response to OIG investigations
               Cost-Efficiencies: The one-time or per annum dollar amount/value of management’s                $6,032,407
               commitment, in response to OIG investigations, to utilize the government’s resources
               more efficiently
               Restitutions/Forfeitures: The dollar amount/value of restitutions and forfeitures             $112,023,560
               resulting from OIG criminal investigations
               Fines/Penalties: The dollar amount/value of fines, assessments, seizures,                       $1,549,465
               investigative/court costs, and other penalties resulting from OIG criminal investigations
               Civil Monetary Actions: The dollar amount/value of forfeitures, settlements, damages,            $490,234
               judgments, court costs, or other penalties resulting from OIG civil investigations
               Total                                                                                         $123,116,096




      93
           Semiannual Report to Congress, Volume 62
                                           OIG Hotline

    The OIG Hotline provides a communication link between the OIG and persons who
  want to report alleged violations of laws, rules, and regulations; mismanagement; waste
  of funds; abuse of authority; or danger to public health and safety. During the reporting
  period (April 1, 2009, through September 30, 2009), the OIG Hotline received a total of
  1,744 contacts. Of these, 1,256 were referred for further review and/or action.




          Complaints Received (by method reported):                                            Totals
          Telephone                                                                             1,377
          E-mail/Internet                                                                         168
          Mail                                                                                    139
          Fax                                                                                      55
          Walk-In                                                                                   5
          Total                                                                                 1,744

          Contacts Received (by source):                                                       Totals
          Complaints from Individuals or Nongovernmental Organizations                          1,668
          Complaints/Inquiries from Congress                                                       18




                                                                                                                           APPENDIX
          Referrals from GAO                                                                       18
          Complaints from Other DOL Agencies                                                       16
          Incident Reports from DOL Agencies and Grantees                                           8
          Referrals from OIG Components                                                             5
          Complaints from Other (non-DOL) Government Agencies                                      11
          Total                                                                                 1,744

          Disposition of Complaints:                                                           Totals
          Referred to OIG Components for Further Review and/or Action                             111
          Referred to DOL Program Management for Further Review and/or Action                     531
          Referred to Non-DOL Agencies/Organizations                                              630
          No Referral Required/Informational Contact                                              488
          Total                                                                                1,760*



*During this reporting period, the Hotline office referred several individual complaints simultaneously to
multiple offices or entities for review, (e.g. two OIG components, or to an OIG component and DOL program
management and/or non-DOL agency).




                                                                                                                          94
                                                                               Semiannual Report to Congress, Volume 62
                  Office of Inspector General
               United States Department of Labor


  Report Fraud, Waste, and Abuse

             Call the Hotline
     202.693.6999      800.347.3756
             Email: hotline@oig.dol.gov
               Fax: 202.693.7020




  The OIG Hotline is open to the public and to Federal employees
 24 hours a day, 7 days a week to receive allegations of fraud, waste,
and abuse concerning Department of Labor programs and operations.

                             OIG Hotline
                       U.S. Department of Labor
                      Office of Inspector General
                     200 Constitution Avenue, NW
                             Room S-5506
                        Washington, DC 20210
Office of Inspector General, U.S. Department of Labor
             200 Constitution Avenue, NW
                     Room S-5506
                Washington, DC 20210

Report Fraud, Waste, and Abuse by calling or e-mailing
                  the OIG Hotline
        800.347.3756 or hotline@oig.dol.gov
